<html>
<title> - SADDAM'S IRAQ: SANCTIONS AND U.S. POLICY</title>
<body><pre>[Senate Hearing 106-735]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-735
 
                SADDAM'S IRAQ: SANCTIONS AND U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
67-659 CC                   WASHINGTON : 2000



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Duelfer, Charles, former deputy executive chairman, UNSCOM, New 
  York, NY.......................................................    64
    Prepared statement...........................................    65
Leventhal, Paul, president, Nuclear Control Institute, 
  Washington, DC.................................................    32
    Prepared statement (includes the following attachments)......    35
      ``Iraq's Nuclear Weapons Program: Unresolved Issues''......    40
      ``NCI Warns That Saddam May Have Active Nuclear Weapons 
        Program''................................................    41
      ``Iraq and the Bomb: The Nuclear Threat Continues''........    42
      Letter to Mohamed ElBaradei, Director General, IAEA, dated 
        June 24, 1998............................................    52
      Letters to the Editor, the Washington Post, June 22, 1998, 
        entitled, ``Unanswered Questions in Iraq''...............    53
      Fax letter to Mr. Paul Leventhal, Nuclear Control Institute 
        from Mohamed ElBaradei, Director General, IAEA, dated 
        June 25, 1998............................................    54
      Abstracts from the Fourth Consolidated Six-Monthly Progress 
        Report of the Director General of the IAEA, October 8, 
        1997.....................................................    55
      Abstracts from the Fifth Consolidated Six-Monthly Progress 
        Report of the Director General of the IAEA, April 9, 1998    57
      Letter to Mohamed ElBaradei, Director General, IAEA, dated 
        July 1, 1998.............................................    58
      ``State Department Discloses It Is Pursuing Reports of 
        Iraqi Nuclear Bomb Components,'' news release dated May 
        3, 1998..................................................    59
      Letter to President Clinton, dated November 19, 1998 (with 
        attached correspondence).................................    60
Milhollin, Gary, director, Wisconsin Project on Nuclear Arms 
  Control, Washington, DC........................................    23
    Prepared statement...........................................    25
    Article from The New Yorker, December 13, 1999, entitled, 
      ``Dept. of Mass Destruction--Saddam's Nuclear Shopping 
      Spree''....................................................    29
    Chart from the New York Times Week in Review, December 20, 
      1998, entitled, ``What the Inspectors Can't Find and Why 
      They Can't Find It''.......................................    30
Walker, Hon. Edward S., Assistant Secretary of State for Near 
  Eastern Affairs, Department of State...........................     3
    Prepared statement...........................................     7
Wellstone, Hon. Paul, U.S. Senator from Minnesota, prepared 
  statement......................................................    15

                                 (iii)

  


                SADDAM'S IRAQ: SANCTIONS AND U.S. POLICY

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 10:22 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee) presiding.
    Present: Senators Brownback, Biden and Wellstone.
    Senator Brownback. The hearing will be called to order.
    Thank you all for joining us today. Ambassador Walker, in 
particular, I want to thank you for being here. This will be 
your first appearance in front of the committee since your 
confirmation hearing. So, I am delighted to have you here.
    Senator Wellstone will be joining us. He has another 
meeting but will be joining us in the hearing. I hope some 
other members will as well.
    Before we get started, I hope, Ambassador Walker, that you 
have a chance and will take the opportunity to address a broad 
range of issues, although the hearing today is about Iraq. If I 
had my druthers, we would be discussing a wide range of issues 
here today and not just the question of Iraq, particularly 
issues like what is taking place in the peace process, 
specifically the discussions regarding the Syrian track.
    Congress, I would note to you, clearly wants to be 
consulted before any agreement is reached that will involve 
significant U.S. dollars and/or the use of U.S. troops or 
observers in any sort of peace agreement. This is something 
that the Congress wants to know about before any fait accompli 
occurs.
    Also, I hope you feel free to take the opportunity to 
discuss sanctions concessions on Iran, potentially on Libya. 
But today's hearing is about Iraq, and we will stay to that 
topic, but feel free to comment on these others because they 
are very pressing issues of interest and concern.
    It has long been my belief that policy toward Iraq should 
be really a rather simple matter. One, Iraq must be disarmed 
completely. Two, failing total disarmament, Saddam Hussein 
should be removed from power. This administration has embraced 
to, a greater or lesser degree, both of these goals, and in 
both cases, I wonder really if the administration has lost 
sight of its objectives.
    On the question of disarmament, there have been no weapons 
inspectors in Iraq for well over a year. We have no idea what 
Saddam is up to. We can be pretty sure it is not good for us. 
In order to get inspectors back in, the United States has 
agreed to water down the inspection regime and weaken the 
sanctions regime. And even those concessions have not bought 
compliance from Saddam.
    Now, to an observer, the situation is not too complicated. 
At the end of 1998, the United States launched a military 
operation against Iraq because Saddam was not cooperating with 
UNSCOM. A year later UNSCOM was disbanded by the Security 
Council with the help of the United States, and a kinder, 
gentler commission was created. Now, what changed? Not Saddam, 
that is for sure. What changed was the U.S.'s position and 
resolve.
    The administration seems to be listening to those who blame 
sanctions for the suffering of the Iraqi people. We signed on 
to the U.N. Security Council Resolution 1284 which lifted any 
ceiling on Iraqi oil exports. Saddam now has more oil flowing 
than he did before the Gulf war and at a much better price I 
might add. In spite of that, we have agreed to soften the 
inspections regime and the sanctions regime, which to my mind 
will help neither the people of Iraq nor U.S. interests.
    Now, I hope it is abundantly clear at this point in time 
that Saddam Hussein is the enemy of the Iraqi people. As well, 
he is an adversary of ours and of the United Nations. Let us 
face up to that fact once and for all. For the sake of the 
Iraqi people and for the interests of the American people and 
our allies, Saddam should be removed. It really is as simple as 
that.
    I look forward to your statement. Ambassador Walker, I 
appreciate your expertise. I have appreciated the friendship 
and being able to work with you. I have to say, though, in my 
observation of what we are doing toward Iraq right now, it 
reminds me of the NCAA tournament and somebody ahead in the 
game, or even behind in the game, and sitting on the ball. We 
just are not pressing the issue forward at all. At all. I see 
nothing observable that we want to change regimes in Iraq 
anytime during the Clinton administration, that we are going to 
press for a different disarmament regime in Iraq anytime during 
the Clinton administration. It is as if we are just kind of 
running out the clock and we are behind in the game, which does 
not make much sense to do.
    So, I hope you can persuade me differently, but my 
observation of this is not very hopeful. And I have not seen 
the implementation of the Iraq Liberation Act to any degree of 
which the Congress intended for that act to be implemented and 
pressed forward. This is a broad-based concern in the Congress, 
particularly in the Senate. It is a bipartisan concern. Senator 
Kerrey from Nebraska and I talk often about this issue of 
concern about what is taking place in Iraq and the signal that 
we have sent to our allies who are neighbors with Iraq in the 
region that, look, Saddam is just going to be there. Deal with 
it. I do not think that is the right signal for us to be 
sending to them, nor one that we should be sitting on our hands 
letting the clock run out on this administration in our policy 
of dealing toward Iraq.
    So, hopefully you can tell me that there are more and 
better things that are on the horizon that are going to be 
happening dealing with Iraq and some of these other issues that 
we discussed at the outset. I look forward to your testimony.
    But we have been joined by the ranking member of the 
committee. I am delighted to have him here and present. Senator 
Biden, the floor is yours.
    Senator Biden. Thank you. Mr. Ambassador, if you have the 
answer to the chairman's questions, you will win the Nobel 
Peace Prize. We have to get you an answer in the administration 
too. What is the Congress willing to do?
    I recall having a meeting with the newly organized and--how 
could I say--unified Iraqi opposition leadership that met in 
the United States, and all of us sat there with them. We were 
interested, a bunch of us--I do not know--8, 10, 12 Senators 
and talked about how we had to do more. I raised the following 
question.
    I said, if we go ahead and implement the Iraqi Liberation 
Act with funding available to us and these folks who constitute 
the opposition--and they are varied in their backgrounds--if 
they begin to move and they are pinned down--I asked this 
particular leader of the group, who I will not mention now 
because it was a private meeting, I said, look out at each of 
these Senators. Ask how many are willing to vote to send 
American troops if you are pinned down. I said, I commit to you 
I will. I did not notice another hand raised in that meeting. 
Not one other hand.
    So, it seems to me that we have a big problem. Saddam is 
the problem. Saddam is in place. Saddam is not going anywhere 
unless we do something relatively drastic. It is clear our 
allies are not prepared to do anything drastic. As a matter of 
fact, it is clear, on the part of the French and others, they 
would rather essentially normalize the relationship. So, we 
have got a big problem.
    And any insight you can give us as to why we are not doing 
more--I too am confused as to what we seem to be in the 
administration--you seem to be taking the position which is 
essentially if you cannot fight them, join them. That is, our 
friends who say that the problem is the sanctions. I do not 
agree with that.
    So, at any rate, I am anxious to hear your testimony, and I 
hope that we can generate enough backbone here in the Congress, 
as well as enough leadership in the administration, to come up 
with a consensus policy as to what we should do.
    Senator Brownback. And I am willing to work on that. I do 
note in that meeting, the Iraq opposition was not asking for 
U.S. troops. They were asking for us to implement that act----
    Senator Biden. No. That is right. They were not.
    Senator Brownback [continuing]. And press forward with its 
implementation which, it strikes me, has been very slow to 
come. Now, maybe you have a different report for us today, 
Ambassador Walker, and I hope that is the case.
    The floor is yours.

  STATEMENT OF HON. EDWARD S. WALKER, ASSISTANT SECRETARY OF 
     STATE FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Walker. Mr. Chairman, thank you very much, 
Senator. Very nice to be here. I really do appreciate the 
opportunity to testify before the subcommittee and particularly 
as my first opportunity, Senator, since you were the one who 
chaired my confirmation hearing.
    A couple of points on the items that you mentioned before. 
I think we are going to be in a much better position to talk 
about the Syrian track of the peace process after Sunday and 
after the meeting of the President with President Assad. 
Hopefully, we will have an opportunity to consult after that.
    Clearly, the President understands and the Secretary 
understands fully the importance of having congressional 
consultations prior to the kinds of commitments that are being 
talked about. We have not reached the point yet where this has 
been pinned down. We will be shortly doing that, and at that 
point it is my expectation that we will begin consultations on 
the Hill.
    The Iran subject is a complex one and I think would be 
better taken up in a forum in which we had more time to discuss 
it.
    Senator Brownback. I would be happy to provide that at a 
time when you can come back. I would enjoy and would appreciate 
your presentation of it today, but we will get a time where you 
are available and we will discuss it thoroughly.
    Ambassador Walker. Because it is a complex situation and we 
do not want to have misinterpretation of what we have done 
through the Secretary's statement. So, I think it is important 
to have that conversation.
    I do welcome the opportunity to mention the Libya 
situation. It is very important that people understand that 
what we are doing with sending a consular delegation to Libya 
is strictly a consular matter. There are only two countries in 
the world where the United States passport is not authorized. 
One is Iraq and one is Libya. We have business interests in 
Libya. It is our intent to see if it is safe for Americans, and 
that is the sole purpose of the consular visit. If it is safe, 
then the Secretary will have to make a decision whether or not 
to authorize U.S. passports. That decision has not been made 
yet.
    This has no relationship to subsequent steps. There are no 
subsequent steps in mind. We have a series of requirements of 
Libya that have been put down by the United Nations Security 
Council. We are adhering to those requirements relating to 
cooperation with the trial authorities, the Scottish 
authorities, relating to support for terrorism and relating to 
compensation for the families of the victims. There is no 
change in that policy, and we will continue along those lines.
    So, I want to make sure that people understand that this is 
not a move to take Libya off the terrorist list or to change 
any of the sanctions that have been imposed by the Security 
Council.
    Now, if I may, Senator, I would like to read a statement, 
and then I welcome the question and answer period when we can 
clarify some of the items that you have discussed already.
    Iraq, under Saddam Hussein, remains dangerous, unrecon-
structed, and defiant. Saddam's record makes clear that he will 
remain a threat to regional peace and security as long as he 
remains in power. That is why the United States is committed to 
containing Saddam Hussein as long as he remains in power. But 
we are also committed to helping alleviate the suffering of the 
Iraqi people and to supporting Iraqis who seek a new government 
and a better future for Iraq.
    We contain Saddam through U.N. sanctions which deny him the 
resources needed to reconstitute weapons of mass destruction, 
by enforcing no-fly zones in the north and south, and by 
maintaining a military presence in the region and a readiness 
to use force if necessary.
    An effective disarmament and monitoring regime inside Iraq 
would strengthen containment by further limiting Iraq's efforts 
to rearm. Resolution 1284 reaffirms that Iraq has not fulfilled 
its obligations under previous Security Council resolutions to 
declare and destroy its weapons of mass destruction. The 
resolution establishes a new arms control organization, the 
United Nations Monitoring, Inspection and Verification 
Commission, or UNMOVIC, to replace UNSCOM. UNMOVIC retains 
UNSCOM's broad mandate and authorities. It has the right to 
conduct intrusive inspections into Iraq's past weapons of mass 
destruction programs, as well as to monitor and to prevent 
future developments of weapons of mass destruction. It has the 
right to immediate, unconditional, and unrestricted access to 
any and all sites, records, and facilities.
    The United Nations is moving ahead with implementation of 
the Resolution 1284. The Secretary General has appointed Hans 
Blix of Sweden, a former director general of the International 
Atomic Energy Agency, as executive chairman of UNMOVIC, and he 
took up his duties on March 1. We have met several times with 
Dr. Blix since his appointment, and he has made clear that he 
is committed to putting in place a robust, technically 
proficient body which will accept nothing less than full Iraqi 
cooperation.
    Sanctions are the most critical element of containment. In 
the absence of the sanctions regime and a comprehensive 
international system of controls, Saddam Hussein would have 
sole control over Iraq's oil revenues, estimated at $20 billion 
over the coming year. In the absence of comprehensive 
international controls, even if a military embargo remained in 
place, it is inevitable that Saddam would once again threaten 
the region and ignore the needs of the Iraqi people.
    But it is also essential that we address the humanitarian 
needs of the Iraqi people. Not only is it right for the 
international community to do all it can to assist the Iraqi 
people who are the pawns of Saddam Hussein, but doing so 
minimizes the risk of sanctions erosion and alleviates 
international pressures to ease or lift the controls which keep 
Iraq's revenue out of the hands of Saddam Hussein.
    U.N. sanctions have never targeted the Iraqi people and 
have never limited the important food and medicine for the 
Iraqi people. In fact, it was the United States that pressed 
for the creation of the first oil-for-food program adopted in 
1991. Baghdad rejected this program, and it was not until 1996 
that it finally accepted oil-for-food.
    Since the first oil-for-food supplies arrived in Iraq in 
1997, the program has brought tremendous improvements in living 
conditions. Iraqi per capita intake has risen from 1,300 
calories before the program began to over 2,000 calories now 
provided by a U.N. ration basket which is augmented by locally 
grown produce.
    Food imports are now at about prewar levels. In the year 
before the program began, Iraq imported about $50 million worth 
of medicines. Since the program began, more than $1 billion 
worth have been approved. Ninety percent of essential drug 
needs in hospitals are now being met. Over a billion dollars 
worth of goods for the water, sanitation, electrical, and 
agricultural sectors have been approved.
    Saddam Hussein, however, has abused the program to the 
detriment of the Iraqi people in an attempt to get sanctions 
lifted without compliance. The Secretary General reported 
earlier this month that Iraq has still not implemented the 
supplementary feeding programs recommended for years by the 
United Nations for malnourished children under 5 and for school 
children.
    To get the clearest picture of the oil-for-food program and 
its potential, it is helpful to compare its operation in 
northern Iraq where the United Nations controls distribution 
and in southern and central Iraq where Saddam controls the 
distribution of goods. A UNICEF report on child mortality in 
Iraq conducted last year revealed a disturbing rise in child 
mortality rates, more than double pre-war levels, in south and 
central Iraq, the parts of the country controlled by Saddam 
Hussein. But the report also revealed that child mortality 
rates in northern Iraq had dropped below pre-war levels. These 
numbers show that oil-for-food can work to meet the needs of 
the Iraqi people if the government can be prevented from 
interfering or can be compelled to manage the program 
efficiently with that priority in mind.
    Even with the successes of the oil-for-food program, more 
can and should be done. That is why the U.S. supported 
Resolution 1284, adopted by the Security Council on December 
17, which introduces further enhancements of the oil-for-food 
program. The resolution permits Iraq to sell as much oil as 
needed to meet humanitarian needs of the Iraqi people. I would 
interject at this point that every dollar that is sold in that 
program is controlled by the United Nations. It does not go to 
Saddam Hussein.
    We do not believe there should be any limit on the funds 
spent on the Iraqi people. As it has in the past, the U.N. will 
continue to monitor the program to ensure that the regime 
spends these revenues only on humanitarian projects. The 
resolution also streamlines the contract approval process to 
facilitate the supply of legitimate goods and authorizes the 
use of oil-for-food funds to purchase local goods, such as 
wheat, to provide a boost to Iraq's agricultural sector.
    For our part, we are examining our own national procedures 
for reviewing oil-for-food contracts to ensure that they are 
optimized to meet our priorities; that is, maximizing 
assistance to the Iraqi people while denying the regime access 
to goods it could use to reconstitute its weapons of mass 
destruction programs.
    At the same time as we work in the United Nations to 
strengthen containment, we continue to support Iraqis who are 
supporting the removal of the current Baghdad regime and its 
replacement by a new government in Baghdad under which Iraq can 
resume its rightful place in the Arab and international 
communities. We continually tell the Iraqis that they alone 
must be the ones to determine the future of Iraq. We will 
assist them as we can, but we will not--indeed, should not--be 
the ones to decide who will be the next leader of Iraq.
    Using congressionally appropriated funds, the State 
Department and the INC will sign an initial grant worth over a 
quarter a million dollars this week. The grant will enable the 
Iraqi National Congress [INC] to continue its efforts to reach 
out to constituents and to establish the infrastructure 
necessary to accomplish its objectives and to take advantage of 
other congressionally mandated programs.
    As a government, we are also stepping up our efforts to 
gather evidence to support the indictment of the top Iraqi 
leadership for crimes against humanity, genocide, and war 
crimes. We are gathering evidence from U.S. Government files 
and we are supporting the work of NGO's that make important 
contributions to this effort. We expect the Iraqi opposition to 
make a major contribution to the campaign to bring the Baghdad 
regime to justice.
    Thank you, Mr. Chairman. I welcome any questions that you 
may have.
    [The prepared statement of Ambassador Walker follows:]

            Prepared Statement of Hon. Edward S. Walker, Jr.

    Mr. Chairman: I am pleased to appear before you today to discuss 
U.S. policy towards Iraq, a key foreign policy issue.
    Iraq under Saddam Hussein remains dangerous, unreconstructed and 
defiant. Saddam's record makes clear that he will remain a threat to 
regional peace and security as long as he remains in power. He will not 
relinquish what remains of his WMD arsenal. He will not live in peace 
with his neighbors. He will not cease the repression of the Iraqi 
people. The regime of Saddam Hussein can not be rehabilitated or 
reintegrated as a responsible member of the community of nations. 
Experience makes this conclusion manifest. That is why the United 
States is committed to containing Saddam Hussein as long as he remains 
in power. But at the same time, we are also committed to working to 
alleviate the suffering of the Iraqi people who are forced to live 
under a regime they did not choose and do not want, and to supporting 
Iraqis who seek a new government and a better future for Iraq.
    The first two elements of our poiicy, containment and the effort to 
alleviate conditions for the Iraqi people were strengthened 
considerably by the Security Council's adoption of resolution 1284 in 
December of last year. Let me begin by reviewing the elements of 
containment.
    We contain Saddam through UN sanctions which deny him the resources 
needed to reconstitute weapons of mass destruction, by enforcing no-fly 
zones in the North and South, and by maintaining a military presence in 
the region and a readiness to use force if necessary.
    We have enforced a no-fly zone over northern Iraq since 1991, and 
over southern Iraq since 1992. These zones were established to prevent 
Saddam Hussein from using his air force against the civilian 
populations of these areas, as he has done so brutally in the past. We 
have been highly successful in this effort. The zones also provide 
critical buffer zones to detect any Iraqi troop movements north or 
south. Iraqi propaganda denounces the no-fly zones as a pretext for 
ongoing military action against Iraqi forces, a charge which some 
others have repeated. Let me just state, once again, that the no-fly 
zones are protective, not offensive, in nature. Since December 1998, 
following Operation Desert Fox, Saddam Hussein has mounted a sustained 
challenge to our patrols. Iraqi forces have violated the no-fly zones 
over 600 times in 1999. Our forces are fully prepared and authorized to 
defend themselves and we have responded to these challenges with 
strikes on Iraq's integrated air defense system. Saddam Hussein will 
not deter us from our commitment to maintaining these zones which are a 
key element of containment.
    An effective disarmament and monitoring regime inside Iraq would 
strengthen containment by further limiting Iraq's efforts to rearm. In 
the absence of inspectors on the ground, we must rely on national 
technical means which cannot provide the same level of assurance as 
monitoring on the ground. Resolution 1284 re-affirms that Iraq has not 
fulfilled its obligations under previous Security Council resolutions 
to declare and destroy its WMD. The resolution establishes a new arms-
control organization, the UN Monitoring, Inspection and Verification 
Commission, or UNMOVIC, to replace UNSCOM. UNMOVIC retains UNSCOM's 
broad mandate and authorities. It has the right to conduct intrusive 
inspections into Iraq's past WMD programs, as well as to monitor to 
prevent future development of WMD. It has the right to immediate, 
unconditional and unrestricted access to any and all sites, records and 
facilities.
    The UN is moving ahead with implementation of the resolution 1284. 
The Secretary General has appointed Hans Blix of Sweden, former 
Director General of the International Atomic Energy Agency, as 
Executive Chairman of UNMOVIC, and he took up his duties on March 1. We 
have met several times with Dr. Blix since his appointment, and he has 
made clear that he is committed to putting in place a robust, 
technically-proficient body which will accept nothing less than full 
Iraqi cooperation. He has had extensive experience with the 
deceitfulness of Saddam's regime and the lengths it goes to in order to 
preserve its WMD programs.
    The Secretary General, in consultation with Dr. Blix and Security 
Council members, has also named a 16-member College of Commissioners 
for UNMOVIC to provide advice and guidance to the Executive Chairman. 
They represent a technically expert group. Assistant Secretary for Non-
Proliferation Affairs, Robert Einhorn, has been appointed as a 
Commissioner. Like UNSCOM's College of Commissioners, we expect that 
they will meet periodically so that Dr. Blix can draw on their 
collective expertise. Dr. Blix is now embarked on drawing up an 
organizational plan for UNMOVIC which is scheduled to be completed by 
April 15.
    If weapons inspectors are allowed back into Iraq, the next step is 
for UNMOVIC and the IAEA to draw up the key remaining disarmament tasks 
to be completed by Iraq. If Iraq fulfills these tasks, and cooperates 
with weapons inspectors for 120 days after reinforced monitoring is 
fully operational, the Council could act to suspend sanctions 
temporarily, provided appropriate financial controls are in place, and 
bearing in mind the humanitarian purposes of the Council's decisions. 
The embargo on military imports would remain in place, and dual-use 
items would continue to require prior approval. If Iraqi cooperation 
ceased, sanctions would be re-imposed automatically. Renewal of the 
suspension would require a positive Council decision every 120 days.
    The condition for lifting sanctions on Iraq--full compliance with 
UN Security Council resolutions--remains unchanged.
    Containment has been strengthened by the adoption of the 
resolution. All members of the Security Council--even the four that 
abstained from the resolution--are committed to implementing the 
resolution, pressing Iraq to accept inspectors, and maintaining 
sanctions until Iraq complies with the terms of the resolution.
    Sanctions are the most critical element of containment. In the 
absence of the sanctions regime and a comprehensive international 
system of controls, Saddam Hussein would have sole control over Iraq's 
oil revenues--estimated at $20 billion over the coming year--to spend 
on priorities of his regime, whether it be to rebuild his WMD capacity, 
produce chemical or biological weapons, bolster his oppressive security 
apparatus, or to build opulent palaces. In the absence of comprehensive 
international controls--even if a military embargo remained in place--
it is inevitable that Saddam would once again threaten the region and 
ignore the needs of the Iraqi people.
    As long as sanctions remain in place, it is essential that we 
address the humanitarian needs of the Iraqi people. An effective oil-
for-food program, which provides the Iraqi people with basic civilian 
and humanitarian goods while denying the regime access to the most 
dangerous dual-use goods, serves both humanitarian interests and 
regional security. Not only is it right for the international community 
to do all it can to assist the Iraqi people who are the pawns of Saddam 
Hussein, but doing so minimizes the risk of sanctions erosion and 
alleviates international pressure to ease or lift the controls which 
keep Iraq's revenue out of the hands of Saddam Hussein.
    UN sanctions have never targeted the Iraqi people and have never 
limited the import of food and medicine for the Iraqi people. In fact, 
the United States was an original sponsor of the first oil-for-food 
program, adopted in 1991. Tragically, Baghdad rejected this program and 
it was not until 1996 that it finally accepted oil-for-food. Since the 
first oil-for-food supplies arrived in Iraq in 1997, the program has 
brought tremendous improvements in living conditions. Iraqi per capita 
intake has risen from 1,300 calories before the program began to over 
2,000 calories now provided by a UN ration basket which is augmented by 
locally-grown produce. Food imports are now at about prewar levels. In 
the year before the program began, Iraq imported about $50 million 
worth of medicines. Since the program began, more than $1 billion worth 
have been approved. Ninety percent of essential drug needs in hospitals 
are now being met. Over a billion dollars worth of goods for the water, 
sanitation, electrical and agricultural sectors have been approved.
    Saddam Hussein however, has abused the program to the detriment of 
the Iraqi people, in an attempt to get sanctions lifted without 
compliance. Since the first delivery of oil-for-food supplies in March 
1997, the government of Iraq has failed to work with UN authorities to 
maximize the benefit to the Iraqi population. The needs of the most 
vulnerable groups, including children and the elderly, have been of 
particular concern. The Secretary General reported earlier this month 
that Iraq has still not implemented the supplementary feeding programs, 
recommended for years by the UN, for malnourished children under five 
and for school children. These programs have been very successful in 
the North, where oil-for-food is administered by the UN. By contrast, 
vaccination levels in Baghdad-controlled areas are worse than they were 
in 1994. Ordering remains slow and erratic, and the distribution of 
goods after they reach Iraq continues to be a problem. A major reason 
for this suffering is Saddam's cynical manipulation.
    To get the clearest picture of the oil-for-food program and its 
potential, it is helpful to compare its operation in northern Iraq, 
where the UN controls distribution, and in southern and central Iraq, 
where Saddam controls the distribution of goods. A UNICEF report on 
child mortality in Iraq conducted last year revealed a disturbing rise 
in child mortality rates--more than double pre-war levels--in south/
central Iraq, the parts of the country controlled by Saddam Hussein. 
But the report also revealed that child mortality rates in northern 
Iraq, where the UN controls distribution of the oil-for-food program, 
had dropped below pre-war levels. What these numbers show is that oil-
for-food can work to meet the needs of the Iraqi people if the 
government can be prevented from interfering, or can be compelled to 
manage the program efficiently with that priority in mind.
    Publicity surrounding the release of this survey last year led 
Baghdad to finally place orders for nutritional supplements--something 
the UN had long advocated. Early last year, the Secretary General 
reported that there were $275 million worth of medicines sitting in 
Iraqi warehouses undistributed. As a result of the publicity generated 
by this report, stockpiles were eventually reduced. We hope that the 
Secretary-General's latest report will generate pressure on the regime 
to introduce supplementary feeding programs, improve distribution of 
supplies and rationalize the Government's ordering.
    Even with the successes of the oil-for-food program, more can and 
should be done. That is why the U.S. supported resolution 1284, adopted 
by the Security Council on December 17, which introduces further 
enhancements of the oil-for-food program. The resolution permits Iraq 
to sell as much oil as needed to meet the humanitarian needs of the 
Iraqi people. We do not believe there should be any limit on the funds 
spent on the Iraqi people. As it has in the past, the UN will continue 
to monitor the program to ensure that the regime spends these revenues 
only on humanitarian projects. The resolution also streamlines the 
contract approval process to facilitate the supply of legitimate goods, 
and authorizes the use of oil-for-food funds to purchase local goods, 
such as wheat, to provide a boost to Iraq's agricultural sector.
    For our part, we are examining our own national procedures for 
reviewing oil-for-food contracts, to ensure that they are optimized to 
meet our priorities: maximizing assistance to the Iraqi people while 
denying the regime access to goods it could use to reconstitute its WMD 
programs. The United States has been criticized by many for the numbers 
of holds we have placed on oil-for-food contracts. We recognize that 
some of this criticism reflects humanitarian concern, and we are 
reviewing our procedures with this concern in mind. However, we must 
also be objective, as well as compassionate, in assessing the big 
picture.
    The regime of Saddam Hussein has used chemical weapons against its 
own people and its neighbors, it has developed biological weapons and 
had an active nuclear program. It has obstructed weapons inspectors for 
nine years in an effort to conceal these programs. This regime has the 
expertise and the will to produce weapons of mass destruction. We can 
not hand it the goods it needs to turn those intentions into reality. 
Particularly in the absence of weapons inspectors, we will continue to 
hold on dual-use goods which can be used in WMD development.
    At the same time, it is critical that we do all we can to ensure 
that the Iraqi people receive the goods they need. Not only is it right 
for the international community to do all it can to assist the Iraqi 
people who are the pawns of Saddam Hussein, but doing so minimizes the 
risk of sanctions erosion and alleviates international pressure to ease 
or lift sanction in the absence of Iraqi compliance with UN Security 
Council resolutions.
    At the same time as we work in the UN to strengthen containment, we 
continue to support Iraqis who are supporting the removal of the 
current Baghdad regime and its replacement by a new government in 
Baghdad under which Iraq can resume its rightful place in the Arab and 
international communities. We continually tell the Iraqis that they 
alone must be the ones to determine the future of Iraq; we will assist 
them as we can, but we will not, indeed should not, be the ones to 
decide who will be the next leader of Iraq.
    Using funds appropriated by Congress, free Iraqis held a broad-
based National Assembly in New York in October. At the conference, the 
Iraqi National Congress elected a new leadership. Frank Ricciardone has 
been working intensively with them to channel fresh U.S. support to the 
Iraqi opposition as they identify and plan specific operational goals 
and activities:

  <bullet> Developing and broadcasting a vision for the restoration of 
        civil society in Iraq and for Iraq's reintegration as a 
        responsible member of the international community.
  <bullet> Building the case for the prosecution of Saddam Hussein and 
        key members of the regime for war crimes and crimes against 
        humanity;
  <bullet> Channeling training, information and material support, under 
        the Iraq Liberation Act, to the forces of change inside Iraq.
  <bullet> Channeling humanitarian assistance to Iraqis in need, in the 
        face of Baghdad's obstruction and monitoring Saddam Hussein's 
        performance in providing for the basic needs of the Iraqi 
        people.
  <bullet> Building stronger ties to and between the internal 
        resistance and with regional states.

    Using congressionally appropriated funds, the State Department and 
the INC will sign an initial grant worth over a quarter of a million 
dollars this week. The grant will enable the INC to continue its 
efforts to reach out to constituents and to establish the 
infrastructure necessary to accomplish its objectives and to take 
advantage of other congressionally mandated programs.
    In particular, we hope and expect that the INC will soon have the 
organization and staffing needed to take full advantage of training and 
material support that we will be ready to provide under the Iraq 
Liberation Act. As you know, four INC members were invited to 
participate in a first military training course under the ILA in 
November at Hurlburt Air Force Base. The Iraqis participated side by 
side with colleagues from other Arab countries for the first time in 
many years. Now, the Defense Department is preparing a more extensive 
list of training options for free Iraqis. We anticipate that by late 
spring, many more Iraqis will be in line for training enjoyed by other 
allied and friendly officers in areas related to logistics, civil 
reconstruction, management, and public relations.
    Another important area the INC will be working on is providing 
humanitarian assistance to Iraqis inside Iraq. This is an important 
area that dovetails with our own national goals and we look forward to 
working with them on it. The INC would develop an infrastructure to 
deliver critically needed humanitarian goods to segments of the Iraqi 
population that Saddam Hussein has ignored.
    As a government, we are also stepping up our efforts to gather 
evidence to support the indictment of the top Iraqi leadership for 
crimes against humanity, genocide and war crimes. We are gathering 
evidence from U.S. Government files. We are also supporting the work of 
NGOs that make important contributions to this effort. We have already 
provided $2 million in congressionally appropriated funds to four 
separate but related activities: making captured Iraqi documents 
available on the Internet; gathering videotape and imagery of Iraqi 
crimes against humanity; gathering witness statements to justify 
indictments of top Iraqi officials and helping to generate the 
international public on the crimes committed by the Baghdad regime. We 
expect the Iraqi Opposition to make a major contribution to the 
campaign to bring the Baghdad regime to justice.
    This heightened attention by NGO's to crimes of the Iraqi 
leadership has already borne fruit, as we saw by the precipitous 
departure of an Iraqi regime leader from Austria last September and 
with Tariq Aziz' decision shortly thereafter not to participate in a 
forum in Italy. We have increased our diplomatic activity on the issue, 
discussing the possibilities of a UN tribunal or committee of experts 
with other UN members and ensuring that documents in U.S. control are 
available for use in any eventual legal action.
    I cannot predict with any certainty when this brutal regime will be 
gone. But by maintaining sanctions, enforcing the no-fly zones, 
committing to use force if Saddam Hussein crosses our red lines, and 
supporting the opposition, we increase the pressure on the regime and 
we contain the threat it poses to the region and the Iraqi people.
    I welcome any questions you may have.

    Senator Brownback. Do you expect Saddam Hussein to be in 
power at the end of the Clinton administration?
    Ambassador Walker. I would say that we cannot predict what 
will happen in Iraq. The probabilities would lead in the 
direction that he would still be in power by the end of the 
administration. That does not mean that we cannot use the 
intervening time to buildup the capabilities of those who would 
seek to remove him.
    Senator Brownback. You stated this week you signed a 
contract with the INC for a quarter million dollars. Your total 
authorization in that program I believe is around $97 million.
    Ambassador Walker. That is in the draw-down authority. This 
is the ESF moneys that the quarter million will come out, and 
the total authority there is, I believe, $10 million, of which 
$2 million goes to the war crimes effort and $8 million goes to 
the INC.
    Now, we have a general outline of the program that the INC 
will be putting forward to us. They will use this quarter of a 
million to help establish their offices and to get a complete 
program to us. But we have outlined the general elements of the 
program.
    Senator Brownback. How much money has the Clinton 
administration used this fiscal year to support the INC?
    Ambassador Walker. In support of the INC, there was money 
devoted to a supporting agency, and I do not have the figures 
on that, Senator. I do not know exactly how much went to the 
subcontractor which was helping them develop the meetings that 
we had in New York and so on. I will have to get you those 
figures.
    [The following information was subsequently supplied:]

    Over the course of 1999, as Iraqi opposition leaders greatly 
increased their efforts to strengthen opposition unity and political 
activity, the USG supported their efforts through grants and contracts 
with a conference planning contractor and with a public advocacy firm. 
The conference planner not only made all arrangements for the series of 
organizational and political meetings the INC conducted, but also 
organized their deliberations at the UN General Assembly and their 
subsequent National Assembly meeting in New York, the first such 
assembly of Iraqis since 1992. The conference planner also provided 
office space and office support in London for the INC's activities. 
Final figures for these support activities are still under review. The 
contractor has, in many cases, been able to negotiate significant 
savings against anticipated costs. We understand the total for all 
support costs during 1999 will be approximately $3 million.
    Separately, the INC has now been awarded a grant for $267,784 in 
Economic Support Funds to set up its own headquarters structure and 
undertake various organizational and public advocacy tasks. We expect 
that this will be only the first of many proposals the INC will submit 
to support a program of transition toward democracy in Iraq.

    Senator Brownback. Is that the primary expense that you 
have had is the support of the meeting in New York?
    Ambassador Walker. Well, and working with the INC to make 
them grant worthy so that we could move on to direct programs 
with the INC, yes.
    Senator Brownback. Has any money been authorized to be used 
by the INC within Iraq?
    Ambassador Walker. At this point there has been no program 
developed for use within Iraq. That is the whole purpose of the 
quarter of a million and the program that we will be 
developing. In the course of that program, we hope to, over the 
course of the next year, help the INC develop its capabilities 
so that it can, one, establish an office in London and offices 
in the region; two, take care of its internal security 
procedures so that it can operate in Iraq safely; three, 
monitor the oil-for-food distribution program; four, establish 
a distribution network for humanitarian supplies; five, collect 
war crimes evidence; six, establish a Free Iraqi information 
program, television, radio, magazines, which would reach inside 
Iraq and also be available outside Iraq; and finally, collect 
such other information as might be useful.
    This is an immediate program that we hope will be able to 
help the INC develop its infrastructure and establish the 
foundation that could be then used for other things later on.
    Senator Brownback. And you do not mention lethal assistance 
to the INC in that listing. Is that correct?
    Ambassador Walker. I do not mention lethal assistance, nor 
am I discounting the possibility in the future. But it has been 
our experience that with several unfortunate situations in 1991 
and 1996, that you need to have the foundation solidly built in 
order to move forward in any campaign that would have a hope of 
unseating Saddam Hussein.
    Senator Brownback. Any notions of how much time it will 
take to build that solid foundation? You have had the 
authorization and the approval from Congress for--what--a year 
and a half, 2 years now with the INC?
    Ambassador Walker. Right.
    Senator Brownback. It looks like you have not even got the 
footings.
    Ambassador Walker. Well, actually a lot has been done, 
Senator. It is not easy to set up a new organization from the 
ground up and to make it credit worthy or grant worthy in the 
U.S. Governmental terminology. We have a number of requirements 
of transparency, contracting capabilities, and so on that have 
to be met under congressional guidance that take time for any 
organization to develop. When I was Ambassador in Egypt, we 
tried to get several NGO's grant worthy under the AID programs 
and found that it was extremely difficult to do so, and it took 
time.
    Now, the very process of doing this, however, assists them 
in developing their infrastructure, their capabilities so that 
they will be able, our expectation and hope is, to move quicker 
with our help in trying to develop the kind of program that I 
have outlined here before you.
    Senator Brownback. Mr. Ambassador, it strikes me that what 
is taking place is the thing that a number of us feared and 
that is that Saddam--and the administration is in complicity 
with this--is just waiting you out, that there is not a serious 
effort on the part of the administration to remove Saddam from 
power, that we have lost our inspection regime within Iraq. 
There has not been a serious inspection regime in place for a 
year within Iraq. And everybody is virtually satisfied with 
that situation presently and that there is no serious effort 
within the administration to do anything differently, to find a 
different group than the INC if you do not think that they can 
do that, to find a different means to really get at Saddam, to 
find a different sort of inspection regime. And all along, the 
clock is ticking and the rest of the world and others are 
starting to reengage Saddam.
    Ambassador Walker. Right.
    Senator Brownback. So, at the end of the day, we are left 
with him still in power, still in Baghdad, more oil revenues 
flowing than he had even prior to the war, and our neighbors 
and our allies in the region saying, well, we did not think you 
were going to get rid of him, and I guess we will just have to 
deal with him. I do not know how one comes to a different 
conclusion than that, given what is in play today.
    Ambassador Walker. Mr. Chairman, I can see the point. I can 
tell you that we believe that we have been successful for 9 
years in keeping this man under containment, that he has been 
unsuccessful in reestablishing the capability to threaten his 
neighbors, and it is our objective, very serious objective, to 
both strengthen the controls in that area, the sanctions, as 
well as to work with the INC and others in order to build the 
kind of a structure they would need to actually do something 
about Saddam Hussein.
    Now, when I say that we are trying to strengthen the 
controls, I am talking about working to limit the flow of 
smuggling, the outflow of oil that is not coming under the U.N. 
control but is being smuggled out of Iraq and which does put 
hard currency in his pocket. Because, as I said before, the key 
here is to keep control over his money, as far as the sanctions 
go. So, that is an effort that we are engaging in now. We hope 
that we will be able to limit this loophole or this flow.
    In the meantime, I had a meeting yesterday with Akhman 
Shalabi. We have an agreed proposal or an agreed agenda for 
work in the future. We are serious about it. We admit that it 
will take some time to put it together. But it is not our 
objective or our interest to see a slaphappy or a slapdash kind 
of program put together that costs people's lives. These are 
serious people, Mr. Chairman. They care about Iraq. They want 
to do something about it, and we want to help them do it.
    Senator Brownback. I know they are serious people. I have 
met with them as well. But it seems as if what you are 
presenting is that we are going to keep Saddam under house 
arrest and then he continues to buildup stronger, and we are 
really not building his opposition up.
    I want to visit some other questions, but we will go ahead.
    Senator Biden. I have no questions.
    Senator Brownback. Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. Let me ask your 
indulgence and the indulgence of Senator Biden. I had a 
Veterans Affairs Committee hearing, and I have some questions. 
But I thought in the first 5 minutes, if I could, or several 
minutes, I would like to lay out my framework, if that is OK. I 
rarely do this, but it is kind of a semi-formal statement. Then 
I will have some questions.
    By the way, I know this is one of the toughest foreign 
policy challenges that we have. Let me just say that right away 
to you, Mr. Walker. I do not quarrel with anyone who believes 
that Saddam's leadership is a real threat to our interests, to 
the region, and frankly, maybe even more than anything, to 
those most directly affected, which is the Iraqi people 
themselves.
    The subject matter today is sanctions and U.S. policy. This 
is an issue that I have raised before, and I would like to zero 
in on it, which is the unintended but devastating--
devastating--impact of these sanctions on the Iraqi people.
    Last week, the Secretary General of the United Nations 
delivered a report to the Security Council assessing Iraq's 
humanitarian needs and saying that the U.N.'s efforts to ease 
the suffering of 20 million people in the country ``has 
suffered considerably'' as a result of the ``holds'' placed by 
the United States and Britain on contracts in the oil-for-food 
program, something I would like to talk to you about.
    Saddam Hussein is also criticized in the report for 
spending too little money from oil sales on food for the 
population. No question about it.
    The point is this. While Saddam has proven indifferent to 
Iraq's people, I do not think we can be similarly indifferent. 
I strongly believe that the administration should take some 
steps to better reconcile the enforcement of our disarmament 
objectives in Iraq with our obligation to minimize the harm to 
innocent Iraqi civilians and to ensure their most basic rights.
    Now, the Secretary General's recent report to the Security 
Council--I know what you have said in your testimony, but just 
a little bit of contradictory testimony. The Security Council's 
own report last year on the deteriorating humanitarian 
situation, the comprehensive UNICEF survey on child health--
some of this is devastating to read--and other relief agencies 
that are out in the field, the International Committee of the 
Red Cross, have all made it clear that a public health 
emergency exists in many areas of the country and that efforts 
under the oil-for-food program to alleviate these conditions 
have been woefully inadequate.
    I think it is critical that we do something to address this 
public health emergency, and I think this requires restoring 
Iraq's civilian economic infrastructure--I did not say 
military--in order to bring child mortality rates and other 
public health indicators back as close as possible to the 
levels that existed before the embargo. So, let me just mention 
three initiatives, and I want to get your reaction.
    First, that the Security Council and the Sanctions 
Committee push to implement immediately the recommendations of 
the report of the Council's humanitarian panel last March. In 
particular, I think what was important there was the 
preapproval of humanitarian items. I think that is critically 
important. Otherwise, this drags on and on and on. I would like 
to see that process expedited.
    Second, to take all necessary steps to persuade the 
Security Council and the Sanctions Committee to take more 
seriously its obligation to monitor the humanitarian impact of 
the sanctions, especially on those people that are most 
vulnerable, and I have in mind the children and the elderly. We 
have made a commitment to do so. The Security Council and the 
Sanctions Committee ought to live up to that.
    Then finally, to press the Security Council to establish an 
international criminal tribunal, which is mandated to 
investigate, indict, and prosecute Iraqi leaders and former 
officials against whom credible evidence exists of war crimes 
against humanity and genocide. That to me is the kind of 
targeted sanctions that make a great deal of sense, that go 
after the people who should be held accountable, as opposed to 
innocent people who are paying the price.
    Now, finally, I just want to say that I want us to make 
every effort to continue and even tighten where possible the 
restrictions and prohibitions on military imports to Iraq. I do 
not want to see any relaxation at all.
    But it really troubles me what the effect of these 
sanctions have been on innocent people. I have looked at these 
reports. I think they are devastating. Our quarrel is not with 
the Iraqi people. The President has said that. The State 
Department has said that. I agree but I think the policy has 
had a devastating impact on these Iraqis who bear no 
responsibilities for the policies that we are trying to 
sanction and change.
    So, I would argue, and I conclude this way, that under the 
U.N. Charter and the Universal Declaration of Human Rights not 
to destroy or undermine the right of people to not be hungry 
and have basic standards of health, we have got to do a much 
better job of balancing our legitimate nonproliferation 
concerns and those that I think represent a humanitarian 
commitment to the people there. I have a set of questions about 
what we are going to do about this humanitarian situation that 
I want to put to you in the next round.
    I have become, over the last year, more and more uneasy. I 
have read these reports. I have had people who have gone to 
Iraq come back. There are all sorts of other arguments that it 
is further radicalizing the people. It is not undermining any 
support for him at all. I just think we need to reevaluate 
this, and I will put a set of questions to you on that.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    Thank you for holding this hearing, Mr. Chairman. I also want to 
welcome our first panel's witness, Ambassador Walker.
    I wanted to be here this morning because I have said it before and 
I will say it again, Iraq is one of the toughest foreign policy 
challenges which falls within this subcommittee's purview. Saddam 
Hussein's leadership continues to pose a threat to our interests, our 
allies in the region, and especially to those most directly affected--
the Iraqi people themselves.
    Mr. Chairman, the subject of today's hearing is ``Saddam's Iraq: 
Sanctions and U.S. Policy.'' That title zeroes in on an issue that I 
have raised before and would like to bring up here again: the 
unintended but devastating impact of these sanctions on the Iraqi 
people. Last week the Secretary General of the United Nations, Kofi 
Annan, delivered a report to the UN Security Council assessing Iraq's 
humanitarian needs and saying that the UN's efforts to ease the 
suffering of the 20 million people in that country ``has suffered 
considerably'' as a result of the ``holds'' placed by the United States 
and Britain on contracts in the oil-for-food program.
    Saddam Hussein is also criticized in the report for spending too 
little of the money from oil sales on food for the population. While 
Saddam has proven to be indifferent to the suffering of Iraq's people, 
we cannot afford to be similarly indifferent. I strongly believe that 
the administration should take urgent steps to better reconcile 
enforcement of its disarmament objectives in Iraq with its obligation 
to minimize harm to innocent Iraqi civilians and to ensure protection 
of their most basic rights.
    The Secretary General's recent report to the Security Council; the 
Security Council's own report last year on the deteriorating 
humanitarian situation; the comprehensive UNICEF survey on child 
health; and reports from other relief agencies in the field, including 
the International Committee of the Red Cross (ICRC)--all make clear 
that a public health emergency persists in many areas of the country, 
and that efforts under the oil-for-food program to alleviate these 
conditions have been woefully inadequate. I believe it is critical that 
we do what we can now to address directly this public health emergency. 
This requires restoring Iraq's civilian economic infrastructure in 
order to bring child mortality rates and other public health indicators 
back as close as possible to the levels that existed prior to the 
embargo. With this in mind, I strongly urge the administration to take 
the following initiatives:
    First, in the Security Council and the Sanctions Committee, push to 
implement immediately the recommendations of the report of the 
Council's humanitarian panel last March. I realize that many of these 
recommendations, such as preapproval of humanitarian items, are in 
Resolution 1284, but they are conditioned on further steps by the 
Council or the Committee. In this respect I am pleased to note that the 
Sanctions Committee has begun the pre-approval process for humanitarian 
items and urge the administration to ensure that these measures are 
implemented without further delay.
    Second, take all necessary steps to persuade the Security Council 
and its Sanctions Committee to take more seriously its acknowledged 
obligation to monitor the humanitarian impact of the sanctions, 
especially on vulnerable sectors of the population such as children and 
the elderly. Greater transparency in the deliberations and decisions of 
the Sanctions Committee is also needed.
    Third, press the Security Council to establish an international 
criminal tribunal mandated to investigate, indict, and prosecute Iraqi 
leaders and former officials against whom credible evidence exists of 
war crimes, crimes against humanity, and genocide. This represents the 
kind of targeted sanction that should be directed against those 
responsible for those Iraqi policies we want to change.
    Finally, while we should make every effort to continue and even 
tighten where possible the strict prohibitions on military imports into 
Iraq, I believe it is time to relax and restructure the economic 
embargo. Such a restructuring would permit import of a broader range of 
non-military goods in order to allow the revival of the civilian 
economy. I do not believe the current approach is justifiable, or even 
sustainable, and urge the administration to work with its Security 
Council partners to establish a new regime. Some variation of a 
proposal made recently by Human Rights Watch, which would make Iraqi 
imports liable to inspection at all major ports of entry, seems to me 
worthy of consideration.
    I realize there is no fail-safe means of containing Iraq's 
proliferation threat, or ensuring compliance with relevant Security 
Council obligations. There is no painless or cost-free way of 
addressing the Iraq government's unwillingness to abide by its 
disarmament commitments. The point is that the pain and cost should not 
continue to be borne primarily by millions of ordinary innocent Iraqis. 
The State Department, and the President, have both repeatedly said that 
our quarrel is not with the Iraqi people. I agree. But regrettably our 
Iraq policy has too often had its most devastating impact on those 
Iraqis who bear no responsibility for the policies that we are trying 
to sanction, and change. We have an obligation, under the UN Charter 
and the Universal Declaration of Human Rights, not to destroy or 
undermine the right of a people to an adequate standard of living, 
freedom from hunger, and the highest attainable standards of health. 
For this reason, I urge you to consider these recommendations, which 
try to strike a better balance between legitimate non-proliferation 
concerns and those involving our humanitarian obligations to the people 
of Iraq--and which may even be more effective in securing Iraq's 
eventual compliance than the current arrangement.

    Senator Brownback. Senator Biden.
    Senator Biden. I have one question. The inspection regime 
is a pale shadow of what it was initially. We supported it I 
assume because there was not much of an alternative. What 
impact has our support for supporting the alternative--the 
1284--not alternative to it, not that there was one. Maybe you 
can speak to that as well. But what impact has that had on our 
ability to maintain what sanctions remain on Saddam, any unity 
in that? Is there any correlation or connection between the 
administration's decision to vote for 1284 and sanctions?
    Ambassador Walker. Senator, there is a correlation in the 
sense if we can get monitors on the ground, it is a heck of a 
lot easier to ensure that the sanctions are working properly 
and that the items that are going into Iraq are going through 
the U.N. and national systems and are being controlled.
    One of the problems we have, in the absence of having 
monitors on the ground, is that there is seepage in the system 
and there is smuggling going on. A monitoring agency would be 
extremely helpful in trying to limit this.
    The 1284 calls for a replacement organization for UNSCOM, 
UNMOVIC. It has the same authorities of inspection, a no-knock 
inspection concept, and ability under the parameters 
established by the Security Council in the resolution to do 
what UNSCOM did.
    Now, Hans Blix is in the process of putting together 
procedures that will implement that. As everybody knows, 
procedures have a lot to do with the effectiveness of an 
organization. We have had a number of conversations with Blix. 
We believe he is moving in the right direction. We want to see 
the results of his consultations and his decisions, and he will 
be reporting shortly to the Secretary General. We will be able 
to evaluate at that time whether the procedures are everything 
that we think they should be.
    There is nothing in the resolution that takes away the 
authorities available to the previous organization.
    So, if Iraq accepts this inspection regime, I think we will 
be far ahead of the game.
    With regard to the sanctions themselves, 1284 does not 
change the sanctions regime.
    Senator Biden. No, I know that. My point is--let us get 
right to it. Had we voted the other way, what would have 
happened in terms of the maintenance of sanctions? Was there 
any deal? Was there any tradeoff here implicit that if you did 
not support what is 1284, which is not as robust--it has all 
the same verbiage, but you and I both know it is not nearly as 
robust as UNSCOM was. Was it anticipated that that would allow 
us to maintain support for the sanctions? Or had we not 
supported it, did we conclude it would make it more difficult 
to maintain consensus on sanctions?
    Ambassador Walker. I do not see the linkage there, Senator. 
I think the linkage comes in the question that Senator 
Wellstone raised. Where we are having a problem in maintaining 
the sanctions regime and we are having erosion is in the 
perception that it is sanctions that is responsible for the 
problems that the Iraqi people face. That is a perception that 
is widely held throughout the entire region. That is much more 
of a problem for us, and it is an unwarranted assumption.
    Senator Biden. I understand. I guess maybe that is what is 
wrong with the U.N. We do not think about things.
    It seems to me, having been up there recently, that you 
have a real problem maintaining sanctions. I assume you all 
were--were I in that position, I would be conniving enough to 
hope that I would come up with an inspection policy that was 
not as good as before, but a hell of a lot better than anything 
we have, anticipating he will not go along with it. And if he 
does go along with it initially, he will breach it again, which 
then gives us the moral credibility to argue that this guy is a 
bad guy. He is showing it time and again, and he is making 
weapons of mass destruction. He is trying to hide from us, and 
you cannot lift sanctions.
    I realize there is no direct relationship, but I do not 
know why the hell you guys in the State Department do not speak 
English. I do not know why you do not speak frankly. But I am 
not going to try to help you anymore. You are on your own.
    Ambassador Walker. Senator, I think your conclusions are 
probably well placed. They are accurate. There is a very strong 
likelihood he will not accept this system. I would argue that 
if he did accept it, that he would be at a very severe 
disadvantage trying to reconstruct his weapons of mass 
destruction program and we would be ahead of the game.
    Senator Biden. I agree with that.
    Ambassador Walker. So, either way, I think there are 
advantages that can be derived from this.
    Senator Biden. My closing question is this. If the Security 
Council members try to weaken 1284, in an attempt to gain his 
acquiescence, will the administration permit and vote for 
further compromises, or will it hold firm to the text as it now 
stands?
    Ambassador Walker. Senator, the position that we took 
before was a weak sanctions inspection regime is worse than no 
inspection regime, and I believe that we would take the same 
position now.
    Senator Biden. That means we would not----
    Ambassador Walker. We would not support it.
    Senator Biden. Thank you very much.
    Senator Brownback. Well, let me ask some questions along 
this line because I am very troubled about where we are with 
this. One of the main reasons UNSCOM had any successes at all, 
it seems to me, was its willingness to go to the mat, to be 
very confrontational and very direct and go where Saddam did 
not want them to go. Now we have got Mr. Blix, the new head of 
UNMOVIC, who has said he would like to work more cooperatively 
with Iraq.
    Now, really, is it the administration's view that UNMOVIC 
can conduct effective inspections if cooperation with Saddam is 
a primary goal of inspections?
    Ambassador Walker. Senator, I do not think that if you are 
in a position where you are required to cooperate with Saddam 
that you are going to have an effective system. I think there 
has to be tension in that relationship for it to work. 
Otherwise, Saddam would simply walk away from any inspection 
regime. But we have yet to see what this regime will look like, 
how it will be structured or, for that matter, how Hans Blix 
will organize and run it.
    It can be effective under the terms of the Security Council 
resolution. It can be effective. From our initial discussions 
with Blix, we think that he has the intention to make it 
effective. To say that he can do that by simply caving in to 
Saddam Hussein is not true. He cannot do that. It cannot be 
effective under those terms. So, yes, there has to be a 
confrontational aspect to this inspection regime.
    Senator Brownback. Well, Saddam Hussein has shown time and 
time again that he is going to confront and he is going to try 
to confuse and misdirect and not comply. Period.
    Ambassador Walker. Then we get in the situation, Mr. 
Chairman, that Senator Biden was talking about. First he has to 
accept the regime, which is not clear at this point.
    Senator Brownback. Let us say that we do and we confront. 
And one of the reasons we justified Operation Desert Fox was by 
saying that Iraq was not complying with U.N. weapons 
inspections. Are we going to be willing to use military action 
to force Iraq to allow inspectors to return?
    Ambassador Walker. Senator, I am not able to make a 
decision like that and I am not able to tell you one way or 
another what the military actions the United States might or 
might not be under those circumstances. It is certainly one of 
our options.
    Senator Brownback. Is it not even a probability, I mean, in 
the 70 to 80 percent range, that if we go to another 
inspections regime and we have any confrontational nature of it 
at all, we are going to be placed in the situation of having to 
determine to use military force to force Saddam to comply 
because of his past actions? We know that this is what he is 
going to do. You know, in all probability, you are going to 
face that the decision that you have to make that 
recommendation within the administration. Is that not part of 
the premise of what you are going into this with?
    Ambassador Walker. We are aware that there may be occasions 
in which we would want to consider the possibility of military 
force, and we have established certain red lines of his 
behavior. If he attacks the Kurds, for example, or if he 
rebuilds his weapons of mass destruction program, or if he 
attacks our forces, those are red lines.
    Senator Brownback. What if he does not comply with 
inspections?
    Ambassador Walker. If he does not comply with inspections, 
I simply have to say that again I do not have the authority to 
tell you whether or not we would use military force. That is a 
Presidential authority. It would depend on the situation at the 
time and on the recommendations of various elements of the U.S. 
Government. I do not exclude the possibility. That is all I can 
tell you.
    Senator Brownback. We have established the other red lines: 
attacking the Kurds, U.S. forces. We can establish the red line 
of not complying with inspections.
    Ambassador Walker. It has not been established by the 
administration one way or another at this point. We do not have 
an inspection regime in place. When we get an inspection regime 
in place, we can make a decision as to whether this is 
something that would require--all I can point to is our past 
action under the circumstances.
    Senator Brownback. Well, I would hope we would establish it 
as a red line.
    Now, how long are we giving Saddam to accept this UNMOVIC 
inspection regime?
    Ambassador Walker. Well, I believe that Blix will have to 
report to the Secretary General within the next 2 weeks. After 
that, the clock starts ticking. There is no specific time set 
for acceptance or non-acceptance. In the past, Saddam Hussein 
has taken several years to accept things, such as the oil-for-
food program. This will be a process that we will just simply 
have to see how it works out.
    Senator Brownback. Will we at least establish a time line 
that it be during this administration?
    Ambassador Walker. I cannot say that.
    Senator Brownback. Senator Wellstone, do you have other 
questions?
    Senator Wellstone. Mr. Ambassador, Secretary Walker, you 
have got a number of different perspectives here that you are 
dealing with. I want to go back to the statement I made and put 
some questions to you.
    I do not think there is an argument about Saddam Hussein 
and his cruelty, nor is there an argument about his failure to 
cooperate with any kind of arms control regime. Where there is 
an argument is, therefore, we can go ahead with these 
sanctions, which I think have had a brutal impact on innocent 
people, and we can somehow claim some high moral ground. I do 
not see how we can.
    Now, you have argued that this is a perception which you 
said was unwarranted. But from the Secretary General's report, 
to the Security Council's report, to the UNICEF survey on child 
health, to other relief agencies in the field, including the 
International Committee of the Red Cross, that is not what 
those reports say. They do not say it is a perception.
    I would like to request of you. You have tried to make the 
case that we basically have restored Iraq's civilian 
infrastructure by way of child mortality rates or other public 
health indicators, that it is getting back to where it was 
before the embargo. I would like to know where the evidence 
comes from. Did you say that?
    Ambassador Walker. No, I did not say that, Senator.
    Senator Wellstone. Well, if you did not, then I----
    Ambassador Walker. Let me correct the record.
    Senator Wellstone. Why would you say that this is a 
perception that is unwarranted?
    Ambassador Walker. Let me correct that record. What I am 
talking about is the perception that the United States is 
responsible for this is unwarranted.
    Senator Wellstone. OK.
    Ambassador Walker. We have been in favor of the oil-for-
food program. We established it in the first place. It was 
Saddam Hussein who did not take advantage of it.
    Senator Wellstone. So, you are not quarreling with these 
reports.
    Ambassador Walker. Absolutely not. We are appalled by these 
reports.
    Senator Wellstone. Now, how would you respond to Kofi 
Annan's report which says that part of the reason that the 
U.N.'s effort to ease the suffering ``has suffered 
considerably'' as a result of the ``holds'' placed by the 
United States and Britain on the contracts in the oil-for-food 
program?
    Ambassador Walker. Let me start by saying that this is an 
unacceptable situation, the situation of the Iraqi people. The 
sanctions are not designed to come at their expense. They are 
designed to come at Saddam Hussein's expense.
    Senator Wellstone. But they are not at his expense. He is 
doing fine.
    Ambassador Walker. No, no. I agree. Therefore, we have to 
do two things.
    First, we have to implement Resolution 1284 which, first of 
all, takes the cap off of the oil exports, keeps the money 
under control, but it takes the cap off so that there will be 
more resources available to provide for the well-being of the 
Iraqi people.
    Second, 1284----
    Senator Wellstone. Can I interrupt you? On 1284, would this 
mean that there would be a preapproval process?
    Ambassador Walker. Yes.
    Senator Wellstone. You would be in favor of that.
    Ambassador Walker. Resolution 1284 already has in it the 
expansion of lists of preapproved items. That list is being 
drawn up now by negotiation, and we expect it to be completed 
very shortly. That will mean that many more items will be 
preapproved for automatic shipment to Iraq. It will not include 
dual-use items, obviously, but it will cover some of the most 
difficult situations.
    Also, according to the Secretary General, the Iraqi oil 
industry requires additional resources and spare parts in order 
just to maintain itself. We agree with that position and we 
will be supporting the expansion of the number in items for 
spare parts and so on for the oil industry.
    We are also examining our own procedures. We are increasing 
the number of staff that is available for reviewing those items 
which may be dual-use so that we can speed up the process. 
Resolution 1284 calls for a 2-day turnaround time. We do not 
meet that yet. We want to do that.
    We are also looking at the nature of our own holds and 
where they make sense and where we can speed the decisions and 
the determinations up. In some cases, we simply do not have the 
amount of information we need. There is major contract hold now 
on an important electrical project which the Russians have, but 
we have not gotten the cooperation from the company yet getting 
the information there.
    So, it is a complicated situation, but it is one we are 
very much aware of and trying to do our best to ensure that 
these sanctions hit Saddam where it hurts and they do not hit 
the people of Iraq.
    Senator Wellstone. Well, I really am glad that we are 
undergoing this internal review because I think that again the 
impact of this has been just brutal and devastating on a lot of 
innocent people. I do not see him suffering, and I think this 
makes a great deal of sense. I think we all need to speak more 
about this. I am convinced that we must and I want to as a 
Senator.
    Once this program list is completed, is it going to be 
implemented immediately, or is it going to be conditioned upon 
Iraq's approval of 1284?
    Ambassador Walker. No. There is no Iraqi role in this. Once 
it is completed, the Sanctions Committee has agreed, then it 
goes into effect immediately.
    Senator Wellstone. I thank you. Thank you, Mr. Chairman.
    Senator Brownback. Mr. Ambassador, thank you for coming. I 
do want to emphasize that we have a number of topics that I 
would like to discuss at a future hearing with you, with the 
administration's lifting of a series of sanctions on Iran to 
its perspective on Libya. I have to tell you I read about 
those, and it looks like we have got a quid but no quo policy 
just of lifting these for hope of things to come, but nothing 
there of concrete. I hope we can have a thorough discussion of 
those.
    I want to, once again, say to the administration, do not 
bring to us an Israel/Syria track discussion conclusion without 
pre-discussion of this with the Congress. If it is going to 
involve substantial sums of money from this country, use of our 
personnel or troops, weapons systems, observation systems, we 
need to know and we need to be talking about this thoroughly 
before any sort of agreement fait accompli is presented. We all 
want peace, but if you are asking us or just presenting us a 
final agreement, particularly some of the discussion of expense 
that I have heard, some of the discussion of personnel, we want 
to know about this much further in advance before some 
agreement is struck. I hope at some time we can have you up to 
talk about that as well. But we will certainly get you here on 
Iran and on Libya in the near future.
    Thank you, if I could say too, for patience in our 
questioning. A number of us have sharp thoughts and a great 
deal of frustration on dealing with Iraq, and I appreciate the 
manner in which you handled the questions that we put in front 
of you.
    Senator Biden. Mr. Chairman, may I have 10 seconds or 30 
seconds?
    I would like to mildly demur in the statement the chairman 
just made about what you have to bring to us first. If by that 
we mean you should be consulting us privately and letting us 
know what the outlines of an agreement may be, that I agree 
with completely. And to the best of my knowledge, you have been 
doing that. You have been doing that with me anyway, and I 
suspect you have been doing that with other people.
    If you mean that you have to present to us first the 
outlines of what the final deal would be and what part we would 
be willing to play before you get agreement between the 
Israelis and, in this case, the Syrians, then I think that is 
totally impractical. I do not know how you would do that. I do 
not know how that can be done.
    We will have, obviously, a vigorous debate on, if the 
outlines as have been set to me, are roughly what is agreed to, 
hopefully, by Israel as part of an Israeli/Syrian agreement, 
which is not done yet, but if that were to be done and the 
outline of our participation, as has been sketched out to me 
and others, then it will. It will get my support, but I am sure 
it will get vigorous debate.
    But I want to make it clear I do not think you should be 
coming to the Congress ahead of time with the detail before in 
this incredibly delicate process of playing the third party 
role of trying to bring two folks together who have not spoken 
to each other for a long, long time. But again, I think it 
would be wise to inform the chairman--you probably have 
already--if you have not, of the general outlines of what you 
think it may look like. But I just want to make sure I am on 
the record as to understanding what I mean by what your 
consultation is.
    Senator Brownback. Well, and I appreciate that. I have not 
received any of the consultations as to what the outline is to 
be. What I have been reading in the press, my source of 
information on this, talks about some very large, substantial 
sums of money that would be within the power of the purse of 
this body that I think we need to be having a lot of discussion 
about.
    Senator Biden. Mr. Chairman, I may be wrong, but I think 
the leadership of your party has been consulted, the senior 
members have. I may be mistaken.
    Ambassador Walker. Mr. Chairman, we take your advice 
seriously, and I will convey it back to the Department. I 
believe that we will be in a position to consult privately in a 
very, very short period of time.
    Senator Brownback. Again, thank you for your manner and 
thank you for your dedication. You have done a wonderful job as 
a public servant. We may not agree on some topics as they come 
up, but I certainly do not doubt your heart nor your ability as 
I have seen it as an ambassador and as I see it now. We will 
continue the vigorous discussion. Thank you very much.
    Ambassador Walker. Thank you very much, Mr. Chairman.
    Senator Brownback. The second panel is Mr. Gary Milhollin. 
He is the director of the Wisconsin Project on Nuclear Arms 
Control. Mr. Paul Leventhal, president, Nuclear Control 
Institute in Washington, DC, and the final panel member, Mr. 
Charles Duelfer, former deputy executive chairman of UNSCOM out 
of New York. We will have the panelists seated and we will ask 
you to make your presentations in the order that we announced.
    Gentlemen, we can accept your full transcript into the 
record. If you can make your presentations within a 5 minute or 
so area so that we could have plenty of time, ample time for 
questions, I think that would be the best to go by. So, we will 
run a 5-minute clock here to give you some idea. We will take 
ahead of time all of your full statements in the record, so we 
will have those as well.
    Mr. Milhollin.

  STATEMENT OF GARY MILHOLLIN, DIRECTOR, WISCONSIN PROJECT ON 
              NUCLEAR ARMS CONTROL, WASHINGTON, DC

    Mr. Milhollin. Thank you very much.
    Senator Brownback. Thank you for being here today.
    Mr. Milhollin. I am pleased to testify before this 
distinguished subcommittee on Iraq.
    I would like to submit three items for the record. I have 
already given them to your staff.
    The first one is an article I recently published in the New 
Yorker magazine detailing Iraq's use of the oil-for-food 
program to buy components that can trigger a nuclear weapon.
    The second is a table that my organization prepared after 
the inspectors left Iraq in 1998. It lists what remains 
unaccounted for in Saddam Hussein's mass destruction weapons 
programs. I can show you copies of it. It is a full page in the 
New York Times Week in Review section.
    The other thing I would like to submit for the record is a 
chart \1\ that my organization did back in 1993, also in the 
New York Times Week in Review, which showed Saddam's 
procurement network, and I will refer to it in my testimony.
---------------------------------------------------------------------------
    \1\ The chart referred to entitled, ``Who Armed Iraq? Answers the 
West Didn't Want to Hear,'' July 18, 1993, would be illegible, because 
of its size, if reproduced in this hearing format. The chart is 
retained in the committee's files and could possibly be viewed by 
accessing the New York Times Website.
---------------------------------------------------------------------------
    Senator Brownback. Those will be accepted in the record, 
without objection.
    Mr. Milhollin. As has already been stated, a year has now 
passed since inspectors have been in Iraq, and the question I 
think the world is looking at is what is going on. In many 
ways, we are back in the situation we were in before the Gulf 
war. I remember myself--I am beginning to feel old--I was 
tracking centrifuge components into Iraq before the Gulf war 
and testified many times before Congress on what Iraq had in 
the early 1990's. I find myself back here doing it again, and 
without inspectors, we are back in the same mode of discovery. 
That is, we are looking at procurement efforts. We are using 
national technical means. We are debriefing defectors trying to 
put the puzzle together. The longer we do not have inspectors, 
the more difficult the puzzle is going to be.
    I discovered recently that Saddam Hussein has been shopping 
for nuclear weapon components in Europe. In 1998, he tried to 
buy the special electronic switches that are used to detonate 
nuclear weapons. He ordered them as medical equipment. He 
ordered six machines that pulverize kidney stones inside human 
bodies and ordered 120 switches as spare parts. He ordered them 
from Germany, which turned the order over to the French, who 
denied the sale. The United States encouraged those governments 
to deny the sale privately.
    Unfortunately, when the contract went to the U.N. and was 
referred to our people here for review, we did not catch it and 
so we did not block it. Therefore, it went through the 
Sanctions Committee.
    I am told by Siemens, the German company that got the 
order, that Iraq only got eight switches. The State Department 
seems to think Iraq got a few more than that.
    I am also told by the Sanctions Committee people that they 
are looking at the machines to see whether the Iraqis are 
pulverizing kidney stones or whether they are up to something 
else.
    I think this episode shows that Saddam Hussein is still 
deadly serious about getting weapons of mass destruction. The 
procurement network, that I so laboriously tracked back in the 
early 1990's, has not gone away. Many of those firms are still 
there. The U.N. inspectors never figured out the procurement 
network completely, despite a lot of valiant effort.
    So, it is there. We still have to contend with it, and the 
only barrier we have is the U.N. Sanctions Committee. That 
committee has to oversee billions of dollars worth of stuff, 
and it is inevitable that some things are going to get through. 
As we have just heard, there is a lot of criticism about 
contracts that the United States holds up. I personally think 
that we ought to err on the side of prudence, and when we think 
there is a dual-use item or something that can be used for the 
wrong thing, we should hold up the contract and just take the 
consequences.
    Saddam Hussein is closer to the bomb than most people 
think. The U.N. inspectors believe he has a bomb design that 
works and that only lacks the high enriched uranium to fuel it. 
Also the U.N. inspectors believe it is small enough to go on a 
Scud.
    The main recent development that we should be aware of in 
the procurement area is that now not all contracts will go 
through the Sanctions Committee. There will be categories of 
humanitarian and oil goods that nobody will check. That means 
that unscrupulous companies around the world could send Iraq 
things that will be useful for arms under the rubric of 
humanitarian goods and there will not be any way to know where 
these things have gone. Nobody is going to be checking the 
labels of all this equipment that is going to go as an 
exception to the Sanctions Committee review.
    When you combine that with the increased oil revenues that 
Iraq is receiving, you can see that there is going to be a lot 
of pressure on the system and it is inevitable that things will 
go through that should not go through. Since we do not have 
inspectors in the country on the ground checking on what is 
coming in, we are essentially losing control over the 
procurement issue. Because of the increase in revenues, because 
of the loopholes in the Sanctions Committee, and because of the 
volume of goods, we are just not going to be able to stop 
things that are going to be useful for arms.
    Whether the new inspection system works is going to depend 
to a great extent on Mr. Blix. He has said that he will run a 
regime that is less confrontational. He does not seem inclined 
to keep the previous UNSCOM inspectors. He has, I think, an 
unsuccessful record in Iraq at the IAEA. The Iraqis ran a very 
large, aggressive nuclear weapon program before the war that 
his inspectors did not detect, and after the war, his agency 
was ready to close the books on the Iraqi nuclear program long 
before they understood it.
    So, I think we can say that Mr. Blix has a rather--well, 
does not have a record that inspires great confidence in Iraq. 
He is not, I think, as effective as Rolf Ekeus would have been. 
Mr. Ekeus was our candidate. We, for some reason, caved on his 
candidacy in favor of Mr. Blix. They are both Swedish 
diplomats. The reason the Russians and the French wanted Mr. 
Blix was because they perceived he would be easier on Iraq. It 
is hard for me to see why our Government would have simply 
agreed to let the Russians and the French have their way on 
that appointment since there were really no objective reasons 
why Mr. Ekeus was not suitable.
    The table in the 1998 New York Times that I have submitted 
lists the many things that Iraq still seems to be hiding in 
nuclear, chemical, biological, and the missile areas. I will 
not go over them here, but it is clear that if you just look at 
the numbers of things that Iraq is still hiding, it is apparent 
that the potential Iraq has for making all of these weapons is 
intact. In fact, we know that the Iraqis have not disbanded 
their weapon development teams. They have moved them from one 
site to another as a group, and there seems to be no intention 
whatsoever of giving up mass weapon destruction objectives.
    The most recent press reports say that Iraq is rebuilding. 
It has rebuilt many of the sites we bombed, and our present 
policy really cannot prevent that. That is, we do not have a 
mechanism for preventing Saddam from rebuilding these sites or 
from developing all of these weapons in secret.
    I would say that we are also losing the public debate on 
the effect of the sanctions. We are not aggressively promoting 
America's point of view in the world about who is responsible 
for the suffering of the Iraqi people. The other side is 
winning this public debate, and that is the fault of our 
Government. We should be more aggressive in persuading other 
countries that Saddam is the culprit and not the sanctions.
    I would be happy to answer questions from the committee. I 
do not want to exceed my 5 minutes. I hope I have not. Thank 
you very much.
    [The prepared statement of Mr. Milhollin follows:]

                  Prepared Statement of Gary Milhollin

    I am pleased to appear before this distinguished subcommittee to 
discuss the situation in Iraq. I direct the Wisconsin Project on 
Nuclear Arms Control, a research project here in Washington that is 
devoted to tracking and slowing the spread of nuclear weapons.
    I will begin by describing a recent Iraqi procurement attempt, and 
then try to assess the inspection system created under U.N. Resolution 
1284. I will also try to provide an overview of the threat posed by 
Iraq to international security.
    I would like to submit three items for the record. The first is an 
article I recently published in the New Yorker detailing Iraq's use of 
the oil-for-food program to buy components that can trigger nuclear 
weapons. The second is a table my organization prepared after the 
inspectors left Iraq in 1998, which lists what remains unaccounted for 
in Iraq's mass destruction weapon programs. The third is a chart on 
Saddam Hussein's procurement network that my organization prepared a 
few years ago but which is still relevant to the issues we face today.
              what has saddam hussein been doing recently?
    More than one year has passed since U.N. inspectors left Iraq, and 
the world is wondering what Saddam Hussein is up to. The short answer 
is: he has been shopping for A-bomb components in Europe. Iraq is 
allowed to import medical equipment as an exception to the U.N. 
embargo, so in 1998 Iraq ordered a half-dozen ``lithotripter'' 
machines, ostensibly to rid its citizens of kidney stones, which the 
lithotripter pulverizes inside the body without surgery.
    But each machine requires a high-precision electronic switch that 
has a second use: it triggers atomic bombs. Iraq wanted to buy 120 
extra switches as ``spare parts.'' Iraq placed the order with the 
Siemens company in Germany, which supplied the machines but forwarded 
the switches order to its supplier, Thomson-C.S.F., a French military-
electronics company. The French government promptly barred the sale. 
Stephen Cooney, a Siemens spokesman, claims that Siemens provided only 
eight switches, one in each machine and two spares. Sources at the 
United Nations and in the U.S. government believe that the number 
supplied is higher.
    The lesson from this episode is that Iraq is still trying to import 
what it needs to fuel its nuclear weapon program.
    And Iraq is closer to getting the bomb than most people think. The 
U.N. inspectors have learned that Iraq's first bomb design, which 
weighed a ton and was a full meter in diameter, has been replaced by a 
smaller, more efficient model. From discussions with the Iraqis, the 
inspectors deduced that the new design weighs only about 600 kilograms 
and measures only 600 to 650 millimeters in diameter. That makes it 
small enough to fit on a 680 millimeter Scud-type missile. The 
inspectors believe that Iraq may still have nine Scuds hidden 
somewhere.
    The inspectors have also determined that Iraq's bomb design will 
work. Iraq has mastered the key technique of creating an implosive 
shock wave, which squeezes a bomb's nuclear material enough to trigger 
a chain reaction. The inspectors have learned that the new Iraqi design 
also uses a ``flying tamper,'' a refinement that ``hammers'' the 
nuclear material to squeeze it even harder, so bombs can be made 
smaller without diminishing their explosive force.
    How did Iraq progress so far so quickly? The inspectors found an 
Iraqi document describing an offer of design help from an agent of 
Pakistan. Iraq says it didn't accept the offer, but the inspectors 
think it did. Pakistan's latest design also uses a flying tamper. 
Regardless of how the Iraqis managed to do it, Saddam Hussein now 
possesses an efficient nuclear bomb design. The only thing he lacks is 
enough weapon-grade uranium to fuel it--about sixteen kilograms per 
warhead.
             resolution 1284 and the new inspection system
    The lithotripter episode exposes one of the key weaknesses of the 
U.N. oil-for-food program. While its humanitarian objectives are 
laudable, the truth is that oil-for-food is really ``oil-for-arms'' as 
viewed from the Iraqi side. Iraq has been allowed to purchase 
humanitarian items such as medical equipment with money earned from oil 
exports so long as the funds were administered by the U.N. sanctions 
committee. But Iraq was able to disguise its purchase of the nuclear 
weapon triggers as medical equipment and the sanctions committee 
approved the export. The sale was restricted only by the national 
export controls applied by the supplier countries.
    Under U.N. Resolution 1284, the sanctions committee loophole will 
now be expanded. The resolution lifts the ceiling on Iraqi oil exports, 
and it authorizes the committee to draw up lists of items including 
food, medical equipment, medical supplies, and agricultural equipment 
that will not have to go through the sanctions committee for approval. 
In January, the U.N. Secretary General was able to report that these 
lists had already been drawn up. In addition, the resolution sets up a 
group of experts charged with speedily approving contracts for parts 
and equipment necessary to enable Iraq to increase its oil exports.
    The result of the liberalization is this: Iraqi oil revenues will 
rise, large quantities of goods will be imported without U.N. approval, 
and the sheer volume will overwhelm the tracking system that is 
currently in place, even if monitors do return to Iraq. Iraq is now 
slated to receive $3.5 billion in authorized imports in the current 
phase of the oil-for-food plan, more than any small committee can keep 
tabs on.
    Our chart in the New York Times, Week in Review from 1993 gives a 
good idea of who Iraq's suppliers were before the Gulf War. Most of 
these companies still exist, and Iraq still wants to buy what they 
produce. The pie chart illustrates the scope of the problem. U.N. 
inspectors never managed to fully expose or eradicate this procurement 
network, despite valiant efforts. There is every reason to think that 
this network is swinging back into action in the absence of 
inspections.
    Resolution 1284 also promises in paragraph 33 the early lifting of 
sanctions if Iraq cooperates with U.N. inspectors for 120 days on the 
monitoring and disarmament tasks specified in the inspectors' work 
programs. Gone is the requirement for full disarmament. Instead there 
is the ``checklist'' approach that Iraq has been urging for years. The 
U.N. inspectors must provide Iraq with a list of things to do, and Iraq 
need only show some progress toward doing them in order to suspend the 
existing embargo. Iraq will not have to answer all the remaining 
questions about its weapon programs; it will only have to show that it 
``has cooperated in all respects'' with the work program. What it means 
to ``cooperate in all respects'' is not defined by the resolution. It 
is clear, however, that ``cooperation'' does not mean ``achieving 
disarmament.''
    Another weakness of the new resolution is its silence on who the 
new inspectors will be. The resolution never addressed the question 
whether former UNSCOM inspectors would serve in the new inspection 
body, called the U.N. Monitoring, Verification and Inspection 
Commission (UNMOVIC). In January, Dr. Hans Blix was chosen to head 
UNMOVIC. After assuming his post earlier this month, Dr. Blix said that 
he would demand ``unrestricted access'' to Iraqi sites but would not 
``humiliate'' Iraqi leaders with a procession of surprise inspections. 
He made it clear that the new agency would seek a more cordial 
relationship with Iraq. Dr. Blix also noted that he would rely on 
former UNSCOM inspectors in a transition period, but made no promise to 
give them permanent posts. Lastly, he said that the new inspectors 
would have to be full-time employees of the United Nations, rather than 
come on loan from their governments.
    The United States should keep the pressure on Mr. Blix to retain 
the former UNSCOM inspectors on staff. These dedicated men and women 
not only undertook personal risk to carry out a hazardous duty, but in 
the process they developed a body of knowledge and experience that will 
be lacking in a new group of inspectors. Losing the UNSCOM inspectors 
will mean losing their invaluable familiarity with Iraq's weapon 
programs. The former inspectors should not be thrown over the side just 
to please Saddam Hussein.
    Dr. Blix has a checkered history in Iraq. While Dr. Blix was head 
of the International Atomic Energy Agency, Iraq ran an ambitious 
nuclear weapon program under his inspectors' very noses. This activity 
included a breach of the international safeguards obligations that his 
agency was supposed to be enforcing. And after the Gulf War, Iraq was 
nearly given a clean nuclear bill of health by his timid inspectors in 
1991. The IAEA and Dr. Blix were saved from humiliation only by an 
Iraqi defector, who provided the lead that caused the discovery of 
Iraq's giant uranium enrichment program. The record shows that Dr. 
Blix's agency made repeated errors in Iraq, and meekly relied on Iraqi 
disclosures when more assertiveness was clearly called for. Unless Dr. 
Blix is more effective at UNMOVIC than he was at the IAEA, the 
inspectors--whoever they will be--are unlikely to find anything in 
Iraq.
                          threat and response
    Present U.S. efforts won't stop the Iraqi bomb. American jets are 
patrolling Iraq's no-fly zones and blowing up its air defenses, but 
these pinpricks won't hinder bomb-making at secret sites. The Iraqis 
have learned the art of camouflage very well. The United States and 
Britain are also trying to maintain the international trade embargo, 
but it is eroding because key countries don't support it and there are 
no inspectors to check on what comes into Iraqi ports. The United 
States has threatened to overthrow Saddam, but this threat is viewed as 
empty in the absence of a credible means to carry it out.
    In effect, the world is reverting to the position it was in before 
the Gulf War. With no inspectors inside Iraq, Western intelligence 
agencies must try to sniff out Saddam Hussein's purchases from abroad, 
and to divine what his hidden arms factories are making with them. That 
method failed in the 1980's. Western intelligence never discovered the 
key component of Iraq's nuclear manufacturing effort: a string of giant 
magnets that would have turned out critical masses of bomb fuel by 1995 
if Saddam had not invaded Kuwait.
    The world can ill afford another such debacle. An Iraqi bomb, or 
even the imminent threat of one, removes any hope of coaxing Iran off 
the nuclear weapon path. With Saddam building bombs next door, Iran can 
only speed up its drive for weapons of mass destruction. And once Iraq 
and Iran are able to target Israel with nuclear warheads, how can 
Israel feel secure enough to make the concessions necessary for peace 
in the Middle East?
    The best chance of containing Saddam is still the same: to disarm 
him. And the best way to do that is to unite the U.N. Security Council 
behind meaningful inspections. But international cooperation in dealing 
with Iraq has practically ceased, despite the negotiation of Resolution 
1284.
    The cost of paralysis could be high. It is only a matter of time 
until Iraq's bomb factories start producing again, if they haven't 
already. The U.N. inspectors believe that Iraq is withholding drawings 
showing the latest stage of its nuclear weapon design, blueprints of 
individual nuclear weapon components, and drawings showing how to mate 
Iraq's nuclear warhead with a missile. Iraq claims that these things 
either do not exist or are no longer in its possession. In addition, 
Iraq has failed to turn over documents revealing how far it got in 
developing centrifuges to process uranium to weapon-grade, and has 
failed to provide 170 technical reports it received showing how to 
produce and operate the centrifuges. Iraq claims that all these 
documents were secretly destroyed. Nor has Iraq accounted for materials 
and equipment belonging to its most advanced nuclear weapon design 
team.
    And the nuclear threat is not the only worry. Iraq is also hiding 
key parts of its chemical weapon program. Iraq has refused to account 
for at least 3.9 tons of VX, the deadliest form of nerve gas, and at 
least 600 tons of ingredients to make it. Iraq produced the gas but 
claims it was of low quality and that all of the ingredients to make it 
were either destroyed or consumed during production attempts. Also 
missing are up to 3,000 tons of other poison gas agents that Iraq 
admitted producing but said were used, destroyed or thrown away, and 
several hundred additional tons of agents the Iraqis could have 
produced with the 4,000 tons of missing ingredients they admit they had 
at their disposal. Iraq also admits producing or possessing 500 bombs 
with parachutes to deliver gas or germ payloads, roughly 550 artillery 
shells filled with mustard gas, 107,500 casings prepared for various 
chemical munitions, and 31,658 filled and empty chemical munitions--all 
of which Iraq claims to have destroyed or lost, a fact which inspectors 
have been unable to verify. Many key records are also missing. These 
include an Iraqi Air Force document showing how much poison gas was 
used against Iran, and thus how much Iraq had left after the Iran-Iraq 
war, as well as ``cookbooks'' showing how Iraq operated its poison gas 
plants.
    The uncertainties surrounding Iraq's biological weapon program are 
greatest of all. The total amount of germ agent Iraq produced (anthrax, 
botulinum, gas gangrene, aflatoxin) has never been revealed to the 
inspectors, who know only that Iraq's production capacity far exceeded 
what it admitted producing. Iraq has simply alleged that its production 
facilities were not run at full capacity, a claim directly contradicted 
by its all-out drive to mass-produce germ warfare agents. Inspectors 
believe that Iraq retains at least 157 aerial bombs and 25 missile 
warheads filled with germ agents, retains spraying equipment to deliver 
germ agents by helicopter, and possessed enough growth media to 
generate three or four times the amount of anthrax it admits producing. 
Iraq either claims that these items were destroyed unilaterally, claims 
they were used for civilian purposes or simply refuses to explain what 
happened to them. Nor can inspectors account for the results of a known 
project to deliver germ agents by drop tanks or account for much of the 
equipment Iraq used to produce germ agents. Finally, Iraq contends that 
many essential records of its biological weapon program, such as log 
books of materials purchased, lists of imported ingredients, and lists 
of stored ingredients, simply ``cannot be found.''
    Iraq also retains some of its delivery capability. Up to nine 
ballistic missiles, plus imported guidance components, remain 
unaccounted for. Iraq claims they were all secretly destroyed, but 
their remains were not found in the sites where Iraq claimed it dumped 
them. In addition, the inspectors cannot account for up to 150 tons of 
missile production materials, or for Iraq's stockpile of liquid rocket 
fuel. Because Iraq has been allowed to produce short-range missiles 
(less than 150 kilometers in range) under U.N. monitoring, it has 
manufacturing capability that it can convert to longer-range missiles 
now that monitoring has ceased.
    Saddam Hussein has not been idle since December 1998. U.S. 
officials have been cited in the media as saying satellite photographs 
and U.S. intelligence reports have shown that Iraq has in the last year 
rebuilt many of the 100 military and industrial sites damaged or 
destroyed by American and British air strikes in December 1998. Of 
those targets, 12 were reportedly missile factories or industrial sites 
involved in Iraq's weapons of mass destruction programs, at which 
officials said significant reconstruction had been seen--including the 
Al Taji missile complex.
    For the moment, our government seems content to live with inaction. 
The present U.S. policy is to isolate Saddam diplomatically, maintain 
the existing trade sanctions, and give at least some help to Iraqi 
opposition forces--a strategy known as ``containment plus.''
    Unless U.S. foreign policy makers once again place a high priority 
on disarming Iraq and lead the international community in that 
direction, Saddam Hussein will achieve his mass destruction weapon 
aspirations in the relatively short-term. Despite a seven-year 
international effort to rid Iraq of these weapons, Iraq today retains a 
great potential for producing them. Experts have estimated that Iraq 
could resume manufacture of chemical and biological agents within 
months of a decision to do so. Similarly, Iraq could probably assemble 
a nuclear weapon within weeks of importing the fissile material 
necessary to fuel it. Five years is a reasonable estimate if Iraq 
itself is obliged to produce the fissile material. By refusing to 
cooperate with U.N. inspectors, and by foregoing billions of dollars in 
oil revenue rather than choosing to disarm, Iraq has shown that 
building mass destruction weapons remains one of its primary goals. 
Therefore, the United States should revisit its own Iraq policy before 
it is too late.

                                 ______
                                 

     [From The New Yorker, ``The Talk of the Town,'' Dec. 13, 1999]

                       Dept. of Mass Destruction

                    saddam's nuclear shopping spree.
    Ever since the United Nations weapons inspectors were shut out of 
Iraq, a year ago, the world has been left to wonder what Saddam Hussein 
is up to. Well, now it can be told: he has been secretly trying to 
transform his desert dictatorship into a world-class center for the 
treatment of kidney stones.
    Or so it would seem, to judge from his latest purchases on the 
international medical-equipment market. Although Iraq remains under a 
strict United Nations embargo, the embargo does not cover medical 
supplies. Last year, the Iraqi government ordered half a dozen 
lithotripters, which are state-of-the-art machines for getting rid of 
kidney stones. (The word ``lithotripter'' comes from the Greek for 
``stone breaker.'') A lithotripter uses a shock wave to pulverize these 
painful objects without surgery. Machines like the ones Iraq bought 
require a high-precision electronic switch that triggers a powerful 
burst of electricity. In addition to the lithotripters, Iraq wanted to 
buy a hundred and twenty extra switches. That is at least a hundred 
more than the machines would ever need.
    Iraq's strange hankering for this particular ``spare part'' becomes 
less mysterious when one reflects that the switch in question has 
another use: it can trigger an atomic bomb. According to a 
knowledgeable U.N. inspector, each bomb of the type that Iraq is tying 
to build requires thirty-two switches. Thus, a hundred of them would 
outfit three bombs. It is hardly a coincidence that, as the former U.N. 
inspector Scott Ritter testified at a Senate hearing last year, the 
inspectors had ``intelligence information which indicates that 
components necessary for three nuclear weapons exist'' in Iraq. Saddam 
Hussein has been shopping for what he needs to make sure they work.
    Iraq went to Siemens, the German electronics giant, to place the 
order. Before the Gulf War, Iraq acquired Siemens computers and other 
equipment useful for processing uranium to nuclear-weapons grade, and 
the company provided electrical equipment for one of Iraq's main 
missile sites. (Siemens has denied helping Iraq advance its nuclear 
program.) In this instance, Siemens forwarded the switches order to its 
supplier, Thomson-C.S.F., a French military-electronics company. The 
French government promptly barred the sale. Stephen Cooney, a Siemens 
spokesman, refuses to say whether Siemens nevertheless filled the 
switch order, or even whether the order was placed. If Siemens made the 
deal, Iraq got a powerful nuclear boost.
    The Clinton Administration has been relatively quiet on Iraq 
lately. Although it maintains that it remains suspicious of Saddam, it 
claims to have no specific evidence that he has resumed his efforts to 
build weapons of mass destruction. The kidney-stone affair suggests 
otherwise.
    The U.N. inspectors have learned that Iraq's first bomb design, 
which weighed a ton and was just over a yard in diameter, has been 
replaced by a smaller, more efficient model. The inspectors have 
deduced that the new design weighs only about one thousand three 
hundred pounds and measures about twenty-five inches in diameter. That 
makes it small enough to fit on a Scud-type missile. The inspectors 
believe that Iraq may still have nine such missiles hidden somewhere.
    The inspectors have also concluded that Iraq's bomb design will 
work. Iraq, they believe, has mastered the key technique of creating an 
implosive shock wave, which squeezes a bomb's nuclear material enough 
to trigger a chain reaction. The new design also uses a ``flying 
tamper,'' a refinement that ``hammers'' the nuclear material to squeeze 
it even harder, so bombs can be made smaller without diminishing their 
explosive force.
    How did Iraq progress so far so quickly? The inspectors found an 
Iraqi document describing an offer of design help--in exchange for 
money--from an agent of Pakistan. Iraq says it didn't accept the offer, 
but the inspectors think it did. Pakistan's latest design also uses a 
flying tamper. Regardless of how the Iraqis managed to do it, Saddam 
Hussein now possesses an efficient nuclear-bomb design. And, if he did 
succeed in getting hold of the necessary switches, then the only thing 
he lacks is enough weapons-grade uranium to fuel the warheads.
    The fuel, unfortunately, is getting easier to find. United States 
officials report that on May 29th Bulgaria seized approximately a third 
of an ounce of weapons-grade uranium at its border. The hot cargo, 
accompanied by documents in Russian, was concealed in a lead container 
in a pump stowed in a car. A third of an ounce is not enough for a bomb 
(Iraq's design, for example, needs thirty-five pounds), but this 
seizure and others like it show that weapons-grade fuel is beginning to 
circulate in the black market. Unless the U.N. Security Council can 
agree on a plan to reinstate meaningful inspections, Saddam may be able 
to complete his nuclear shopping sooner rather than later.--Gary 
Milhollin

                                 ______
                                 

      [From the New York Times, ``Week in Review,'' Dec. 20, 1998]

       What the Inspectors Can't Find and Why They Can't Find It

    Arms inspectors have been trying for seven years to verify that 
Iraq has kept its promise to destroy its chemical, nuclear and 
biological warfare capacity, but say many pieces of the puzzle are 
still unaccounted for. This table was compiled by the Wisconsin Project 
on Nuclear Arms Control, a research group based in Washington that 
tracks the spread of weapons of mass destruction. The authors, Gary 
Milhollin and Kelly Nugent, based their work principally on reports 
from the United Nations Special Commission and the International Atomic 
Energy Agency, and statements by Richard Butler, the commission's chief 
inspector.


                               POISON GAS

Unaccounted for in Iraq:          How Inspectors      What Iraq Said:
                                   Know:
At least 3.9 tons of VX nerve     Iraq admits         The gas was low
 gas.                              producing this      quality and the
                                   amount in 1988      effort to make it
                                   and 1990.           failed.
VX nerve gas put into warheads..  U.S. and French     The evidence was
                                   tests found         planted.
                                   traces of nerve
                                   gas on warhead
                                   remnants.
About 600 tons of ingredients     Out of 805 tons on  Everything was
 for VX gas.                       hand, only 191      destroyed or
                                   could be verified   consumed in
                                   as destroyed.       production.
Up to 3,000 tons of other poison  Iraq admits         They were used,
 gas agents.                       producing agents    thrown away or
                                   in the 1980's.      destroyed by U.S.
                                                       bombs during the
                                                       1991 gulf war.
Several hundred additional tons   Iraq had enough     All poison gas
 of poison gas agents that Iraq    ingredients to      production has
 may have produced.                make more poison    been declared.
                                   gas than it
                                   admits producing.
4,000 tons of ingredients to      Iraq admits         No records of what
 make poison gas.                  importing or        happened to them
                                   producing them.     are available.
500 bombs with parachutes to      Iraq admits         They were secretly
 deliver gas or germ payloads.     producing them.     destroyed.
About 550 artillery shells        Iraq admits they    They were lost
 filled with mustard gas.          existed.            shortly after the
                                                       gulf war.
107,500 casings for chemical      Iraq admits         No records are
 arms.                             producing or        available.
                                   importing them.
31,658 filled and empty chemical  Iraq admits         They were thrown
 munitions.                        producing or        away, destroyed
                                   importing them.     secretly or
                                                       destroyed by U.S.
                                                       bombs.
An Iraqi Air Force document       A U.N. inspector    Inspectors might
 showing how much poison gas was   held the document   be able to see
 used against Iran, and thus how   briefly in her      it, but only in
 much Iraq has left.               hands before Iraq   the presence of
                                   confiscated it.     the Secretary
                                                       Generals personal
                                                       envoy.
The results of a project to make  Iraq admits it ran  There are no
 binary artillery shells for       such a project      records or
 sarin nerve gas.                  and made            physical traces
                                   experimental        of the program.
                                   shells.
Production procedures for making  Such proceedures    No documents
 poison gas.                       are needed for      containing these
                                   large-scale         procedures can be
                                   production.         found.
Documents showing the overall     Inspectors          No such documents
 size of the chemical weapons      determined that     can be found.
 program.                          specific
                                   documents are
                                   still missing.

                           GERM WARFARE AGENTS

Unaccounted for in Iraq:          How Inspectors      What Iraq Says:
                                   Know:
At least 157 aerial bombs filled  Iraq admits         They were secretly
 with germ agents.                 filling this many.  destroyed.
At least 25 missile warheads      Iraq admits         They were secretly
 containing germ agents            producing them.     destroyed.
 (anthrax, aflotoxin and
 botulinum).
Excess germ warfare agent.......  Iraq admits         The excess was
                                   producing more of   secretly
                                   the agent than      destroyed.
                                   was used to fill
                                   munitions.
Spraying equipment to deliver     Iraq admits it      Iraq refuses to
 germ agents by helicopter.        tested such         explain what
                                   equipment.          happened to it.
The results of a project to       Iraq admits the     Everything has
 deliver germ agents by drop       project existed,    been accounted
 tanks.                            but inspectors      for.
                                   cannot verify
                                   Iraq's account.
Growth media to produce three or  U.N. inspectors     Either the
 four times the amount of          discovered that     material was not
 anthrax Iraq admits producing.    this much was       imported or it
                                   imported.           went to a
                                                       civilian lab.
Equipment to produce germ agents  Iraq provided an    Everything has
                                   incomplete          been accounted
                                   inventory.          for.
Program to dry germ agents so     Inspectors saw a    No such program
 they are easier to store and      document            existed.
 use.                              revealing the
                                   program's
                                   existence.
Log book showing purchases for    Inspectors saw the  The book cannot be
 the germ warfare program.         log book in 1995.   found.
List of imported ingredients for  Iraq admits the     The document
 germ agents.                      document exists.    cannot be found.
List of ingredients for germ      Iraq admits the     The document
 agents stored at Iraq's main      document exists.    cannot be found.
 germ facility.
The total amount of germ agents   Production          Iraq did not use
 Iraq produced (anthrax,           capacity far        full capacity.
 botulinum, gas gangrene,          exceeds the
 aflatoxin).                       amount Iraq
                                   admits producing.

                             NUCLEAR WEAPONS

Unaccounted for in Iraq:          How Inspectors      What Iraq Says:
                                   Know:
Components for three to four      Intelligence        Such weapons do
 implosion-type nuclear weapons,   gathered by the     not exist.
 lacking only uranium fuel.        former U.N.
                                   inspector Scott
                                   Ritter.
Drawings showing the latest       Inspectors          Cannot explain why
 stage of Iraq's nuclear weapon    determined the      the drawings are
 design.                           drawings must       missing.
                                   exist.
Design drawings of individual     Other drawings      Iraq no longer has
 nuclear weapon components,        show that these     these drawings.
 including the precise             drawings exist.
 dimensions of explosive lenses.
Drawings of how to mate a         Other drawings      Iraq no longer has
 nuclear warhead to a missile.     show that these     these drawings.
                                   drawings exist.
Documents detailing cooperation   The cooperation     No response.
 among various Iraqi nuclear       must have
 weapon and missile groups.        generated a paper
                                   trail.
Documents revealing how far Iraq  Iraq tested one or  The documents were
 got in developing centrifuges     two prototypes.     secretly
 to process uranium to weapons                         destroyed.
 grade.
170 technical reports explaining  Iraq admits a       The documents were
 how to produce and operate        German supplier     secretly
 these centrifuges.                provided them,      destroyed.
                                   and a few were
                                   found.
Materials and equipment           Inspectors have     Iraq has provided
 belonging to Iraq's most          determined that     everything it can
 advanced nuclear weapon design    important items     find.
 team.                             are still missing.
Materials and equipment           Inspectors have     Iraq has provided
 belonging to Iraq's most          determined that     everything it can
 advanced nuclear weapon design    important items     find.
 team.                             are still missing.
Materials and equipment           Inspectors have     Iraq has provided
 belonging to the group trying     determined that     everything it can
 to process uranium to nuclear     important items     find.
 weapons grade.                    are still missing.
The name and whereabouts of a     Inspectors were     Inspectors should
 foreign national who offered to   informed that the   consult an Iraqi
 help Iraq's nuclear program.      offer was made.     expatriate who
                                                       might provide a
                                                       lead. (They did;
                                                       it was a dead
                                                       end.)
Documents proving Iraq's claim    Inspectors          No records can be
 that it abandoned its secret      determined that     found.
 nuclear-bomb program.             such a step must
                                   have been
                                   recorded.

                           BALLISTIC MISSILES

Unaccounted for:                  How Inspectors      What Iraq Says:
                                   Know:
Seven, locally-produced           Iraq admits it had  They were secretly
 ballistic missiles.               them.               destroyed in
                                                       1991.
Two operational missiles that     Iraq admits it had  They were secretly
 Iraq imported.                    them.               destroyed in
                                                       1991.
Components for missile guidance   Iraq supplied an    They were secretly
 that Iraq imported.               inventory but it    destroyed.
                                   was incomplete.
Up to 150 tons of material for    Iraq admits it had  It was secretly
 missile production.               it; destruction     melted or dumped
                                   could not be        into rivers and
                                   verified.           canals.
Liquid fuel for long-range        Iraq admits it had  It was secretly
 missiles.                         them.               destroyed and
                                                       will not be
                                                       discussed
                                                       further.
Up to 50 Scud-type missile        Iraq admits it had  They were secretly
 warheads, presumably for high     them.               destroyed.
 exposives.
Drawings showing how to put       Iraq needed such    All available
 together a Scud missile.          drawings to         drawings were
                                   produce these       provided.
                                   missiles.
------------------------------------------------------------------------


    Senator Brownback. Thank you very much. I appreciate your 
being here to testify.
    Mr. Leventhal, thank you for joining us today.

    STATEMENT OF PAUL LEVENTHAL, PRESIDENT, NUCLEAR CONTROL 
                   INSTITUTE, WASHINGTON, DC

    Mr. Leventhal. Thank you, Mr. Chairman. I appreciate your 
invitation to testify before the subcommittee today. Our 
research director, Steven Dolley, participated in the 
preparation of this testimony.
    I too have a number of items that I would like to submit 
for the record as part of my testimony. They include an article 
that Mr. Dolley and I wrote for the Outlook section of the 
Washington Post, end of 1998, comparing the UNSCOM inspections 
with the IAEA inspections in Iraq and pointing out that the 
UNSCOM formula was one that held Iraq accountable and did not 
accept a lack of evidence, an absence of evidence as evidence 
of absence while the IAEA took a very different tack, most of 
the time under Mr. Blix' leadership.
    We also want to submit for the record a detailed analysis 
of what we believe still remains unaccounted for in Iraq in the 
way of nuclear weapons components, technology designs that have 
not been accounted for, and which the IAEA has not insisted be 
accounted for in terms of giving Iraq a clean bill of health or 
at least enough to allow Iraq supporters in the Security 
Council to say that the nuclear file should be closed and that 
sanctions should at least be partially lifted.
    The other items we wish to submit for the record are 
exchange of correspondence we had with the current director 
general of IAEA, Mr. ElBaradei, on these unresolved issues, 
unanswered questions, as well as an exchange of correspondence 
with the State Department following the letter that we sent to 
President Clinton on these matters.
    Senator Brownback. They will be accepted in the record, 
without objection.
    Mr. Leventhal. Most of my testimony focuses on the nuclear 
program in Iraq because we feel that this has been neglected 
and misperceived largely because of IAEA determinations that 
all matters relevant to the nuclear weapons program have been 
destroyed, removed, or rendered harmless. We feel that this is 
an incorrect conclusion.
    We distinguish between the facilities which were uncovered 
right after the Gulf war that were subsequently destroyed or 
put under monitoring. We compare that with what may be a very 
small, but dangerous remnant of the Iraqi nuclear weapons 
program, specifically the components that they were known to 
have been making, particularly the explosive lenses for the 
purpose of compressing the uranium core of a nuclear bomb. We 
believe that the IAEA at one point was misled by possibly 
fraudulent or forged documents suggesting to the IAEA that back 
in 1991 the Iraqis were not as far along with the development 
of that technology as others believed them to have been.
    My testimony focuses on the role of Mr. Blix and the impact 
that will have on the new inspection agency, UNMOVIC, as the 
successor to UNSCOM. We have in Resolution 1284 something that 
we did not have before, which was a statement of Security 
Council intention to lift sanctions if 120 days after a work 
program has been established by the IAEA and UNMOVIC, the heads 
of those two agencies make a determination that Iraq has 
cooperated in all respects. We think, as Mr. Milhollin 
indicated, that Mr. Blix may not be well suited for the kind of 
confrontational approach that Ambassador Walker himself 
indicated is necessary.
    We detail at some length the kinds of mistakes that the 
IAEA made going back almost 20 years prior to the startup of 
the Osirak reactor which Israel bombed in 1981 before it became 
operational, specifically because the IAEA had negotiated a 
safeguards arrangement with Iraq which would not have been 
adequate to detect the clandestine production of plutonium. An 
IAEA inspector, Mr. Roger Richter, who subsequently became a 
member of our board, resigned in protest from the IAEA to point 
out that Israel was perhaps justified in bombing that facility 
because of the weakness of the safeguards regime.
    Then leading up to the Gulf war, I testified before 
Congress that Iraq could well be within weeks of acquiring 
nuclear weapons because of the safeguarded, bomb grade, highly 
enriched uranium it had in its civilian program, courtesy of 
Russian and French exporters, which could have been diverted in 
between inspections. The IAEA denied such a possibility, as did 
senior officials in the U.S. State Department, by the way, but 
this was later confirmed when Saddam's son-in-law----
    Senator Biden. What year was this? Excuse me. What year was 
this you are talking about?
    Mr. Leventhal. This was in 1990.
    Senator Biden. In 1990. That is what I thought. Thank you.
    Mr. Leventhal. Before the Armed Services Committee, I 
submitted testimony suggesting that Iraq could be, at that 
time, within weeks----
    Senator Biden. In 1990 the State Department denied it as 
well.
    Mr. Leventhal. That is right. It was not seen as credible 
that they would actually violate safeguards as a member of the 
NPT.
    Senator Biden. Thank you for the clarification.
    Mr. Leventhal. In fact, when Saddam's son-in-law defected 
in 1995, he had been the head of what was disclosed to be a 
crash program where they actually had begun to saw off the ends 
of the fuel rods to remove the highly enriched uranium for the 
purpose of attempting to make at least one weapon, possibly two 
within the 6-month period between IAEA inspections.
    So, we have a situation today where Iraq has not been 
cooperative to say the least, where the IAEA has been prepared, 
after several attempts to try to elicit information--once that 
information is not forthcoming, they acknowledge discrepancies 
but they come to conclusions suggesting that everything, in 
fact, has been destroyed, removed, or rendered harmless, and 
that Iraq has no significant nuclear capabilities left.
    Because of the procurement activities described by Mr. 
Milhollin, because of the fact that Iraq's 200 nuclear Ph.D.'s 
are still there or are believed to be there--some of them may 
actually be traveling now, but the fact is that the entire 
human infrastructure of Iraq's nuclear weapons program has 
remained in place and the question is are there components--as 
Scott Ritter testified, they were being transported around the 
country at that time in an attempt to conceal them from the 
UNSCOM inspectors--if there is a basis, if there is a 
substantial basis to believe that those kinds of activities 
have taken place, that the weapons components have not been 
destroyed--and surely no evidence of their destruction, either 
documentary or material, has been presented to the IAEA--then 
one has to assume that things are on a knife's edge, that if 
Iraq is capable of clandestinely producing highly enriched 
uranium through a small centrifuge cascade or, perhaps more 
likely, attempting to smuggle plutonium or highly enriched 
uranium into the country from Russia or from safeguarded 
civilian facilities throughout the world which have IAEA 
safeguards attached to them, which are not very effective in an 
adversarial situation--in other words, a determined effort to 
remove material could well end up in Iraq. And the IAEA has 
acknowledged that they would have little chance of detecting 
the smuggling into Iraq of the kilogram quantities of either of 
those fissile materials which would be enough for several 
nuclear weapons.
    Now, our position is that it is important to hold Mr. Blix 
accountable. I would even suggest that this committee invite 
Mr. Blix to come and explain how he is going to operate and how 
differently he is going to operate as the head of UNMOVIC than 
he did as the head of the IAEA. I think it is important to try 
to pin him down and to make it clear to him that the Congress 
is not interested in a report 120 days after an inspection 
process has been put in place, that we have had full 
cooperation from the Iraqis, we have not been able to find 
anything, and therefore there is no basis for maintaining 
sanctions. I think a ``shot across the bow'' at this point in 
time, as UNMOVIC is being formed, would be all to the good.
    In our conclusions, we have basically three conclusions in 
our testimony.
    The IAEA should be directed to provide UNMOVIC and the 
College of Commissioners that has been formed a complete 
inventory of all nuclear bomb components, designs, and models 
for which there is documentation or intelligence but which the 
agency cannot account for.
    And the Security Council should insist that all elements 
listed in this inventory be produced by Iraq or otherwise 
accounted for prior to any consideration of closing the nuclear 
file and lifting sanctions. This indeed was UNSCOM's approach 
with regard to missiles and chemical and biological weapons, 
and it should be the IAEA's approach to nuclear weapons as 
well. I am particularly concerned because Mr. Blix is now the 
head of UNMOVIC, and therefore it might reinforce the kind of 
cooperative approach that the IAEA has been taking in the past, 
a nonconfrontational approach.
    UNMOVIC and the Security Council should make sure that the 
IAEA diligently and completely pursues all unanswered 
questions, and if the agency proves itself unable to do so, 
responsibility for nuclear inspections should be transferred to 
the Security Council which has the enforcement authority needed 
to follow through.
    Finally, Dr. Blix should now pledge he will conduct 
business differently than he did at the IAEA and will not allow 
the absence of evidence to be viewed as evidence of absence of 
weapons of mass destruction.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Leventhal follows:]

                  Prepared Statement of Paul Leventhal

                              introduction
    Thank you, Mr. Chairman, for your invitation to testify before the 
subcommittee today on U.S. sanctions policy toward Iraq. Steven Dolley, 
research director of the Nuclear Control Institute, participated in the 
preparation of this testimony.
    I will focus primarily on issues related to the nuclear inspections 
that have been conducted in Iraq under the terms of U.N. Security 
Council Resolution (UNSCR) 687, the Gulf War cease-fire. From April 
1991 until Iraq evicted all U.N. inspectors in December 1998, the 
International Atomic Energy Agency (IAEA) was responsible for 
conducting nuclear inspections in Iraq, with technical and intelligence 
support provided by the U.N. Special Commission on Iraq (UNSCOM). Under 
paragraph 3 of UNSCR 1284--the December 1999 resolution that 
establishes the UN Monitoring, Verification and Inspection Commission 
(UNMOVIC), the successor agency to UNSCOM--the IAEA ``will maintain 
this role with the assistance and cooperation of UNMOVIC,'' when and if 
inspectors return to Iraq.
    Over the last few years, public concern about Iraq's weapons of 
mass destruction has focused primarily on Saddam's chemical, biological 
and missile capabilities. This perception in large measure results from 
the IAEA's finding that ``Iraq's known nuclear assets have been 
destroyed, removed or rendered harmless.'' This is not, in fact, the 
case. While it is true that Iraq's known nuclear facilities have been 
destroyed or were placed under monitoring (prior to December 1998), 
important questions about Iraq's nuclear-weapons program remain 
unanswered. Key nuclear-bomb components and weapons designs that were 
known to exist were never surrendered by Iraq to UN inspectors.
    Indeed, the threat from Iraq's nuclear capability could be greater 
than its chemical, biological and missile efforts. Vital elements of 
Iraq's nuclear-weapons program remain in place today. Over 200 nuclear 
PhDs continue their work on unknown projects, with no supervision by UN 
inspectors for more than a year. Iraq operates a worldwide network to 
procure foreign technology, and most trucks entering Iraq from Turkey 
are not even stopped for inspection.
    Little is known about Iraq's efforts to enrich uranium for bombs 
using centrifuges, and the possibility remains that a small centrifuge 
cascade for this purpose is hidden somewhere in Iraq. Iraq was 
permitted by the IAEA to retain possession of 1.7 metric tons of 
uranium enriched to 2.6% U-235, as well as some 13 tons of natural 
uranium stocks. This uranium, if used as feed material for centrifuges, 
could produce over 115 kilograms of bomb-grade highly enriched uranium, 
enough to make at least four nuclear bombs. Although the IAEA recently 
conducted a routine investigation to confirm that these uranium stocks 
had not been removed, such inspections are required only once a year, 
raising the possibility that Iraq could seek to enrich these materials 
to weapons grade between inspections.
    The greatest danger is that Iraq will acquire, or has already 
acquired, fissile material on the black market. The IAEA has 
acknowledged ``very little confidence'' it would be able to detect the 
smuggling of the kilogram quantities of plutonium or highly enriched 
uranium needed to make a few bombs. Given that Iraq has already 
developed the other components for nuclear weapons, the situation is on 
a knife's edge. If Iraq obtains fissile material, it would be at most a 
few months--perhaps as little as weeks or days--away from possessing 
nuclear bombs.
    There is an eerie familiarity to all this. Prior to the Gulf War, 
Saddam Hussein used the threat of chemical and biological weapons to 
deflect attention away from a hidden nuclear threat. ``I swear to 
God,'' he proclaimed in March 1990, ``we will let our fire eat half of 
Israel if it tries to wage anything against Iraq. We don't need an 
atomic bomb, because we have binary chemicals.'' Policymakers must not 
allow themselves to be distracted again from denying Saddam his 
ultimate prize: nuclear weapons.
    Iraq's current position is that it will not permit weapons 
inspections to resume unless and until economic sanctions are 
completely lifted. If Saddam allows nuclear inspections in Iraq to 
resume at some point in the future, I am concerned that Iraqi 
dissembling and obstructionism will again wear down the IAEA, that the 
Agency will be willing to accept less than complete disclosure by Iraq, 
and that certification of Iraqi compliance by the IAEA will once again 
be used by Iraq's supporters in the Security Council as the basis for 
attempting to close the nuclear file and for at least a partial lifting 
of sanctions.
    I will examine some important unanswered questions about Iraq's 
nuclear program; explore why the IAEA has proven unable to conduct 
thorough nuclear inspections in Iraq; and discuss the impact of the 
appointment of Dr. Hans Blix, former Director-General of the IAEA, on 
UNMOVIC, of which he is now Executive Chairman.
   iraq's nuclear-bomb program: important questions remain unanswered
    Since 1991, U.S. policy has been consistent in requiring Iraq to 
cooperate fully with U.N. inspections. On November 15, 1998, prior to 
Operation Desert Fox, President Clinton declared that ``Iraq must 
resolve all outstanding issues raised by UNSCOM and the IAEA,'' 
including giving inspectors ``unfettered access'' to all sites and 
``turn[ing] over all relevant documents.'' [emphasis added] State 
Department spokesman James Foley recently reaffirmed this policy.

          When you look at the range of foreign policy challenges we 
        face, you've got to put that [Iraq's WMD capability] at the 
        very top, especially when you consider a number of factors, 
        including past use of chemical weapons by Iraq; the massive 
        chemical, biological and nuclear weapons programs unearthed or 
        uncovered by UNSCOM during its years of activity; and, indeed, 
        the continuing cleanup activity, improvements at some of the 
        sites that are capable of producing such weapons. We see no 
        reason for giving Saddam Hussein the benefit of the doubt. We 
        have to remain extraordinarily vigilant on this, and we will. 
        Of course, our preferred way of dealing with this problem is to 
        get the inspectors back and doing their job. [State Department 
        Press Briefing, February 1, 2000]

    Significant issues regarding Saddam's nuclear-weapons program 
remain unresolved. A number of these issues were raised by the IAEA in 
its October 1997 consolidated inspection report, but were never 
resolved in subsequent IAEA reports. A summary of these issues, 
prepared by Steven Dolley, Nuclear Control Institute's research 
director, is attached to this testimony, as is Mr. Dolley's full 
report, for inclusion in the hearing record. In June 1998, NCI raised 
these unresolved issues in a letter to IAEA Director-General ElBaradei. 
In his reply, ElBaradei assured us in general terms of the IAEA's 
vigilance, but explicitly refused to address the specific issues we 
raised. This correspondence with ElBaradei is also submitted for the 
hearing record, as is an exchange of correspondence between the Nuclear 
Control Institute and the State Department on these unresolved issues.
    The IAEA apparently believes that the burden of proof is on the 
inspectors, not on Iraq, and demonstrates an almost naive confidence in 
an absence of evidence to contradict unsubstantiated Iraqi claims. 
ElBaradei acknowledged ``a few outstanding questions and concerns'' but 
insisted that these provided no impediment to switching from 
investigative inspections to less intrusive environmental monitoring 
because ``the Agency has no evidence that Iraq is actually withholding 
information in these areas.'' The unfortunate result of the IAEA's 
accommodation of Iraq, in sharp contrast to UNSCOM's confrontational 
approach, is the widespread perception that Iraq's chemical, biological 
and missile capabilities constitute the only remaining threat.
    Before Iraq put a halt to all weapons inspections in December 1998, 
the IAEA had failed to get Iraq to resolve these outstanding issues--
and yet helped to make the case in the U.N. Security Council for 
closing the nuclear file by declaring that ``Iraq's known nuclear 
weapons assets have been destroyed, removed or rendered harmless,'' as 
IAEA Director General Mohammed ElBaradei reported to the Security 
Council on October 13, 1998. This language directly tracks the terms of 
compliance required of Iraq in UNSCR 687 in order for economic 
sanctions to be lifted.
    Although there is evidence that Iraq manufactured and tested a 
number of nuclear-weapon components, including the high-explosive 
``lenses'' needed to compress the uranium core and trigger a nuclear 
explosion, none of these components, or evidence of their destruction, 
have been surrendered to IAEA inspectors. In January 1999, Gary Dillon, 
then head of the IAEA Action Team, asserted that documents newly 
provided by the Iraqis demonstrated that there had not been as 
significant progress in developing explosive lenses as earlier evidence 
had indicated. Dillon claimed that a January 1991 progress report by 
Iraqi scientists, provided by Iraq to the IAEA in 1998, showed that no 
final decisions had been made on key lens design issues. However, 
Dillon admitted that forensic analysis conducted by IAEA to determine 
the authenticity of the Iraqi document had proven ``uncertain.'' Thus, 
the ``new'' Iraqi document may well have been a forgery, and the 
question of the existence of complete sets of weapons components is far 
from resolved.
    Nor has Iraq provided the IAEA with its bomb design or a scale 
model, despite repeated requests. Iraq also has refused IAEA requests 
for full details of its foreign nuclear-procurement activities and for 
an official government order terminating work on its nuclear weapons 
program. Meanwhile, to the best of our knowledge, Saddam's nuclear team 
of more than 200 PhDs remains on hand. Even before December 1998, the 
IAEA acknowledged that these scientists are not closely monitored and 
increasingly difficult to track.
    Ambassador Rolf Ekeus, former head of UNSCOM, suggested in June 
1997 that UNSCOM suspected that Iraq was still hiding nuclear 
components.

        . . . Iraq produced components, so to say, elements for the 
        nuclear warhead. Where are the remnants of that? They can't 
        evaporate. And there, Iraq's explanation is that (they) melted 
        away. And we are still very skeptical about that. We feel that 
        Iraq is still trying to protect them. . . . We know that they 
        have existed. But we doubt they have been destroyed. But we are 
        searching. [Remarks at the Carnegie Endowment for International 
        Peace, June 10, 1997]

    These questions are not merely of historical interest, but directly 
affect Iraq's current ability to produce nuclear weapons. The prudent 
assumption for the IAEA should be that Iraq's nuclear weaponization 
program continues, and that Iraq may now lack only the fissile 
material. Even the possibility that Iraq has already procured this 
material cannot be ruled out because of the serious nuclear-security 
lapses in the former Soviet Union and the abundance of such material in 
inadequately safeguarded civilian nuclear programs worldwide.
    The ominous implications of missing components and surplus 
scientists were revealed by Scott Ritter after he resigned in August 
1998 as head of UNSCOM's Concealment Investigation Unit. Ritter said, 
in testimony before the Senate Foreign Relations Committee, that UNSCOM 
``had received sensitive information of some credibility, which 
indicated that Iraq had the components to assemble three implosion-type 
[nuclear] devices, minus the fissile material.'' If Iraq procured a 
small amount of plutonium or highly enriched uranium, he testified, it 
could have operable nuclear weapons in a matter of ``days or weeks.''
    The IAEA promptly disputed the validity of Ritter's information. 
IAEA Director General Mohammed ElBaradei reported to the U.N. Security 
Council on October 13, 1998 that ``all available, credible information 
. . . provides no indication that Iraq has assembled nuclear weapons 
with or without fissile cores,'' adding that ``Iraq's known nuclear 
weapons related assets have been destroyed, removed or rendered 
harmless.''
          iaea nuclear inspections in iraq: a cultural problem
    As noted, there were sharp differences between UNSCOM and the IAEA 
on how to conduct inspections. UNSCOM was more confrontational, 
refusing to accept Iraqi obfuscations and demanding evidence of 
destroyed weapons--what former UNSCOM chief Rolf Ekeus once called 
``the arms-control equivalent of war.'' The IAEA has been more 
accommodating, giving Iraqi nuclear officials the benefit of the doubt 
when they failed to provide evidence that all nuclear weapons 
components have been destroyed and all prohibited activities 
terminated. Ekeus has acknowledged ``a certain culture problem'' 
resulting from UNSCOM's ``more aggressive approach, and the IAEA's more 
cooperative approach.'' As noted, the result is a widespread and 
dangerous perception that Iraq's nuclear threat is history, while Iraq 
is generally perceived to be concealing other weapons of mass 
destruction because UNSCOM consistently refused to accept unverified 
claims of their elimination.
    Iraq learned early on that it could conceal a nuclear weapons 
program by cooperating with the IAEA. Khidhir Hamza, a senior Iraqi 
scientist who defected to the United States in 1994, wrote in the 
Bulletin of the Atomic Scientists that Saddam Hussein approved a 
deception-by-cooperation scheme in 1974. ``Iraq was careful to avoid 
raising IAEA suspicions; an elaborate strategy was gradually developed 
to deceive and manipulate the agency,'' Hamza said.
    The strategy worked. Iraq, as a signer of the 1968 Nuclear Non-
Proliferation Treaty, was subject to IAEA inspections on all nuclear 
facilities. But IAEA's inspectors had failed to detect the Iraqi-style 
``Manhattan Project,'' which was discovered after the Gulf War by IAEA 
teams at sites identified by UNSCOM.
    The IAEA's track record of missing evidence of Iraq's nuclear 
weapons program predates the Gulf War. In 1981, Israeli air strikes 
destroyed Iraq's nearly complete Osirak research reactor because Tel 
Aviv feared Iraq's plutonium-production capacity if the plant was 
allowed to start up. After the attack, IAEA inspector Roger Richter 
resigned from the agency to defend Israel's action. He had helped 
negotiate the IAEA's ``safeguards'' arrangement for the reactor and 
later told Congress that the agency had failed to win sufficient access 
to detect plutonium production for weapons.
    In August 1990, only weeks after Iraq invaded Kuwait, IAEA 
safeguards director Jon Jennekens praised Iraqi cooperation with the 
IAEA as ``exemplary,'' and said Iraq's nuclear experts ``have made 
every effort to demonstrate that Iraq is a solid citizen'' under the 
Non-Proliferation Treaty.
    In 1991, after the Gulf War, the U.N. awarded the nuclear-
inspection portfolio in Iraq to the IAEA rather than UNSCOM, following 
a concerted lobbying campaign by the IAEA, supported by the United 
States and France. The principal argument was political: With only a 
few years remaining before the Non-Proliferation Treaty had to be 
extended, it would be extremely damaging for the treaty's survival if 
the agency were downgraded in any way.
    Its turf battle won, the IAEA continued to see things Iraq's way. 
In September 1992, after destruction of the nuclear-weapons plants 
found in the war's aftermath, Mauricio Zifferero, head of the IAEA's 
``Action Team'' in Iraq, declared Iraq's nuclear program to be ``at 
zero now . . . totally dormant.'' Zifferero explained that the Iraqis 
``have stated many times to us that they have decided at the higher 
political levels to stop these activities. This we have verified.''
    But it eventually became clear that Iraq had concealed evidence of 
its continuing nuclear bomb program. In 1995, Saddam Hussein's son-in-
law, Gen. Hussein Kamel, fled to Jordan and revealed that he had led a 
``crash program'' just before the Gulf War to build a crude nuclear 
weapon out of IAEA-safeguarded, civilian nuclear fuel, as well as a 
program after the war to refine the design of nuclear warheads to fit 
Scud missiles. Iraqi officials insisted that Kamel's work was 
unauthorized, and they led IAEA officials to a large cache of documents 
at Kamel's farm that, the Iraqis said, proved Kamel had directed the 
projects without their knowledge.
    But the Kamel revelations refuted an IAEA claim, made by then-
Director General Hans Blix in 1993, that ``the Iraqis never touched the 
nuclear highly enriched uranium which was under our safeguards.'' In 
fact, they had cut the ends off of some fuel rods and were preparing to 
remove the material from French- and Russian-supplied research reactors 
for use in weapons when the allied bombing campaign interrupted the 
project. The IAEA accepted a technically flawed claim by Iraqi 
officials that the bomb project would have been delayed by the need to 
further enrich the bomb-grade fuel for use in weapons, but defector 
Hamza later made clear that Iraq could have made direct use of the 
material in a bomb within a few months.
                hans blix and the new inspection regime
    Given the urgency of finding out whether Iraq is secretly 
rebuilding nuclear, chemical and biological weapons, or the missiles 
for delivering them, it is ironic that the United Nations' new chief 
inspector in Iraq is Hans Blix, who headed the IAEA from 1982 to 1998. 
He was in charge when the IAEA totally missed Saddam Hussein's nuclear 
weapons program before the Gulf War and accepted unsubstantiated Iraqi 
disarmament claims after the war. The United States originally 
supported Ambassador Ekeus to head up UNMOVIC, but fell in line behind 
Dr. Blix after France and Russia, Iraq's original nuclear suppliers, 
opposed Ekeus with strong backing from China and Iraq. Given his 
record, it is fair to ask how good a job Dr. Blix can be expected to 
do.
    Dr. Blix's 16-year record at the IAEA offers mixed signals. He was 
an intelligent manager and skillful diplomat, but often failed to stand 
up to national nuclear interests in the agency's Board of Governors. 
The Board always had statutory authority to impose far more intrusive 
inspections on national nuclear programs than it did, but Dr. Blix did 
not urge the Board to do so until after the humiliation of Iraq's 
hidden nuclear-weapons program. An improved IAEA safeguards system for 
which Dr. Blix takes credit, in place since 1997, is still far from 
universal or foolproof.
    In 1987, Dr. Blix failed to blow the whistle when North Korea 
refused to enter into an inspection agreement with the IAEA within the 
required 18-month period after North Korea ratified the NPT in 1985. 
The Soviet Union had prevailed on the United States in the Board of 
Governors not to make an issue of it, and Dr. Blix followed suit. North 
Korea did not permit nuclear inspections until 1992, by which time U.S. 
intelligence agencies concluded that the North Koreans had begun 
extracting plutonium for weapons from its uninspected plants. The high 
marks Dr. Blix received for his agency's subsequent inspections in 
North Korea were, in fact, attributable to technical assistance 
received from U.S. and other nuclear weapons experts.
    Under pressure from the IAEA board, Dr. Blix also failed to draw 
attention to large measurement uncertainties in commercial plutonium 
processing plants which make it impossible for IAEA inspectors to 
determine with confidence that none of this fuel is being siphoned off 
for nuclear weapons. At first he refused to acknowledge what U.S. 
weapons designers had told the IAEA--that plutonium separated in, these 
plants from the spent fuel of electrical generating nuclear reactors 
could be made into weapons. Dr. Blix's pliant stance on plutonium has 
made possible a commercial industry that already has processed more 
plutonium for civilian fuel than the superpowers have produced for 
weapons.
    As I have detailed in my testimony, the IAEA under Dr. Blix's 
tenure was forced to backtrack on rosy conclusions about Iraq's nuclear 
program. Dr. Blix brings to his new post considerable managerial and 
diplomatic skills, but a flawed record on Iraq. His reluctance to stand 
up to the IAEA Board of Governors also raises questions as to whether 
he will be able to withstand strong pressures from within the Security 
Council to give Iraq a clean bill of health and lift economic 
sanctions.
                               conclusion
    Given past differences between the IAEA and UNSCOM, the IAEA should 
be directed to provide UNMOVIC and the College of Commissioners with a 
complete inventory of all nuclear-bomb components, designs and models 
for which there is documentation or intelligence but which the agency 
cannot account for. The Security Council should insist that all 
elements listed in this inventory be produced by Iraq or otherwise 
accounted for prior to any consideration of ``closing the nuclear 
file.'' This was UNSCOM's approach with regard to missiles and chemical 
and biological weapons, and it should be the IAEA's approach to nuclear 
weapons, as well. The burden of proof should be on Iraq, not on the 
inspectors. The United States should continue to oppose closing the 
Iraqi nuclear file and the lifting of economic sanctions until all 
outstanding questions on Iraq's nuclear-weapons program are resolved.
    UNMOVIC and the Security Council should make sure that the IAEA 
diligently and completely pursues all unanswered questions. If the 
Agency proves unable to do so, responsibility for nuclear inspections 
should be transferred to the Security Council, which has the 
enforcement authority needed to follow through.
    Finally, Dr. Blix should now pledge he will conduct business 
differently than he did at the IAEA, and will not allow the absence of 
evidence to be viewed as evidence of absence of weapons of mass 
destruction in Iraq. This is particularly important given the provision 
(paragraph 33) of UNSCR 1284, expressing the Security Council's 
intention to lift economic sanctions if the heads of both UNMOVIC and 
the IAEA certify that Iraq ``has cooperated in all respects'' with the 
two agencies for a period of 120 days after monitoring and verification 
programs have been reestablished.

    [Attachments.]

                             [Attachment 1]

           Iraq's Nuclear Weapons Program: Unresolved Issues

         Steven Dolley--Nuclear Control Institute--May 12, 1998

  Supporting documentation, including citations from IAEA inspection 
   reports, is located on the NCI website at http://www.nci.org/nci/
                              iraq511.htm

Weapons Design

  <bullet> Many important weapons-design drawings and reports are still 
        missing.
  <bullet> The status of R&D on advanced weapons designs (boosted, 
        thermonuclear) remains unclear.
  <bullet> Documentation of research on explosive lenses remains 
        incomplete. Some key design drawings are still missing.
  <bullet> The extent of outside assistance offered to or received by 
        Iraq, including a reported offer of an actual nuclear weapon 
        design, remains unresolved.

Centrifuge R&D

  <bullet> Almost all centrifuge design documents and drawings are 
        missing.
  <bullet> Information is incomplete and drawings are missing related 
        to Iraq's super-critical centritge R&D program.
  <bullet> Significant inconsistencies exist between Iraqi and foreign 
        testimony on the amount of foreign assistance and components 
        provided to the centrifuge program.

Missing Components and Equipment

  <bullet> Not all ``Group 4'' nuclear weaponization equipment has been 
        located or accounted for.
  <bullet> Some uranium-conversion components remain unaccounted for.
  <bullet> A plutonium-beryllium neutron source, potentially useful as 
        a neutron initiator for a nuclear bomb, is still missing.

Uranium Stocks and Enrichment Program

  <bullet> Large stockpiles of natural uranium remain in Iraq.
  <bullet> Historical uranium MUF's for Iraq's uranium conversion and 
        enrichment are large. Over three tons of uranium remains 
        unaccounted for.
  <bullet> The credibility of low (20%) historical capacity for EMTS 
        (calutron) uranium enrichment reported by Iraq is open to 
        question.

Iraqi Reporting to the IAEA

  <bullet> The completeness of Iraq's FFCD (Full, Final and Complete 
        Declaration) is questionable. No information is publicly 
        available on this report.
  <bullet> The completeness of Iraq's report on the technical 
        achievements of its weaponization program is unknown. No 
        information is publicly available on this report.
  <bullet> Many documents seized by Iraq during the ``parking lot 
        stand-off'' in September 1991 were never returned to the IAEA 
        and remain unaccounted for, including key centrifuge documents.
  <bullet> It is not publicly known whether all the documents from the 
        Haider House cache have been translated and fully analyzed.

Iraqi Concealment Activities

  <bullet> Iraq now officially denies that a governmental committee to 
        minimize impact of NPT violations ever existed, even though 
        Iraq itself first revealed the committee to the IAEA.
  <bullet> Reports on Iraqi nuclear team's interactions with IAEA 
        inspectors are incomplete.
  <bullet> It is not publicly known whether Iraq's report on their 
        post-war concealment activities has been completed and 
        reviewed.
  <bullet> Iraq has not enacted a criminal law to punish violations of 
        UN resolutions.

Post-war Nuclear Program Activities

  <bullet> Conversion of former weapons program facilities has not been 
        fully documented.
  <bullet> Documentation of ongoing activities at former weapons 
        facilities remains incomplete.
  <bullet> Information is inconsistent on the date of termination of 
        weapons activity at the Al Atheer weapons facility.
  <bullet> No evidence of any Iraqi decree to halt the nuclear weapons 
        program.
  <bullet> Extent of Iraq's post-war foreign procurement network has 
        not been documented.

                                 ______
                                 

                             [Attachment 2]

     NCI Warns That Saddam May Have Active Nuclear Weapons Program

    Washington.--The Nuclear Control Institute (NCI) warned today that 
contrary to the widespread belief that Iraq's nuclear weapons program 
no longer poses an immediate threat, evidence collected by United 
Nations inspectors in fact points to an active, advanced program that 
poses a clear and present danger.
    ``Any diplomatic solution to avert another war in Iraq should not 
bargain away nuclear inspections as the price of winning Saddam's 
cooperation with UN inspections of suspected ballistic missile, 
chemical and biological weapons sites,'' said NCI President Paul 
Leventhal. France, Russia and China have pressed such a proposal.
    ``Nor should UN inspectors from the Vienna-based International 
Atomic Energy Agency (IAEA) be permitted to curtail their 
investigations because of `diminishing returns' and switch to less 
aggressive monitoring efforts,'' Leventhal said. ``Instead of cutting 
back, the IAEA should be re-doubling its efforts.''
    In 1990, just prior to the Gulf War, NCI had warned that Iraq might 
be only weeks away from having a bomb because it could divert bomb-
grade uranium fuel from its civilian research reactors between visits 
by IAEA inspectors. NCI's warning went unheeded at the time, only to be 
proven correct when Saddam's son-in-law defected in 1995 and disclosed 
he had ordered a ``crash program'' to produce a bomb by this means 
until allied bombing halted the effort.
    ``It should be remembered,'' Leventhal said, ``that in 1990 Saddam 
successfully engaged in a grand deception to draw the world's attention 
away from his nuclear program by drawing attention to his chemical and 
biological weapons. After the Gulf War, a vast Iraqi Manhattan Project 
was unearthed, and most of it has been destroyed. Today, we must be 
concerned that Saddam is again trying to divert attention from a small 
but deadly remnant of his nuclear program--the actual weapons 
components that never have been found and his scientists who remain in 
place.''
    In support of NCI's current concerns about Iraq's nuclear threat, 
the Institute held a press conference to release a report, ``Iraq and 
the Bomb: The Nuclear Threat Continues,'' prepared by NCI Research 
Director Steven Dolley. The NCI report finds that the IAEA's own 
detailed reporting to the UN Security Council should raise concerns 
that Iraqi nuclear scientists have continued to advance their earlier 
work on nuclear weapons and to lie about their activities to UN 
inspectors.
    The NCI report cites IAEA documents to show that Iraq's nuclear 
scientists are still in place, that key nuclear-weapon components 
remain unaccounted for, that major gaps still exist in the information 
Iraq has provided about its post-war nuclear weapon design work, and 
that the clandestine procurement program for nuclear equipment and 
materials has continued.
    According to the report, ``After examining the evidence, it is 
prudent to assume that there is a small, well-concealed nuclear weapons 
program in Iraq, possibly with fully developed components suitable for 
rapid assembly into one or more workable weapons if the requisite 
fissile material (highly enriched uranium or plutonium) were acquired. 
If Iraq has been able to smuggle in the needed material from, say, 
Russia or another former Soviet Republic without being detected, the 
nuclear threat could be quite real and even eclipse the CBW threat.''
    The report also noted major gaps in information available to UN 
inspectors about Iraq's program to enrich uranium to weapons grade with 
centrifuges, and concluded it was possible, albeit less likely, that 
Iraq has succeeded in concealing a small plant for producing its own 
bomb material.
    ``The danger of Iraq having nuclear weapons or being very close to 
having them is still quite real,'' Leventhal said. ``Nuclear weapons 
remains Saddam's number one prize. Whether war or diplomacy is used to 
solve the crisis over inspections, the United States and its allies 
must make elimination Saddam's nuclear capability our number one 
strategic objective.''
    The NCI report, and the most recent IAEA documents, can be 
downloaded from NCI's website: http://www.nci.org/nci/sadb.htm

                                 ______
                                 

            Iraq and the Bomb: the Nuclear Threat Continues

     (Steven Dolley, Research Director, Nuclear Control Institute)

                           February 19, 1998

    nuclear inspections in iraq: time to ``close the nuclear file''?
    As the United States prepares to resume bombing of Iraq because of 
Iraq's continuing ballistic-missile and chemical-biological weapons 
(CBW) programs, pressure is building to close the book on the United 
Nation's investigation of Iraq's nuclear weapons program. This pressure 
was catalyzed by the International Atomic Energy Agency's (IAEA's) 
October 1997 report to the Security Council, which concluded that there 
were no remaining ``significant discrepancies'' between the IAEA Action 
Team's findings during nearly seven years of inspections and Iraq's 
most recent ``full, final and complete declaration'' of its nuclear 
program.
    At the same time, IAEA stated that it could not guarantee the 
completeness of this declaration, because ``[s]ome uncertainty is 
inevitable in any country-wide technical verification process which 
aims to prove the absence of readily concealable objects or activities. 
The extent to which such uncertainty is acceptable is a policy 
judgment.'' \1\ [emphasis added]
---------------------------------------------------------------------------
    \1\ IAEA, Fourth Consolidated Report of the Director General of the 
International Atomic Energy Agency under Paragraph 16 of Security 
Council Resolution 1051 (1996), October 8, 1997 [hereafter ``S/1997/
779''], pp. 21-22.
---------------------------------------------------------------------------
    IAEA reported that, though it was not excluding the option of 
further inspections if new information were received, IAEA's 
``activities regarding the investigations of Iraq's clandestine nuclear 
programme have reached a point of diminishing returns and the IAEA is 
focusing most of its resources on the implementation and technical 
strengthening of its plan for the ongoing monitoring and verification 
of Iraq's compliance with its obligations under the relevant Security 
Council resolutions.'' \2\
---------------------------------------------------------------------------
    \2\ S/1997/779, p. 22.
---------------------------------------------------------------------------
    Based on these IAEA statements, Russia, China, and France are 
urging the U.N. Special Commission on Iraq (UNSCOM) and the IAEA to 
``close the nuclear file'' on the investigation of Iraq's 
``historical'' nuclear weapons program.\3\ Under the terms of 
Resolution 687, the cease-fire resolution ending the Gulf War, IAEA is 
charged, ``through the Secretary-General, with the assistance and 
cooperation of the Special Commission,'' with the mission of conducting 
``immediate on-site inspection of Iraq's nuclear capabilities based on 
Iraq's declarations and the designation of any additional locations by 
the Special Commission . . .'' \4\ In practice, UNSCOM has taken 
responsibility for assessing intelligence and other information 
pointing to new locations for inspections, while IAEA has carried out 
those inspections and monitored declared facilities and equipment.
---------------------------------------------------------------------------
    \3\ John Goshko, ``3 Powers at U.N. Disagree on Iraq's Nuclear 
Status,'' Washington Post, January 23, 1998. p. A34.
    \4\ U.N. Security Council Resolution 687 (adopted April 8, 1991), 
paragraph 13.
---------------------------------------------------------------------------
    Russia and China now want UNSCOM to certify, as a first step toward 
lifting international sanctions, that Iraq is in compliance with 
Resolution 687's requirement that all elements of Iraq's nuclear-
weapons program have been removed, destroyed or rendered harmless. The 
IAEA mission then would shift to ongoing monitoring and verification 
(``OMV''), relying primarily on periodic routine inspections of 
declared facilities and equipment, remote monitoring of Iraqi 
facilities, and environmental sampling designed to detect prohibited 
activities, such as uranium enrichment.
    However, after a January 22 briefing by UNSCOM head Richard Butler, 
United States Ambassador to the United Nations Bill Richardson stated 
that ``We don't see any reason to close the nuclear file because there 
are significant gaps in our judgment. There are still patterns of 
concealment, insufficient information provided by Iraq and generally a 
lack of cooperation.'' \5\ Nonetheless, most reporting and analysis of 
the current Iraqi threat focuses on CBW and missiles.
---------------------------------------------------------------------------
    \5\ Quoted in Robert Reid ``U.N.-Iraq,'' AP wire service story, 
January 22, 1998.
---------------------------------------------------------------------------
    The popular perception being conveyed in the news media is that the 
Iraqi nuclear threat is a thing of the past.\6\ Although the missile 
and CBW threats are quite real, there is no basis to conclude that the 
nuclear threat is any less urgent, given the likelihood of a small, 
concealed weaponization program that could be rapidly activated by the 
acquisition of relatively small amounts of fissile materials--highly 
enriched uranium or plutonium.
---------------------------------------------------------------------------
    \6\ For example, a recent article cited unnamed ``Western 
analysts'' to support the claim that Iraq's ``nuclear program has been 
proved to be dismantled.'' Daniel Pearl, ``A Primer on the Weapons-
Inspection Snag in Iraq,'' Wall Street Journal, February 11, 1998, p. 
A19. In another article, a chart on ``Deadly Technologies,'' detailing 
``verifiable weapon capabilities in selected Mideast countries,'' lists 
Iraq in the chemical, biological, and advanced missile technology 
categories, but not in the ``developing or existing nuclear'' category. 
Neil King, ``Iraq is One of Many With a Doomsday Arsenal,'' Wall Street 
Journal, February 18, 1998, p. A14.
---------------------------------------------------------------------------
    It is difficult to reconcile IAEA's desire to move from 
investigative inspections to a long-term monitoring posture with its 
conclusion in the same report that several sets of important issues 
regarding the Iraqi nuclear-weapons program remain unresolved, 
including:

  <bullet> the extent of Iraq's post-war nuclear procurement system;
  <bullet> the sources and nature of outside assistance;
  <bullet> a written report promised by Iraq but not yet provided to 
        the IAEA, summarizing progress made toward acquiring the bomb;
  <bullet> the true role of General Kamel, Saddam's son-in-law and 
        former head of Iraq's nuclear program, who the Iraqis claim 
        acted alone to conceal a large cache of nuclear-program 
        documentation at his farmhouse, prior to his defection in 1995; 
        and
  <bullet> the purpose of an Iraqi government committee established 
        after the Gulf War to ``reduce the effect of NPT violation to 
        the minimum.'' \7\
---------------------------------------------------------------------------
    \7\ S/1997/779, p. 20, paragraph 75.

An IAEA technical team that visited Iraq in December 1997 failed to 
achieve satisfactory resolution of any of these issues, nor did UNSCOM 
head Richard Butler during his visit to Baghdad in January 1998.\8\
---------------------------------------------------------------------------
    \8\ IAEA, ``Appendix: Report on the International Atomic Energy 
Agency technical team visit to Iraq, 19 to 21 December 1997,'' S/1998/
38, January 15, 1998; UNSCOM, ``Report on the Visit to Baghdad from 19 
January to 21 January 1998 by the Executive Chairman of the Special 
Commission Established by the Security Council under Paragraph 9(b)(I) 
of Security Council Resolution 687 (1991),'' S/1998/58, January 22, 
1998.
---------------------------------------------------------------------------
    Also troubling was the public confirmation in June 1997 by outgoing 
UNSCOM head Rolf Ekeus that Iraq had produced nuclear-weapon components 
and that they have never been found; nor has the claimed destruction of 
them ever been verified.

        Iraq produced components, so to say, elements for the nuclear 
        warhead. Where are the remnants of that? They can't evaporate . 
        . . We feel that Iraq is still trying to protect them. And that 
        is part of our . . . efforts . . .
        to find these remnants. They may not exist. We know that they 
        have existed. But we doubt they have been destroyed. But we are 
        searching.\9\
---------------------------------------------------------------------------
    \9\ Rolf Ekeus, statement at the Carnegie Endowment for 
International Peace, June 10, 1997, quoted in ``Could Iraq Build an 
Atomic Bomb Today If It Were Able to Buy Fissile Material?'', Nuclear 
Control Institute. November 26, 1997.

    This paper assesses what has been learned about Iraq's nuclear-
weapons program over the course of nearly seven years of IAEA 
inspections, considers the outstanding questions that remain to be 
answered, and evaluates the danger that Iraq retains a weaponization 
program and could produce nuclear weapons in short order.
          what we do know about iraq's nuclear weapons program
1. Iraq produced a workable design for a nuclear weapon
    Iraq claims to have begun its weaponization research in 1987, and 
by the start of the Gulf War had completed a fifth revision of a 
detailed design for an implosion-type bomb fueled by highly enriched 
uranium (HEU). In September 1991, IAEA inspectors seized Iraqi 
weaponization documents, including a 1990 progress report on bomb-
design work by Group 4 of ``PC-3,'' Iraq's code name for the 
weaponization division of its Manhattan Project.
    A U.N. official who examined the Iraqi design work in 1992 said he 
was sure that a bomb built to their specifications would work.\10\ 
Weaponization work proceeded well beyond the design stage. Iraq was 
developing a 32-point electronic firing system to trigger the bomb. 
Extensive tests of high-explosive lenses were carried out, some of them 
using depleted uranium as a non-fissile dummy core.\11\ Iraqi 
scientists also did test castings of small-scale natural uranium 
spheres as research toward developing the bomb's spherical, highly 
enriched uranium core. Iraqi nuclear scientists claimed they dissolved 
the products of these experiments in acid to prevent their examination 
by inspectors.\12\
---------------------------------------------------------------------------
    \10\ Quoted in Gary Milhollin, ``Building Saddam Hussein's Bomb,'' 
New York Times Magazine, March 8, 1992, p. 33.
    \11\ Glenn Zorpette, ``How Iraq Reverse-Engineered the Bomb,'' IEEE 
Spectrum, April 1992, p. 23.
    \12\ S/1997/779, p. 30.
---------------------------------------------------------------------------
    David Kay, former head of the IAEA Action Team in Iraq, concluded 
that such non-nuclear experimentation might eliminate the need for a 
full-scale nuclear explosive test.

        The Iraqis had already validated their design work by testing 
        various weapons components. . . . As long as you are not 
        interested in developing the latest cutting edge multi-stage 
        fusion device, it is no longer necessary to test weapons by 
        taking a bomb out and setting it off. Weapons are tested at the 
        component level, with inert material, and with computers.\13\
---------------------------------------------------------------------------
    \13\ David Kay, ``Iraqi Inspections: Lessons Learned,'' Eye on 
Supply, Winter 1993, p. 89.

In fact, Kay found that many of the computer codes used by the Iraqis 
in their weapon-design work were publicly available and ``much, much 
better'' than codes used by U.S. and British weapons designers in the 
1960s.\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    Another, simpler weapon-design option--a gun-type assembly--was 
also available to Iraq, though it was not the main focus of their 
research. The gun design fires one piece of HEU into another to create 
a critical mass. According to Kay, it ``is an easy design that almost 
anyone could do with a little thought and reading . . .'' Kay concluded 
that the Iraqis already knew enough to make an effective gun-type 
weapon, and even possessed tungsten-carbide piping suitable for 
manufacture of such a bomb.\15\ This design is so straightforward that 
Manhattan Project scientists did not test it before it was used to 
destroy Hiroshima.\16\
---------------------------------------------------------------------------
    \15\ David Kay, quoted in Zorpette, 1992, op cit., p. 65.
    \16\ The July 1945 ``Trinity'' test at Los Alamos used the more 
complicated implosion design, and the fissile material was plutonium. 
This design was used in the ``Fat Man'' bomb that destroyed Nagasaki.
---------------------------------------------------------------------------
    A report prepared by five former U.S. nuclear weapons designers 
concluded that a technically skilled team of terrorists could construct 
a crude but workable nuclear bomb if they acquired access to plutonium 
or HEU. The report estimated that the team's preparation, prior to its 
acquisition of fissile material, would require ``a considerable number 
of weeks (or, more probably, months) . . .,'' \17\ casting significant 
doubt on estimates that Iraq was several years away from completion of 
a workable nuclear weapon design.
---------------------------------------------------------------------------
    \17\ J. Carson Mark, et al., ``Can Terrorists Build Nuclear 
Weapons?,'' in Preventing Nuclear Terrorism, Report and Papers of the 
International Task Force on Prevention of Nuclear Terrorism, Ed. Paul 
Leventhal & Yonah Alexander, 1987, p. 59.
---------------------------------------------------------------------------
    Iraq had also made significant progress on the fabrication of key 
nuclear-weapon components. IAEA inspectors discovered that Iraq had 
fabricated high-explosive lenses and the molds to manufacture them, 
electronic firing systems, test castings of uranium bomb cores, and 
various neutron-initiator devices.\18\ With the exception of a few 
crude neutron initiators, no weapons components have been located.
---------------------------------------------------------------------------
    \18\ S/1997/779, pp. 56-62.
---------------------------------------------------------------------------
2. Iraq began to divert its safeguarded HEU to a nuclear-weapons 
        ``crash program''
    In August 1995, a strange series of events led to a major 
breakthrough in documenting Iraq's weapons of mass destruction. General 
Hussein Kamel, a son-in-law of Saddam Hussein and former head of the 
nuclear-weapons program, defected and was debriefed by the United 
Nations. He revealed many secrets of the Iraqi nuclear program, 
including previously unknown orders he had issued to prepare to divert 
Iraq's safeguarded HEU research reactor fuel into a crash weaponization 
program in late 1990. Kamel later returned to Iraq and was promptly 
murdered.
    U.N. inspectors were taken by Iraqi officials to General Kamel's 
farmhouse, where they were shown an enormous cache of documentation 
related to Iraq's weapons of mass destruction program. Iraqi officials 
insisted that General Kamel had been solely responsible for concealing 
this and other information from UNSCOM and the IAEA. Since 1995, the 
Iraqis have repeatedly characterized Kamel as the rogue head of a 
covert weapons program, the details of which he had concealed from the 
Iraqi leadership.
    During two IAEA inspections in late 1995, Iraqi officials revealed 
further details of the crash program, which had been established in 
August 1990. The Iraqis planned to dissolve their research reactor fuel 
elements at a secret facility at the Tuwaitha site in order to separate 
the weapons-usable HEU. In January 1991, the facility was complete. 
Iraq later acknowledged that the technicians had begun cutting off the 
ends of fuel elements and were awaiting authorization from General 
Kamel to commence HEU separation when Gulf War bombing seriously 
damaged the facility. The HEU recovery equipment was covertly moved to 
another, secret nuclear facility at Tarmiya.
    Significantly, the IAEA found that the most recent documents 
surrendered by Iraq on the crash program were dated June 1991, which 
``might indicate that the `crash programme' was not abandoned until it 
became evident to Iraq that the reactor fuel was to be removed from the 
country (the first shipment took place in November 1991).'' \19\
---------------------------------------------------------------------------
    \19\ S/1997/779, p. 53.
---------------------------------------------------------------------------
    In late 1990, the Nuclear Control Institute had warned of the 
possibility of a crash Iraqi program to divert its safeguarded civilian 
nuclear fuel for use in weapons--ironically, about three months after 
the Iraqi leadership decided to proceed down this path.\20\ Concerns 
about Iraq's safeguarded HEU stocks were dismissed at the time by many 
analysts, who estimated that Iraq was up to 15 years away from the 
bomb.\21\ In a study prepared for NCI in May 1991, Dr. J. Carson Mark, 
former head of the theoretical division at the Los Alamos National 
Laboratory concluded that, if Iraq had used only its declared, 
safeguarded HEU, fabrication of two ``metal implosion systems'' each 
with a yield ``in the kiloton range would probably be possible.'' \22\
---------------------------------------------------------------------------
    \20\ Paul Leventhal, ``Is Iraq Evading the Nuclear Police?,'' New 
York Times, December 28, 1990, op-ed page. See also ``Present 
Assessments Understate Iraq's Nuclear Weapons Potential,'' Statement of 
Paul Leventhal, Nuclear Control Institute, presented to the Senate 
Armed Services Committee. November 30, 1990.
    \21\ ``How Long to Saddam's Bomb? Some Experts Say . . .,'' 
Proliferation Watch, Volume 1, Number 5, November/December 1990, p. 19. 
A chart shows twenty different estimates of how long it would take Iraq 
to acquire a ``nuclear device'' or ``nuclear weapon.'' The estimate by 
NCI of less than six months was the shortest.
    The Bush Administration attempted to walk a fine line on the issue 
of Iraqi nuclear weapons. On the one hand, they tried to drum up 
support for Operation Desert Storm by emphasizing Iraq's nuclear-
weapons aspirations. However, they did not want to undercut domestic 
support for sending U.S. forces into harm's way by suggesting that Iraq 
might be able to attack these troops with nuclear bombs. As a result, 
administration officials downplayed the risk of a ``crude bomb'' made 
from diverted HEU, but contended that the risk of Iraq acquiring 
nuclear weapons within one to five years was significant. Patrick 
Tyler, ``Specialists See Iraq Unlikely to Build A-Bomb in Near 
Future,'' Washington Post, November 8, 1990, p. A62.
    \22\ Dr. J. Carson Mark, ``Some Remarks on Iraq's Possible Nuclear 
Weapon Capability in Light of Some of the Known Facts Concerning 
Nuclear Weapons,'' Nuclear Control Institute, May 16, 1991, p. 27.
---------------------------------------------------------------------------
    Prior to the Gulf War, the IAEA was particularly cavalier about the 
Iraqi HEU risk. In August 1990, only weeks after the invasion of 
Kuwait, IAEA safeguards director Jon Jennekens praised Iraq's 
cooperation with IAEA as ``exemplary,'' and said ``the IAEA is not 
concerned that, if Iraq were to be put under great military or 
diplomatic pressure, the Iraqi leadership would seize its store of HEU 
and build a nuclear device. `Such a calculation doesn't make practical 
sense,' Jennekens said.'' Jennekens extolled Iraq's nuclear experts, 
who, he said, ``have made every effort to demonstrate that Iraq is a 
solid citizen'' under the NPT.\23\
---------------------------------------------------------------------------
    \23\ Quoted in Mark Hibbs & Ann Maclachlan, ``No Bomb-Quantity of 
HEU in Iraq, IAEA Safeguards Report Indicates,'' Nuclear Fuel, August 
20, 1990, p. 8.
---------------------------------------------------------------------------
    Even as late as 1993, IAEA Director-General Hans Blix made a point 
of emphasizing that

        the Iraqis never touched the nuclear highly-enriched uranium 
        which was under our safeguards, which in some ways indicate 
        also that the safeguard had an effect. Had they touched 
        anything--(inaudible)--immediately discovered, and these would 
        have been reported, and they would have evoked a governmental 
        opinion and governmental action. They didn't want to do that. 
        So they never touched the material which was under safeguard . 
        . .\24\
---------------------------------------------------------------------------
    \24\ Hans Blix, press conference at the National Press Club, 
Washington, DC, May 20, 1993, transcript, p. 8.

    NCI asked Blix to retract his statement because Iraq had been found 
to have secretly moved the HEU in January 1991 and not reported its 
location to IAEA for several months, in violation of its safeguards 
agreement. Moreover, the Iraqis had cut the ends off some HEU fuel 
elements--in preparation, as Iraq later admitted,\25\ for HEU recovery 
operations. The IAEA refused to back down on this point until after 
General Kamel's 1995 revelation of the crash program.
---------------------------------------------------------------------------
    \25\ S/1997/779, p. 50.
---------------------------------------------------------------------------
    At the time that the crash program was discovered, Iraq claimed 
that it had planned to build a 50-centrifuge cascade to re-enrich the 
80% enriched HEU of Russian origin, but had barely begun construction 
by January 1991. The IAEA, in public statements, used this claim to 
support its argument that the crash program would not have achieved its 
goals by April 1991, when the next IAEA inspection had been scheduled 
to take place.\26\
---------------------------------------------------------------------------
    \26\ IAEA Statement, ``Expanded Response to the Points Raised in 
the IHT Article `Who Says Iraq Isn't Making a Bomb,' Leventhal and 
Lyman, 2 November 1995,'' November 16, 1995. This statement was 
apparently written by Gary Dillon, now the head of the IAEA Action 
Team.
---------------------------------------------------------------------------
    However, Iraq's claim was puzzling because there was sufficient HEU 
in the fresh 80% enriched and lightly irradiated 93% enriched fuel for 
a single weapon, and Iraq would have gained very little by further 
enriching the 13.7 kg of fresh 80% enriched fuel. Dr. Edwin Lyman, 
NCI's scientific director, analyzed the crash program and calculated 
that re-enrichment would not have been necessary at all, because ``23.3 
kg of 93% equivalent HEU would be available with relatively simple 
chemical processing . . .'' \27\
---------------------------------------------------------------------------
    \27\ Dr. Edwin S. Lyman, ``Iraq: How Close to a Nuclear Weapon?,'' 
Nuclear Control Institute, November 14, 1995, p. 4. See also Paul 
Leventhal and Edwin Lyman, ``Who Says Iraq Isn't Making a Bomb?,'' 
International Herald Tribune, November 2, 1995, op-ed page.
---------------------------------------------------------------------------
    The IAEA now appears to agree that re-enrichment of the fresh 80% 
enriched fuel would not have been necessary for the crash program to 
succeed, stating in the October 1997 report that Iraq ``more 
logically'' would have re-enriched only the HEU from the irradiated 80% 
enriched and 36% enriched fuel, not that recovered from the fresh fuel; 
and that re-enrichment would have reduced the time required to produce 
``a second weapon,'' suggesting that sufficient HEU for a first weapon 
could have been recovered without re-enrichment.\28\ Once direct-use 
material such as HEU is available, the ``conversion time'' required to 
make it into nuclear-weapons components is estimated by IAEA to be on 
the ``order of weeks (1-3)'' in the case of oxide, and on the ``order 
of days (7-10)'' in the case of metal.\29\
---------------------------------------------------------------------------
    \28\ S/1997/779, p. 3.
    \29\ International Atomic Energy Agency, IAEA Safeguards Glossary: 
1987 Edition, 1987, p. 24, Table II.
---------------------------------------------------------------------------
3. Iraq's clandestine nuclear procurement network continued to operate 
        after the Gulf War
    Iraq continues to import dual-use technologies with nuclear 
relevance. As of April 1997, according to IAEA,

        Iraq is still able to import technological equipment, recent 
        examples of which include a plasma spray machine, a general 
        purpose CNC milling machine and personal computer components 
        having 1996-generation microprocessors. These items were 
        imported through trans-shipment, via neighbouring countries, 
        thus avoiding the identification of Iraq as the end-user.\30\
---------------------------------------------------------------------------
    \30\ IAEA, Third Consolidated Report of the Director General of the 
International Atomic Energy Agency under Paragraph 16 of U.N.SC 
Resolution 1051 (1996), S/1997/297, April 11, 1997, p. 4.

    Resolution 687 does not prohibit dual-use technology imports by 
Iraq, provided they are declared and subject to monitoring by IAEA. The 
IAEA has found that Iraq continues to engage in deceptive procurement 
practices, apparently in violation of the laws of various exporting 
nations, but the IAEA does not name the nations in the report.
    Iraq promised IAEA that it would provide a written description of 
its post-war procurement system, but thus far has failed to do so.\31\ 
In a November 24 briefing for the Security Council, IAEA downplays the 
matter, reporting that ``[t]he information so far provided by Iraq is 
incomplete, but the provision of the missing information should be a 
simple administrative matter. This is not a matter of major 
significance.'' \32\
---------------------------------------------------------------------------
    \31\ S/1997/779, p. 20.
    \32\ IAEA, ``Notes of the International Atomic Energy Agency 
Briefing to the Security Council on 24 November 1997,'' S/1997/950. 
December 3, 1997, p. 6.
---------------------------------------------------------------------------
    Iraq received at least some outside offers of nuclear weapons 
assistance after the end of the Gulf War. The material obtained by IAEA 
at General Kamel's farmhouse documents the participation of Mukhabarat, 
the Iraqi intelligence service, in international procurement 
operations. The Iraqis initially denied, and then attempted to 
minimize, Mukhabarat's role in procurement.
    IAEA reported that ``[t]he Mukhabarat files also contained some 
information regarding unsolicited offers of assistance to Iraq's 
clandestine nuclear programme that were judged [by the Iraqis] to 
warrant further investigation.'' IAEA requested information on ``all 
significant offers of assistance to its clandestine nuclear 
programme.'' A series of lame excuses followed: ``Subsequent 
discussions on this topic were usually met with statements . . . that 
the person responsible for that file was various `on vacation' or `on 
sick leave' or otherwise unavailable. When the matter was addressed 
during the July 1997 visit, by the technical team, the team was advised 
that, for no apparent reasons, the file had been destroyed.''
    Eventually Iraq provided IAEA with correspondence indicating ``that 
the Mukhabarat were confident that the source of the information [the 
unsolicited offer of assistance] was valid and worth pursuing'' and 
that the Iraqi Atomic Energy Commission (IAEC) requested that 
Mukhabarat ``endeavour to obtain samples from the source.'' \33\ The 
IAEA report does not say whether the correspondence or other evidence 
indicates what these ``samples'' were, or whether they were obtained by 
Mukhabarat from the source.
---------------------------------------------------------------------------
    \33\ S/1997/950, pp. 4-5. The IAEA report does not give the dates 
of this exchange of correspondence, nor does it specify whether the 
exchange occurred before or after the Gulf War.
---------------------------------------------------------------------------
    An even more troubling incident that occurred in October 1990 was 
discussed during the IAEA technical team's visit to Iraq in late 
December 1997. A ``foreign national'' (name and nationality not 
revealed in the IAEA report) offered to provide ``nuclear weapon design 
drawings'' as well as technical and procurement assistance. The Iraqis 
claimed that they did not follow up on this or any other offers of 
outside assistance after the Gulf War because they feared sting 
operations. IAEA said it had found no evidence to contradict these 
claims or to provide a basis for further investigation of them.\34\
---------------------------------------------------------------------------
    \34\ IAEA ``Report on the International Atomic Energy Agency 
Technical Team Visit to Iraq, 19 to 21 December 1997,'' S/1998/38, 
January 15, 1998, p. 4 & p. 7.
---------------------------------------------------------------------------
4. Iraq had made progress on a ballistic-missile delivery system for a 
        nuclear warhead
    The Iraqis planned to deliver their nuclear weapon by means of a 
Scud missile modified to increase its range and payload. Former UNSCOM 
head Rolf Ekeus pointed out that Iraq's long-range missile program ``is 
a fundamentally nuclear program . . . definitely not for conventional 
explosives,'' with the goal of using missiles to deliver chemical and 
biological weapons as ``secondary'' to the nuclear mission.\35\ But 
delivery-system R&D apparently lagged behind warhead-design work, and 
it is not clear that the main barrier of payload weight had been 
overcome by the time of the Gulf War.\36\ Since the war, Iraqi long-
range missile R&D, and covert procurement of missile parts has 
continued, in violation of Resolution 687.\37\
---------------------------------------------------------------------------
    \35\ Rolf Ekeus, quoted in ``Could Iraq Build an Atomic Bomb Today 
. . .,'' op cit.
    \36\ During the crash program, Iraq concluded that the weight of 
the nuclear payload had to be reduced to less than one ton if it was to 
be delivered successfully by the Al Abid satellite launch rocket then 
under development. S/1997/779. p. 60.
    \37\ Jeffrey Smith, ``Iraq Buying Missile Parts Covertly,'' 
Washington Post, October 14, 1995, p. A1; ``Jordan Seizes Missile Parts 
Meant for Shipment to Iraq,'' Washington Post, December 8, 1995, p. 
A44.
---------------------------------------------------------------------------
    It is important to note that nuclear weapons can be delivered by 
numerous means, with missiles being the most technically difficult 
modality. A study by the U.S. Office of Technology Assessment concluded 
that

        Delivery vehicles may be based on very simple or very complex 
        technologies. Under the appropriate circumstances, for 
        instance, trucks, small boats, civil aircraft, larger cargo 
        planes, or ships could be used to deliver or threaten to 
        deliver at least a few weapons to nearby or more distant 
        targets. Any organization that can smuggle large quantities of 
        illegal drugs could probably also deliver weapons of mass 
        destruction via similar means, and the source of the delivery 
        might not be known. Such low technology means might be chosen 
        even if higher technology alternatives existed.\38\
---------------------------------------------------------------------------
    \38\ U.S. Office of Technology Assessment (OTA), Technologies 
Underlying Weapons of Mass Destruction, December 1993, p. 197.

    A recent review of Iraq's nuclear program suggests that Hussein 
``might have considered trying to get such a [nuclear] bomb to Israel, 
possibly by boat, for detonation in the roadstead of Haifa Harbour. 
This is a premise that is circulating in present-day Beirut and is 
thought to have originally been debated by Iranian Pasdaran 
terrorists.'' \39\
---------------------------------------------------------------------------
    \39\ Al J. Ventor, ``How Saddam Almost Built His Bomb,'' Jane's 
Intelligence Review, December 1997.
---------------------------------------------------------------------------
        what we don't know about iraq's nuclear weapons program
1. Weapons design documentation
    In June 1997, Rolf Ekeus, then the chief executive officer of 
UNSCOM, stated that

        The problem is maybe in that we [UNSCOM] by nature are 
        suspicious concerning the weapon design. It is clear that the 
        Iraqi specialists managed to acquire a considerable 
        understanding of weapons design, warhead design. And there are 
        those of our specialists inside the Commission who insist that 
        there we have a major problem--namely that if Iraq would one 
        way or the other manage to buy somewhere outside especially HEU 
        in enough quantities it would be possible for Iraq to work to 
        create a viable weapon. I'm now talking implosion technology. . 
        . .\40\
---------------------------------------------------------------------------
    \40\ Rolf Ekeus, quoted in ``Could Iraq Build an Atomic Bomb Today 
. . .'', op cit.

    The IAEA's ability to put together the pieces of the Iraqi nuclear 
puzzle is hampered by Iraq's refusal to provide IAEA with a 
comprehensive report on progress achieved in the nuclear weapons 
program. According to the IAEA, only one ``significant weaponization 
report [was] directly obtained and retained in the custody [of] an IAEA 
inspection team,'' and much documentation on weaponization is still 
missing. For example, an Iraqi computer print-out of former PC-3 
equipment doesn't include listings of Group 4 weaponization, or 
centrifuge program, equipment and materials.
    The Iraqis also make the dubious claim that they cannot locate any 
additional documents on weaponization--for instance, the main register 
of nuclear-weapon design drawings.\41\ According to David Kay, ``it's 
like your dog chewed your homework excuse. This doesn't happen in a 
nuclear weapons program. It tells you they're still trying to hide 
something.'' Kay emphasized that locating and analyzing the final Iraqi 
weapon design is critical to discovering how close Iraq got to the 
bomb.\42\
---------------------------------------------------------------------------
    \41\ S/1997/779, pp. 8-10.
    \42\ David Kay, quoted in ``Investigation shows that it's possible 
that Saddam Hussein is close to having a nuclear weapon,'' NBC Nightly 
News, December 4, 1997, NBC News Transcripts.
---------------------------------------------------------------------------
2. Nuclear weapons components
    As noted above, no Iraqi nuclear-weapon components (except basic 
neutron initiators) have ever been located. This does not mean that no 
such components were ever fabricated. Iraq has admitted that it 
fabricated explosive lenses, neutron initiators, test firing systems, 
and dummy uranium cores. As Rolf Ekeus stated last year, UNSCOM 
believes that there are more components to be found.\43\
---------------------------------------------------------------------------
    \43\ Rolf Ekeus, presentation at the Carnegie Endowment, June 1997, 
op cit.
---------------------------------------------------------------------------
    In November 1997, U.S. Secretary of State Madeleine Albright stated 
that, regarding inspections in Iraq, ``[t]here are four categories of 
weapons of mass destruction that concern us. In the nuclear field that 
file is the closest to being closed. But we are concerned there are 
still some components there.'' \44\ [emphasis added]
---------------------------------------------------------------------------
    \44\ Madeleine Albright, CBS ``Face the Nation,'' Host, Bob 
Schieffer, November 9, 1997, CBS transcript, p. 4. Secretary Albright 
did not elaborate on her comment, so it is not clear what she meant by 
the term ``components.''
---------------------------------------------------------------------------
    According to a recent trade press report,\45\ IAEA was informed in 
1995, after the seizure of documents at General Kamel's farmhouse, that 
in late 1990, Iraq had constructed a full-scale model of its nuclear 
bomb design, fabricated to scale using metal components. The report 
cites ``sources inside the Iraqi nuclear program but not directly 
involved in key aspects of the weaponization effort,'' and says that 
IAEA and UNSCOM hold radically opinions about the significance of the 
model. IAEA reportedly believes that Iraq is still three to four years 
away from acquiring the ability to manufacture an effective nuclear 
weapon, whereas UNSCOM believes Iraq could build a bomb in less than a 
year.\46\
---------------------------------------------------------------------------
    \45\ Mark Hibbs, ``IAEA and UNSCOM Puzzled Over Iraqi Mockup of 
Nuclear Bomb,'' Nucleonics Week, February 12, 1998, p. 16.
    \46\ Ibid. Hibbs reported that IAEA based its assessment on advice 
from U.S. nuclear-weapons experts, whereas UNSCOM relied on non-U.S. 
experts. Robert Kelley, a U.S. expert who did advise IAEA, contends 
that, due to ``internal bickering and jockeying for status'' within the 
weapons program, Iraq was ``technologically at least five years away'' 
from acquiring nuclear weapons after the Gulf War. ``Former Inspector 
says Iraq Had No Nukes,'' United Press wire service story, December 5, 
1997.
---------------------------------------------------------------------------
    Gary Dillon, head of the IAEA Action Team, acknowledged that an 
Iraqi informant had claimed such a model existed, ``but it was a claim 
without any basis for follow-up.'' IAEA has found no evidence to 
support the existence of such a model, and has not discussed the matter 
with UNSCOM, according to Dillon.\47\
---------------------------------------------------------------------------
    \47\ Gary Dillon, IAEA Action Team, personal communication with 
Paul Leventhal, February 13, 1998.
---------------------------------------------------------------------------
    IAEA has examined Iraqi documents indicating ``that a signficant 
decision had been taken regarding the dimensions of the explosive lens 
of choice,'' \48\ but providing no indication of development of other 
weapon components. Iraq rejected an IAEA suggestion ``that this 
decision [on an explosive lens] strongly indicated that similar 
decisions had been taking regarding the design of the weapon 
internals.'' \49\ Thus, Iraq admitted the lens decision, but denied 
that such decisions had been made about any other components. Even 
after receiving the information about a full-scale model weapon, the 
IAEA reported it ``has no information that contradicts Iraq's statement 
that it had never identified nuclear-weapon design options beyond those 
preliminary concepts . . .'' \50\ If it was constructed, the scale 
model provides a basis for further challenging Iraq's claim to have 
made only minimal progress on weapons design.
---------------------------------------------------------------------------
    \48\ S/1998/38, p. 6.
    \49\ Ibid.
    \50\ Ibid.
---------------------------------------------------------------------------
3. Centrifuges
    For all their evasiveness, the Iraqis have been perhaps the least 
forthcoming on the matter of centrifuges. IAEA reported that, as of 
October 1997, Iraq has made available almost no documentation on its 
centrifuge uranium enrichment program. Only a few of the centrifuge 
drawings that Iraq obtained from German technical experts have been 
made available to IAEA by Iraq, and they ``contain only minor 
details.'' IAEA concluded that it could not rule out the possibility 
that centrifuge components and documentation are still being withheld 
by Iraq.\51\ Nor has IAEA been able to dismiss conclusively the 
possibility that a pilot centrifuge cascade existed (or still exists) 
undetected somewhere in Iraq.
---------------------------------------------------------------------------
    \51\ S/1997/779, pp. 39-41.
---------------------------------------------------------------------------
    Some important centrifuge documentation may have briefly been in 
IAEA custody at one point in 1991. Former inspector David Kay wrote 
that one in four of the documents seized by Iraqis from IAEA inspectors 
on September 22, 1991, the day before the notorious parking lot 
standoff, were never returned. Based on hurried initial assessments 
before the material was repossessed by the Iraqis, the inspectors 
concluded that the documents probably discussed key aspects of 
centrifuge program.\52\ It should be noted that IAEA has not recovered 
any documents from Iraq dealing with ``super-critical'' centrifuges, 
despite admissions from German centrifuge experts that they provided 
Iraq with design information on such centrifuges.\53\
---------------------------------------------------------------------------
    \52\ Quoted in Zorpette, 1992, op cit., p. 63.
    \53\ S/1997/779, p. 40.
---------------------------------------------------------------------------
    Concerns about Iraq's progress on centrifuge enrichment are 
magnified by the IAEA's inability to account for over a ton of uranium 
from projects at the Tuwaitha nuclear research facility.\54\ If Iraq 
has managed to conceal ton quantities of uranium from the IAEA, it 
could retain a substantial amount of feedstock to reactivate its 
centrifuge program.
---------------------------------------------------------------------------
    \54\ S/1997/779, Table 1.1, p. 34.
---------------------------------------------------------------------------
4. The international procurement network
    Even after seven years of IAEA investigations, almost no 
information on Iraqi procurement has been publicly released, making it 
impossible to judge how much IAEA has discovered and how much remains 
undisclosed by Iraq. As former UNSCOM chief Rolf Ekeus recounted,

        When our inspectors found machines, equipment and weapons 
        components that had been imported by Iraq, it became necessary 
        for UNSCOM to approach the relevant supplier companies to 
        investigate the complete extent of their dealings with Iraq. 
        Most of the companies were reluctant to talk to our 
        investigators, and only insistent requests to respective 
        governments for support could give us direct, or sometimes 
        indirect, access to the company. For that reason, assurances of 
        protection from public exposure had to be given in order to 
        encourage the companies and their governments to accept our 
        investigation of their dealings with Iraqi authorities.\55\
---------------------------------------------------------------------------
    \55\ Rolf Ekeus, ``Ambassador Rolf Ekeus: Leaving Behind the UNSCOM 
Legacy in Iraq,'' Arms Control Today, June/July 1997, p. 5.

    Given the increasing difficulty of locating key documents as time 
passes, it is unlikely that a complete picture of Iraq's pre-war 
procurement network will ever emerge.\56\ Even more troubling, as noted 
above, Iraq's international procurement network is known to have 
continued operation after end of the Gulf War. UNSCOM and IAEA are 
tasked to fully account for, and assist the Security Council in 
shutting down, any ongoing procurement of prohibited materials and 
technology. But information on continuing procurements is still far 
from complete.
---------------------------------------------------------------------------
    \56\ There is some reason to believe that IAEA discovered the 
``mother lode'' of procurement documents in the summer of 1991, but 
were forced to relinquish them to the Iraqis. On August 24, 1991, IAEA 
inspectors ``came upon a room lined with bookshelves that held the 
secrets they were looking for: a series of three-ring binders 
containing key foreign suppliers' catalogues, each painstakingly 
translated into Arabic; copies of correspondence with those suppliers; 
and records detailing purchasing history for virtually every piece of 
major equipment in the bomb program.'' The Iraqis would not allow the 
inspectors to remove these documents. Later, while the inspectors were 
outside the facility, they saw smoke rising from the building's stacks, 
suggesting that documents were being burned. Jeffrey Smith & Glenn 
Frankel, ``Saddam's Nuclear-Weapons Dream: A Lingering Nightmare,'' 
Washington Post, October 13, 1991, pp. A1. A44-45.
---------------------------------------------------------------------------
           iraqi nuclear breakout: a clear and present danger
    In assessing the nuclear threat from Iraq, it is important to 
underscore that the human infrastructure of Iraq's nuclear-weapons 
program remains in place. As David Kay put it, ``I don't think the 
program by any means is dead. The heart of a program is not equipment. 
The heart of a program is scientific and technical information and 
knowledge. The same 10 to 15,000 people that worked on the program 
before the war are still working.'' \57\
---------------------------------------------------------------------------
    \57\ David Kay, quoted by NBC Nightly News, op cit.
---------------------------------------------------------------------------
    Iraq's nuclear team was not disbanded, and the nuclear scientists 
``are essentially prisoners'' of Saddam's regime.\58\ These scientists 
are interviewed periodically by IAEA, but the IAEA does not keep the 
scientists under surveillance.\59\ It remains unclear how closely their 
movements and their work are monitored by intelligence agencies. 
According to Paul Stokes, a deputy leader of the IAEA Action Team, 
there is significant evidence from defectors and other intelligence 
sources that these scientists continue their work at undeclared sites 
in Iraq.\60\ Iraqi nuclear scientists often taunt the inspectors. One 
looked a U.N. inspector in the eye and said, ``We are waiting for you 
to leave.'' \61\
---------------------------------------------------------------------------
    \58\ David Albright, Institute for Science and International 
Security, quoted in Mark Hibbs, ``France Expected to Help Russia 
Terminate IAEA Investigation in Iraq,'' NuclearFuel, January 12, 1998, 
p. 4.
    \59\ Gary Dillon, head of the IAEA Action Team, personal 
communication with Paul Leventhal, February 13, 1998.
    \60\ Ventor, 1997, op cit.
    \61\ Quoted in Milhollin, 1992, p. 30.
---------------------------------------------------------------------------
    A major concern is that Iraq is capable of building a workable 
nuclear bomb if the requisite nuclear material could be obtained. 
Despite some differences with UNSCOM over weaponization, IAEA concluded 
its October 1997 report by noting that ``Iraqi programme documentation 
records substantial progress in many important areas of nuclear weapon 
development, making it prudent to assume that Iraq has developed the 
capability to design and fabricate a basic fission weapon, based on 
implosion technology and fueled by highly enriched uranium.'' \62\
---------------------------------------------------------------------------
    \62\ S/1997/779, pp. 61-62.
---------------------------------------------------------------------------
    As a result, preventing Iraq from acquiring plutonium or highly 
enriched uranium is given as a top priority by the IAEA: ``Iraq's 
direct acquisition of weapons-usable nuclear material or nuclear 
weapon-related technology . . . will continue to be a matter of major 
concern to IAEA, and high priority will continue to be given to the 
investigation of any indication of such acquisition.'' \63\ But the 
IAEA all but concedes its inability to detect the presence of smuggled 
fissile material inside Iraq: ``Iraq's direct acquisition of weapon-
usable nuclear material would also present a severe technical challenge 
to the OMV [ongoing monitoring and verification] measures and great 
reliance must be placed on international controls.'' \64\ 
Unfortunately, international controls on fissile materials are far from 
adequate, and national controls in Russia and other former republics of 
the Soviet Union, are extremely weak. With some 294 tons of separated 
plutonium and some 20 tons of highly enriched uranium projected to be 
in civilian commerce in the year 2000,\65\ relying on the NPT and IAEA 
safeguards as the primary means of preventing Iraq from getting the 
bomb is a dangerous gamble--one that failed in 1990.\66\
---------------------------------------------------------------------------
    \63\ S/1998/38, p. 8.
    \64\ S/1997/779, p. 22.
    \65\ David Albright, Frans Berkhout, & William Walker, Plutonium 
and Highly Enriched Uranium 1996: World Inventories, Capabilities and 
Policies, 1997, Table 6.8, p. 184, and p. 253. See also ``The Plutonium 
Threat,'' Nuclear Control Institute, March 1997.
    \66\ As noted Iraq had begun to divert safeguarded HEU, and then 
proceeded to hide it, without the IAEA's knowledge, in direct violation 
of IAEA safeguards. For an analysis of specific problems with the IAEA 
safeguards system, see Paul Leventhal, ``IAEA Safeguards Shortcomings--
A Critique,'' Nuclear Control Institute, September 12, 1994. and Marvin 
Miller, ``Are IAEA Safeguards on Plutonium Bulk-Handling Facilities 
Effective?,'' Nuclear Control Institute, August 1990.
---------------------------------------------------------------------------
    Another option for Iraq would be to reconstitute its covert uranium 
enrichment program based on centrifuge technology. There is evidence 
that, since the end of the Gulf War, Iraq has attempted to acquire 
hydrofluoric acid, used to convert natural uranium into uranium 
hexafluoride for enrichment.\67\ Based on performance achieved by the 
Iraqis with their prototype centrifuge, IAEA conservatively estimated 
that the potential output of a 1,000 centrifuge cascade would be about 
ten kilograms of weapons-grade highly enriched uranium annually. Had 
construction been completed, Iraq's Al Furat centrifuge manufacture 
facility would have been capable of manufacturing up to five thousand 
centrifuges a year, enough to supply an enrichment facility that could 
produce fifty kilograms of HEU per year.\68\ IAEA has started to 
implement its OMV program, but it is by no means certain that the IAEA 
could detect a small, well-hidden centrifuge facility. Former IAEA 
Action Team inspectors Jay Davis and David Kay concluded that, 
``[b]ecause of the centrifuges' small size, cascades of even 1000 or 
more--enough to produce material for several bombs a year--are 
relatively easily concealed.'' \69\
---------------------------------------------------------------------------
    \67\ Ventor, 1997, op cit.
    \68\ S/1997/779, pp. 41-42.
    \69\ Davis & Kaye, 1992, op cit., p. 25.
---------------------------------------------------------------------------
                    conclusions and recommendations
    After examining the evidence, it is prudent to assume that there is 
a small, well-concealed nuclear weapons program in Iraq, possibly with 
fully developed components suitable for rapid assembly into one or more 
workable weapons if the requisite fissile material (highly enriched 
uranium or plutonium) were acquired. If Iraq has been able to smuggle 
in the needed material from, say, Russia or another former Soviet 
republic without being detected, the nuclear threat could be quite real 
and even eclipse the CBW threat.
    As a P-5 member of the Security Council, the United States should 
provide a counterweight against pressure by Russia on UNSCOM to close 
the nuclear file, and on the IAEA Action Team to limit its 
investigation. Nor should the halting of nuclear inspections be seized 
upon as an acceptable last-minute compromise by those anxious to find a 
diplomatic solution to avert U.S. military strikes against Iraq.
    The IAEA has had a bad track record when it comes to Iraq, and 
should be extra cautious about suspending its investigation. In 
September 1992, the late Mauricio Zifferero, then head of the IAEA 
Action Team, said that Iraqi nuclear program ``is at zero now,'' and 
that the Iraqis ``have stated many times to us that they have decided 
at the higher political level to stop these activities. This we have 
verified. We're completing our investigation of the program and find no 
evidence of the program being continued.'' \70\ Zifferero further 
claimed that the Iraqi nuclear weapon program ``is totally dormant.'' 
\71\
---------------------------------------------------------------------------
    \70\ ``Iraqi Nuclear Program `at Zero,' U.N. Aide Says,'' 
Washington Post, September 3, 1992, p. A39.
    \71\ Caryle Murphy, ``Long-Term Monitoring Seen for Iraq,'' 
Washington Post, September 8, 1992, p. A16.
---------------------------------------------------------------------------
    Even in its most recent reports, IAEA seems to place an almost 
naive confidence in the absence of evidence contradicting 
unsubstantiated Iraqi claims. When doubt exists, the presumption should 
be that investigation and active inspection need to continue. The 
number of significant discoveries since Zifferero's overconfident 1992 
declaration should lead us to greet IAEA statements that inspections 
have reached a point of ``diminishing returns'' with skepticism.
    The unclear division of nuclear responsibilities between IAEA and 
UNSCOM has resulted in tension and disagreement. After leaving UNSCOM, 
Rolf Ekeus mentioned that there ``was also a certain culture problem 
with our [UNSCOM's] more aggressive approach, and the IAEA has a more 
cooperative approach . . .'' \72\ Better coordination and consultation 
between the two agencies will be required if the remaining questions 
about Iraq's nuclear weapons program are to be answered.
---------------------------------------------------------------------------
    \72\ Rolf Ekeus, remarks at the Carnegie Endowment, June 1997, op 
cit.
---------------------------------------------------------------------------
    One historical note relevant to the current crisis comes from David 
Kay, who wrote that Hussein ``used the chemical weapon threat mainly as 
a distraction for Israeli intelligence, to draw them away from the 
nuclear program. So we need to be looking at the whole picture.'' \73\ 
We cannot dismiss the possibility that Saddam Hussein might be pursuing 
a similar diversionary strategy today with his CBW and missile shell 
game.
---------------------------------------------------------------------------
    \73\ David Kay, 1993, op cit., p. 98.
---------------------------------------------------------------------------
    Another series of air strikes, or even a prolonged bombing 
campaign, are unlikely to destroy all of Iraq's capability to produce 
and use weapons of mass destruction. The United States seems prepared 
to use military force to force Iraqi acquiescence in meaningful 
inspections, including access to presidential sites. Such acquiescence 
should include full and complete resolution of the five unresolved 
nuclear-program issue areas specified by IAEA and noted above. Saddam 
Hussein would be likely to read the closing of the nuclear file as a 
sign of weakness on the part of the United Nations, making 
reconstitution of his nuclear weapons program all the more likely and 
making resolution of questions related to missiles and CBW more 
difficult.
    U.N. inspectors must also keep close track of Iraq's dual-use 
technology base. IAEA has set up a process to deal with Iraqi requests 
to release or relocate dual-use equipment from the nuclear program, or 
to change use of monitored buildings. So far, 27 out of 29 such 
requests have been approved. Once released to the Iraqis, subsequent 
inspection of these technologies and buildings is uncertain at best; 
IAEA requires only that monitoring occur ``at a frequency commensurate 
with their significance.'' \74\
---------------------------------------------------------------------------
    \74\ S/1997/779, p. 11.
---------------------------------------------------------------------------
    Finally, tighter controls must be implemented across the board on 
commerce in plutonium and highly enriched uranium. When he stepped down 
as UNSCOM chief last year, Ambassador Rolf Ekeus warned that ``[t]he 
present nuclear threat from Iraq is, in my judgment, linked to the 
possible import by Baghdad of highly enriched uranium (HEU). . . . The 
lack of HEU, together with the effective brake that has been applied to 
the country's missile programs, constitute the real bottleneck for Iraq 
for the acquisition of a nuclear weapon.'' \75\
---------------------------------------------------------------------------
    \75\ Quoted in ``Ambassador Rolf Ekeus: Leaving Behind the UNSCOM 
Legacy in Iraq,'' Arms Control Today, June/July 1997, p. 4.
---------------------------------------------------------------------------
    Unless nuclear nations stop producing materials by the ton that can 
be used by the pound to build nuclear bombs, the risk of diversion to 
the nuclear-weapon program of Saddam Hussein, and of other would-be 
nuclear powers, will remain high.

                                 ______
                                 

                             [Attachment 3]

                         Nuclear Control Institute,
                      1000 Connecticut Ave., NW, Suite 804,
                                     Washington, DC, June 24, 1998.

Mohamed ElBaradei,
Director-General,
International Atomic Energy Agency,
Vienna, Austria.
    Dear Director-General ElBaradei: We are writing to convey our 
letter to the editor, published in the Washington Post on June 22, in 
response to your June 1 op-ed article, ``Iraq's Nuclear File: Still 
Open.'' The letter expresses our concern that the IAEA's proposed shift 
to more passive environmental monitoring is premature until a number of 
outstanding questions about Iraq's nuclear weapons program--originally 
raised by the IAEA in the fourth consolidated report (S/1997/779,8 
October 1997)--are answered first.
    We wish to underscore our proposal that you direct IAEA Iraq Action 
Team Director Gary Dillon to address each of these questions in his 
July report to the Security Council.
    These unresolved issues are not merely historical artifacts of a 
``past program,'' as you suggest in your article, but directly concern 
whether Saddam Hussein's regime could produce nuclear weapons today. 
Among the most significant are the following:

          1. Though Iraq is known to have manufactured and tested a 
        number of nuclear-weapon components, none have been surrendered 
        to IAEA inspectors.
          2. Iraq has never provided the IAEA with its bomb design and 
        related research, despite repeated requests.
          3. The IAEA is no longer pursuing an intelligence report that 
        Iraq fabricated a full-scale bomb model, or ``mock-up,'' and 
        the Agency did not even bother to share this information with 
        UNSCOM, according to what Mr. Dillon related to NCI on this 
        matter.
          4. Iraq continued to received outside assistance, and to 
        procure technology for its nuclear program, after the Gulf War. 
        The extent to which those activities continue today remains 
        unclear.
          5. Iraq has not provided proof that it issued orders to 
        terminate its nuclear weapons program, a matter specifically 
        referenced by the Security Council in May.

    The IAEA's fifth consolidated report (S/1998/312,9 April 1998) is 
distressing in that it fails to address most of these issues and 
concludes that Iraq's most recent accounting of its nuclear program is 
``full, final and complete.''
    The discovery this week by UNSCOM inspectors of evidence that Iraq 
weaponized shells with VX nerve gas, despite Iraq's repeated insistence 
that it had never done so, demonstrates that Iraq continues to 
misrepresent the extent of its efforts to produce and conceal weapons 
of mass destruction. In the face of such evidence, and given the long 
history of Iraq's concealment, obstructionism and misrepresentation 
with regard to its nuclear program, the IAEA should not take Iraq at 
its word, even when there is no immediate evidence to the contrary.
    In May, the Security Council stated that all questions and concerns 
about Iraq's nuclear program must be resolved before the IAEA can 
switch to an ongoing monitoring and verification posture. The Agency's 
credibility is at stake in pursuing this difficult assignment in a 
manner that protects global security and strengthens the international 
nuclear non-proliferation regime.
    Thank you for your attention to this urgent matter. We would 
welcome the opportunity to discuss these issues with you.
            Sincerely,
                                 Paul Leventhal, President.
                          Steven Dolley, Research Director.

[Enclosures.]

               [From the Washington Post, June 22, 1998]

                         letters to the editor

                      Unanswered Questions in Iraq

    It is reassuring to hear from Mohammed ElBaradei, director general 
of the International Atomic Energy Agency [IAEA], that his agency 
doesn't want to ``close the nuclear file'' on Iraq [``Iraq's Nuclear 
File: Still Open,'' op-ed, June 1]. Nonetheless, Mr. ElBaradei wants to 
change the IAEA's posture in Iraq from investigative inspections to 
primarily passive environmental monitoring, thereby making it easier 
for Iraqi scientists to conceal what the IAEA is looking for. Any such 
move is premature until a number of outstanding questions about the 
Iraqi ``Manhattan Project,'' raised by the IAEA itself in a report last 
October, are resolved.
    For example, Iraq never surrendered its bomb-design documents. Iraq 
has admitted fabrication of nuclear-bomb components for testing but 
never turned them over (contrary to Mr. ElBaradei's claim that the IAEA 
has neutralized ``all weapon-related items that came to knowledge''). 
The equipment used to make these components has not been accounted for 
fully. Iraq has imported such equipment since the Gulf war, but 
continues to withhold details about its postwar procurement network. 
How can we accept Mr. ElBaradei's statement that the IAEA has 
``neutralized'' Iraq's bomb program if the IAEA still does not know all 
of Iraq's foreign suppliers?
    Mr. ElBaradei refers to scientists and engineers who ``worked'' in 
Iraq's clandestine nuclear program even though they all remain in Iraq 
and, by the IAEA's admission, are difficult to monitor as they are 
transferred to the ``private sector'' (whatever that means in Iraq). He 
acknowledges the ``technical challenge'' to IAEA monitoring if Iraq 
were to acquire weapons-usable nuclear material from abroad--politesse 
for admitting that these scientists could construct a workable nuclear 
bomb undetected if they acquired plutonium or bomb-grade uranium on the 
black market. This warning was contained in the IAEA's report to the 
Security Council last October, but was oddly-absent from the most 
recent report, which reinforced the call by China, France and Russia to 
close the Iraqi nuclear file.
    At U.S. insistence, the Security Council in May made the right 
decision that all unanswered questions about Iraq's nuclear program 
must be resolved before any shift from inspections to monitoring takes 
place. Mr. ElBaradei should ask the IAEA board of governors to support 
the Security Council's postion and to direct the leader of the IAEA 
Action Team in Iraq, Gary Dillon, to make finding answers to the 
unresolved questions his top priority.

                                             Steven Dolley,
                                            Paul Leventhal,
                                                Washington.

                                 ______
                                 

                International Atomic Energy Agency,
                                      The Director General,
                                         Sent by fax: 25 June 1998.

Mr. Paul Leventhal,
President,
Nuclear Control Institute,
1000 Connecticut Ave., NW, Suite 804,
Washington, DC.

    Dear Mr. Leventhal:
    Thank you for your fax of June 24 1998. As you might have presumed 
I had already seen your ``letter to the editor'' in the Washington Post 
and had, together with Mr. Garry Dillon, considered your concerns.
    Firstly, you should be aware that in the context of its 
verification activities the IAEA does not take any member state ``at 
its word''. Verification is based on evidence and not upon trust and 
nowhere is that principle more vigorously applied than in Iraq. The 
IAEA has never accepted Iraq's declarations at face value and has 
always sought verification through, for example, Iraqi documentation, 
supplier state information and as necessary excavation of burial sites 
involved in Iraq's unilateral destruction activities.
    Secondly, your reference to ``more passive environmental 
monitoring'' is incorrect. The IAEA's ongoing monitoring and 
verification (OMV) activities in Iraq are far from passive. They are 
very wide-ranging, are highly intrusive and benefit from the same 
unlimited rights of access that are associated with our ``disarmament'' 
activities in Iraq. OMV employs all of the technologies used in the 
disarmament activities and wide-area environmental monitoring is but 
one of those technologies. Implementation of the OMV not only addresses 
the obvious need to monitor Iraq's use of its known assets but also 
gives at least equal stress to the vital need to continue to search 
actively for clandestine assets through the follow-up of available 
information, the pre-emptive inspection of hitherto un-inspected sites 
and through a comprehensive wide-area monitoring programme. The risk 
from Iraq lies not in the past, but in the present and the future. 
Protection from such risks is the function of OMV.
    Thirdly, the IAEA's fifth consolidated progress report did not 
conclude that ``Iraq's most recent accounting of its nuclear programme 
is `full, final and complete.' '' The progress report simply records 
that Iraq had satisfactorily completed the purely editorial task of 
producing a consolidated version of its FFCD which incorporated into 
one document all of the additions and revisions that had been made to 
Iraq's September 1996 version of the declaration resulting from its 
discussions with the IAEA Action Team. However, paragraph 79 of the 
IAEA's fourth consolidated progress report did contain the following 
statement.
    ``There are no indications of significant discrepancies between the 
technically coherent picture which has evolved of Iraq's past programme 
and the information contained in Iraq's FFCD-F issued on 7 September 
1996 as supplemented by the written revisions and additions provided by 
Iraq since that time. However, taking into account the possibility, 
albeit remote, of undetected duplicate facilities or the existence of 
anomalous activities or facilities outside this technically coherent 
picture, no absolute assurances can be given with regard to the 
completeness of Iraq's FFCD. Some uncertainty is inevitable in any 
country-wide technical verification process which aims to prove the 
absence of readily concealable objects or activities. The extent to 
which such uncertainty is acceptable is a policy judgement.''
    I do not propose to address the five specific points that you 
raised save to say that some of them remain to be ``work in progress'' 
and are already scheduled to be raised again when Mr. Dillon meets with 
the Iraqi counterpart in Baghdad next week.
    In conclusion, please be assured that the IAEA is not unaware of 
your fundamental concerns as evidenced by the attached abstracts from 
our October 1997 and April 1998 progress reports to the Security 
Council.
            Yours sincerely,
                                         Mohamed ElBaradei.

                                 ______
                                 

 Abstracts From the Fourth Consolidated Six-Monthly Progress Report of 
   the Director General of the IAEA--S/1997/779 dated 8 October 1997

      the scope and status of iraq's clandestine nuclear programme
    71. The results of the IAEA's on-site inspection of Iraq's nuclear 
capabilities have, over time produced a picture of a very well funded 
programme aimed at the indigenous development and exploitation of 
technologies for the production of weapons-usable nuclear material and 
the development and production of nuclear weapons, with a target date 
of 1991 for the first weapon.
    72. The programme, which is described in greater detail in 
Attachment 1 to this report, comprised:

  <bullet> indigenous production and overt and covert procurement of 
        natural uranium compounds, in this regard:

    All known indigenous facilities capable of production of amounts of 
        uranium compounds useful to a reconstituted nuclear programme 
        have been destroyed along with their principal equipment.

    All known procured uranium compounds are in the custody of the 
        IAEA.

    All known practically recoverable amounts of indigenously produced 
        uranium compounds are in the custody of the IAEA.

  <bullet> industrial-scale facilities for the production of pure 
        uranium compounds suitable for fuel fabrication or isotopic 
        enrichment. In this regard:

    All known facilities for the industrial-scale production of pure 
        uranium compounds suitable for fuel fabrication or isotopic 
        enrichment have been destroyed, along with their principal 
        equipment.

  <bullet> research and development of the full range of enrichment 
        technologies culminating in the industrial-scale exploitation 
        of EMIS and substantial progress towards similar exploitation 
        of gas centrifuge enrichment technology. In this regard:

    All known single-use equipment used in the research and development 
        of enrichment technologies has been destroyed, removed or 
        rendered harmless.

    All known dual-use equipment used in the research and development 
        of enrichment technologies is subjected to ongoing monitoring 
        and verification.

    All known facilities and equipment for the enrichment of uranium 
        through EMIS technologies have been destroyed along with their 
        principal equipment.

  <bullet> design and feasibility studies for an indigenous plutonium 
        production reactor. In this regard:

    IAEA inspections have revealed no indications that Iraq's plans for 
        an indigenous plutonium production reactor proceeded beyond a 
        feasibility study.

  <bullet> research and development of irradiated fuel reprocessing 
        technology. In this regard:

    The facility used for research and development of irradiated fuel 
        reprocessing technology was destroyed in the bombardment of 
        Tuwaitha and the process-dedicated equipment has been destroyed 
        or rendered harmless.

  <bullet> research and development of weaponisation capabilities for 
        implosion-based nuclear weapons. In this regard:

    The principal buildings of the Al Atheer nuclear weapons 
        development and production plant have been destroyed and all 
        known purpose-specific equipment has been destroyed, removed or 
        rendered harmless.

  <bullet> a ``crash programme'' aimed at diverting safeguarded 
        research reactor fuel and recovering the HEU for use in a 
        nuclear weapon. In this regard:

    The entire inventory of research reactor fuel was verified and 
        accounted for by the IAEA and maintained under IAEA custody 
        until it was removed from Iraq.
                                summary
    77. Although certain documentary evidence is missing and some gaps 
in knowledge remain, the following can be stated with regard to Iraq's 
clandestine programme:

  <bullet> There are no indications to suggest that Iraq was successful 
        in its attempt to produce nuclear weapons. Iraq's explanation 
        of its progress towards the finalisation of a workable design 
        for its nuclear weapons is considered to be consistent with the 
        resources and time scale indicated by the available programme 
        documentation. Hcwever, no documentation or other evidence is 
        available to show the actual status of the weapon design when 
        the programme was interrupted.
  <bullet> Iraq was at, or close to, the threshold of success in such 
        areas as the production of HEU through the EMIS process, the 
        production and pilot cascading of single-cylinder subcritical 
        gas centrifuge machines, and the fabrication of the explosive 
        package for a nuclear weapon.
  <bullet> There are no indications to suggest that Iraq had produced 
        more that a few grams of weapons-usable nuclear material (HEU 
        or separated plutonium) through its indigenous processes, all 
        of which has been removed from Iraq.
  <bullet> There are no indications that Iraq otherwise acquired 
        weapons-usable nuclear material.
  <bullet> All of the safeguarded research reactor fuel, including the 
        HEU fuel that Iraq had planned to divert to its ``crash 
        programmes,'' was verified and fully accounted for by the IAEA 
        and removed from Iraq.
  <bullet> There are no indications that there remains in Iraq any 
        physical capability for the production of amounts of weapons-
        usable nuclear material of any practical significance.

    78. Iraq's description of its development of the single-cylinder 
sub-critical gas centrifuge appears to be consistent with the resources 
and time scale indicated by the available documentation and the status 
of the related facilities. Although little documentation is available, 
it is clear that Iraq had intentions to exploit the information in its 
possession regarding multi-cylinder super-critical centrifuge machines. 
It will be necessary to gain access to Iraq's foreign source of 
information in order to have the opportunity to verify Iraq's 
explanation that only limited exploratory design work had been 
undertaken.
    79. There are no indications of significant discrepancies between 
the technically coherent picture which has evolved of Iraq's past 
programme and the information contained in Iraq's FFCD-F issued on 7 
September 1996 as supplemented by the written revisions and additions 
provided by Iraq since that time. However, taking into account the 
possibility, albeit remote, of undetected duplicate facilities or the 
existence of anomalous activities or facilities outside this 
technically coherent picture, no absolute assurances can be given with 
regard to the completeness of Iraq's FFCD. Some uncertainty is 
inevitable in any country-wide technical verification process which 
aims to prove the absence of readily concealable objects or activities. 
The extent to which such uncertainty is acceptable is a policy 
judgement.
    80. Most of the IAEA activities involving the destruction, removal 
and rendering harmless of the components of Iraq's nuclear weapons 
programme which to date have been revealed and destroyed, were 
completed by the end of 1992 (See Attachment 3). Since that time, only 
a relatively small number of items of proscribed equipment and 
materials have been identified and disposed of, most of which were 
handed over to the IAEA by Iraq since the events of August 1995. While 
no indications of the presence of further proscribed equipment or 
materials in Iraq have been found, the IAEA, despite its extensive 
inspection activities, cannot, for the reasons described in the 
previous paragraph, provide absolute assurance of the absence of 
readily concealable items, such as components of centrifuge machines or 
copies of weapons-related documentation.
    81. The IAEA's ongoing monitoring and verification (OMV) plan was 
phased-in during the period from November 1992 to August 1994, at which 
time it was considered to be operational. Taking into account the 
extensive technological expertise developed by Iraq in the course of 
its clandestine nuclear programme the OMV plan is predicated on the 
assumption that Iraq retains the capability to exploit, for nuclear 
weapons purposes, any [relevant] materials or technology to which it 
may gain access in the future.
    82. Implementation of the OMV plan has not resulted in the 
detection of any indications of ongoing proscribed activities or the 
presence in Iraq of proscribed equipment or materials, apart from the 
items referred to in paragraph 80 above. It should be recognised, 
however, that OMV measures cannot guarantee detection of readily 
concealable or disguisable proscribed activities, such as computer-
based weaponisation studies or small-scale centrifuge cascade 
development. Iraq's direct acquisition of weapons-usable nuclear 
material would also present a severe technical challenge to the OMV 
measures and great reliance must be placed on international controls.
    83. As indicated in the foregoing, the IAEA's activities regarding 
the investigation of Iraq's clandestine nuclear programme have reached 
a point of diminishing returns and the IAEA is focusing most of its 
resources on the implementation and technical strengthening of its plan 
for the ongoing monitoring and verification of Iraq's compliance with 
its obligations under the relevant Security Council resolutions. The 
IAEA is not ``closing the books'' on its investigation of Iraq's 
clandestine nuclear programme and will continue to exercise its right 
to investigate any aspect of Iraq's clandestine nuclear programme, in 
particular, through the follow-up of any new information developed by 
the IAEA or provided by Member States and assessed by the IAEA to 
warrant further investigation, and to destroy, remove or render 
harmless any proscribed items discovered through such investigations.

                                 ______
                                 

 Abstracts From the Fifth Consolidated Six-Monthly Progress Report of 
    the Director General of the IAEA--S/1998/312 Dated 9 April 1998

    19. The December 1997 discussions resulted in: the provision by 
Iraq of information regarding its post-war procurement procedures; 
Iraq's assistance in the identification of the foreign principals 
involved in the offer of assistance to Iraq's clandestine nuclear 
programme under assessment by the IAEA; Iraq's statement that it had no 
objection to the IAEA's use of fixed-wing aircraft for technical 
monitoring purposes; Iraq's undertaking to attempt to locate the 
reports of its Nuclear Team referred to in paragraph 18 above; Iraq's 
agreement to produce a summary of the technical achievements of its 
clandestine nuclear programme; and Iraq's agreement to issue a 
consolidated version of its FFCD.
    20. At the same time, the Iraqi counterpart reaffirmed: that 
following the Gulf War, the late Lt. General Hussein Kamel had taken 
actions related to Iraq's clandestine nuclear programme that were 
independent, unauthorised and without the knowledge of the Government 
of Iraq; that Iraq had not followed up any offers of assistance to its 
clandestine nuclear programme other than the declared foreign 
assistance to its centrifuge programme; and that the so-called ``high 
Governmental Committee'', initially described by the Iraqi counterpart 
to have been established in June 1991 and headed by Deputy Prime 
Minister Tariq Aziz, had not, in fact, been an established entity. As 
previously reported the IAEA has no independently verifiable 
information through which to confirm or confute the above statements.
    27. The Leader of the IAEA Iraq Action Team met with Deputy Prime 
Minister Tariq Aziz and took the opportunity to explain that the IAEA's 
interest in the so-called ``high Governmental Committee'' and the 
actions attributed to the late Lt. General Hussein Kamel, centred on 
the IAEA's attempt to locate documentary evidence supporting Iraq's 
declaration that it had abandoned its clandestine nuclear programme. It 
was further explained that the IAEA had hoped to locate an Iraqi 
Government decree formally abandoning the programme but had been 
advised that no such decree existed. The matter was followed up in a 
written request to Mr. Tariq Aziz to determine whether any official 
Iraqi document existed to record a Government-level decision to abandon 
the clandestine nuclear programme.
    28. The opportunity was also taken to explain that a shift of focus 
to ongoing monitoring and verification activities would not result in a 
non-intrusive inspection regime. It was made clear that the technical 
activities employed by the IAEA in its inspections of Iraq's 
clandestine nuclear programme were essentially the same as those 
employed in the IAEA's OMV activities. . . .
    36. As previously reported, the IAEA is focusing most of its 
resources on the implementation and strengthening of the technical 
content of its activities under the OMV Plan. The IAEA will, however, 
continue to exercise its right to investigate any aspect of Iraq's 
clandestine nuclear programme, in particular, through the follow up of 
any new information developed by the IAEA or provided by Member States 
and to destroy, remove or render harmless any prohibited items 
discovered through such investigations.

                                 ______
                                 

                         Nuclear Control Institute,
                      1000 Connecticut Ave., NW, Suite 804,
                                      Washington, DC, July 1, 1998.

Mohamed ElBaradei,
Director General,
International Atomic Energy Agency,
Vienna, Austria.

    Dear Director General ElBaradei:
    Thank you for your prompt reply to our letter of June 24. We 
appreciate your personal commitment to addressing outstanding issues 
regarding Iraq's nuclear weapons program.
    We certainly agree with the Agency's statement in the October 1997 
consolidated report that ``[s]ome uncertainty is inevitable in any 
country-wide technical verification process which aims to prove the 
absence of readily concealable objects or activities.'' We welcome your 
emphasis of this point in your Washington Post article, and expect, 
therefore, that the Agency will resume highlighting such uncertainties 
(especially the significance if Iraq were to acquire weapons-usable 
nuclear material) in its reports and public statements on Iraq, in 
order to avoid the misleading impression of a ``clean bill of health.''
    You emphasized in your letter that ``the IAEA does not take any 
member state `at its word.' '' It is unfortunate, therefore, that there 
are several instances in the Agency's inspection reports where Iraq's 
claims on important issues--such as missing reports and components--are 
left unchallenged ``in the absence of contrary evidence.'' We submit 
that the Agency should persist in challenging and investigating all 
such claims, even when it lacks immediate leads.
    Of course, we are aware that the Agency retains inspection rights 
under the terms of the ongoing monitoring and verification (OMV) plan. 
Our concern is that, if the Agency certifies the requirements of 
Resolution 687 have been met, such inspections will be difficult if not 
impossible to implement. It is prudent to assume that Saddam Hussein's 
only interest in permitting nuclear and other U.N. inspections is the 
prospect that economic sanctions will be lifted. If and when sanctions 
are removed, Iraqi cooperation is likely to evaporate, leaving 
remaining questions about the nuclear-weapons program unresolved and 
making it easier for Iraq to reconstitute this program.
    The five unanswered questions about Iraq's nuclear-weapon program 
enumerated in our letter are significant and have direct relevence to 
Iraq's near-term ability to make nuclear weapons. Therefore, all should 
be answered or highlighted as being unanswered in Mr. Dillon's 
forthcoming report. Assuming Iraq possesses a workable design and 
components, it would need only a few kilograms of plutonium or highly 
enriched uranium to ``go nuclear.''
    We do not agree with the Agency's view that the acceptability of 
uncertainty on these issues is a ``policy judgement.'' Given the 
gravity of the danger if Iraq were to possess nuclear weapons, we urge 
that Mr. Dillon be directed to identify all outstanding issues and 
elaborate on their significance to this danger in the Agency's next 
status report to the Security Council in July.
    Thank you for your continuing attention to these urgent matters. We 
hope we might have the opportunity to meet with you and Mr. Dillon to 
discuss these concerns when you next visit the United States.
            Sincerely,
                                 Paul Leventhal, President.
                          Steven Dolley, Research Director.

                                 ______
                                 

                             [Attachment 4]

                         Nuclear Control Institute,
                       1000 Connecticut Ave. NW, Suite 804,
                                       Washington, DC, May 3, 1999.

For Immediate Release
Contact: Steven Dolley

State Department Discloses It Is Pursuing Reports of Iraqi Nuclear-Bomb 
                               Components

    In an exchange of correspondence released today by the Nuclear 
Control Institute (NCI), the U.S. State Department disclosed that it 
was ``engaged'' with United Nations inspection agencies in 
investigating intelligence reports that Iraq possesses complete sets of 
nuclear-bomb components, minus the fissile material. In its response, 
NCI criticized the International Atomic Energy Agency (IAEA) for 
minimizing Iraq's weaponization progress based upon highly questionable 
Iraqi documents that may well be forgeries.
    In a letter to NCI, John Barker, deputy assistant secretary for 
nonproliferation controls at the State Department, stated that ``the 
IAEA has highlighted the lack of information about weaponization as one 
of the areas where it has continuing uncertainties and where there is a 
lack of complete and verifiable information.'' The U.S. Government, 
Barker emphasized, maintains its ``firm position that there can be no 
consideration of lifting UN sanctions on Iraq until Iraq fully complies 
with its obligations.'' Barker also characterized intelligence reports 
that Iraq possesses three complete sets of nuclear-bomb components, 
lacking only fissile material, as ``unconfirmed'' but ``serious 
allegations, and we have engaged UNSCOM and the IAEA to follow up on 
them.''
    In NCI's reply, Paul Leventhal and Steven Dolley, NCI's president 
and research director, praised State's commitment to investigate 
weaponization, but criticized the IAEA's failure to follow up. ``We 
cannot agree with your suggestion that the IAEA currently shares the 
U.S. Government's concern about unresolved weaponization issues,'' they 
wrote. ``Since early 1998, the Agency has been largely silent on this 
matter. On those rare occasions when the weaponization issue is raised 
in IAEA reports, it is mentioned only briefly, and only in the context 
of downplaying their significance.''
    Of particular concern to NCI is the IAEA's failure to refute 
intelligence reports about Iraq's efforts to conceal complete sets of 
bomb components, first made public last September by former UNSCOM 
chief inspector Scott Ritter. IAEA Director-General ElBaradei reported 
to the Security Council on October 13, 1998 that ``all available, 
credible information . . . provides no indication that Iraq has 
assembled nuclear weapons with or without fissile cores.'' That same 
report offered a sweeping assurance that ``Iraq's known nuclear weapons 
related assets have been destroyed, removed or rendered harmless.''
    In their letter, Leventhal and Dolley pointed out that IAEA 
attempts to dismiss this intelligence rely on dubious evidence. They 
recounted a meeting this winter at which an IAEA official responsible 
for inspections in Iraq ``asserted that new documents provided by the 
Iraqis demonstrated that their progress on the development of explosive 
lenses had not been as significant as earlier evidence had suggested. 
However, when questioned, the official admitted that forensic tests to 
determine the authenticity of these new documents had proven 
`uncertain.' Thus, the new Iraqi documents may well be forgeries, and 
the question of the existence of complete sets of weapons components is 
far from resolved. Nonetheless, the IAEA is ready to move on to a 
monitoring posture.''
    Leventhal and Dolley proposed that the Security Council direct the 
IAEA to account for the destruction of ``all nuclear-bomb components, 
designs and models'' before revising sanctions or moving to an ongoing 
monitoring and verification (OMV) posture. They warned in their letter 
that although the Department's objective for future monitoring 
activities is ``to `retain all the authorities, privileges, and 
immunities of current disarmament inspections,' the Iraqis will regard 
a shift to OMV differently, and the result will be a weakening, if not 
evisceration, of the inspection regime.''
    The text of the two letters and other information on Iraq's nuclear 
weapons program are available on NCI's website, ``Saddam and the 
Bomb,'' at http://www.nci.org/sadb.htm

                         Nuclear Control Institute,
                      1000 Connecticut Ave., NW, Suite 804,
                                 Washington, DC, November 19, 1998.

William Jefferson Clinton,
President,
The White House,
1600 Pennsylvania Ave., NW,
Washington, DC.

    Dear Mr. President:
    We are writing with regard to serious, outstanding questions about 
Iraq's nuclear weapons program. In your November 15 statement, 
announcing the settlement that secured the return of the U.N. Special 
Commission (UNSCOM) and International Atomic Energy Agency (IAEA) 
inspectors, you declared that ``Iraq must resolve all outstanding 
issues raised by UNSCOM and the IAEA,'' including giving inspectors 
``unfettered access'' to all sites and ``turn[ing] over all relevant 
documents.''
    We are concerned that the IAEA has failed to get Iraq to resolve 
all outstanding issues and yet helps to make the case in the U.N. 
Security Council for ``closing the nuclear file'' by declaring that 
``Iraq's known nuclear weapons assets have been destroyed, removed or 
rendered harmless,'' as IAEA Director General Mohammed ElBaradei 
reported to the Security Council on October 13.
    The IAEA apparently believes that the burden of proof is on the 
inspectors, not on Iraq, and demonstrates an almost naive confidence in 
an absence of evidence to contradict unsubstantiated Iraqi claims. 
ElBaradei acknowledged ``a few outstanding questions and concerns'' but 
insisted that these provided no impediment to switching from 
investigative inspections to less intrusive monitoring because ``the 
Agency has no evidence that Iraq is actually withholding information in 
these areas.''
    The unfortunate result of the IAEA's accommodation of Iraq, in 
sharp contrast to UNSCOM's confrontational approach, is the widespread 
perception that Iraq's chemical, biological and missile capabilities 
constitute the only remaining threat. This is a dangerous 
misperception, especially in light of the recent revelation by U.S. 
Marine Major (Ret.) Scott Ritter, former head of UNSCOM's Concealment 
Investigation Unit, that UNSCOM had credible information indicating 
that ``Iraq had the components to assemble three implosion-type 
(nuclear) devices, minus the fissile material.'' If Iraq were to 
procure a small amount of plutonium or highly enriched uranium, Ritter 
told a Congressional hearing, Iraq could have operable nuclear weapons 
in a matter of ``days or weeks.'' U.S. government intelligence 
officials have been quoted as regarding Ritter's information as 
``plausible but uncorroborated.''
    Significant issues regarding Saddam's nuclear-weapons program 
remain unresolved. A number of these issues were raised by the IAEA in 
its October 1997 consolidated inspection report, but were never 
resolved in subsequent IAEA reports. A summary of these issues, 
prepared by the Nuclear Control Institute, is attached. In June, we 
raised our concerns in a letter IAEA Director-General ElBaradei. In his 
reply, he assured us in general terms of the IAEA's vigilance, but he 
explicitly refused to address the specific questions we raised. A copy 
of our correspondence with ElBaradei is also attached.
    It is now clear that Iraq undertook a ``crash program'' to develop 
a large, crude bomb and had begun preparations to remove bomb-grade 
uranium from IAEA-safeguarded, civilian fuel rods for use in weapons 
when the allied bombing campaign of the Gulf War halted the project. 
After the Gulf War, Iraq continued work on a smaller, more advanced 
weapon that could be delivered by Scud missiles and on developing 
components for it.
    Although there is evidence that Iraq manufactured and tested a 
number of components, including the high-explosive ``lenses'' needed to 
compress the uranium core to trigger a nuclear explosion, none of these 
components or evidence of their destruction have been surrendered to 
IAEA inspectors. Nor has Iraq provided the IAEA with its bomb design or 
a scale model, despite repeated requests. Iraq also has refused IAEA 
requests for full details of its foreign nuclear-procurement activities 
and for an official government order terminating work on its nuclear 
weapons program. Meanwhile, Saddam's nuclear team of more than 200 
Ph.Ds remains on hand. The IAEA acknowledges they are not closely 
monitored and increasingly difficult to track as the scientists are 
supposedly being transferred back to the ``private sector.''
    Under these circumstances, the IAEA should be directed by the U.N. 
Security Council to provide a complete inventory of all nuclear-bomb 
components, designs and models for which there is documentation or 
intelligence but which the agency cannot account for. The United 
States, as the current President of the Security Council, should insist 
that all elements listed in this inventory be produced by Iraq or 
otherwise accounted for prior to any consideration of ``closing the 
nuclear file.'' This has been UNSCOM's approach with regard missiles 
and chemical and biological weapons, and it should be the IAEA's 
approach to nuclear weapons, as well. The burden of proof should be on 
Iraq, not on the inspectors.
    We also urge a complete assessment by the U.S. intelligence 
community of information obtained by Major Ritter on Iraqi concealment 
of nuclear-weapons components. He has said this intelligence was 
provided by a ``northern European'' government from three Iraqi 
defectors, one of whom was privy to high-level discussions of 
concealment activities by Saddam's hitherto unknown Special Security 
Organization, an elite unit assigned to protect him and his weapons of 
mass destruction. Ritter considered the information solid because it 
corresponded with details of how this unit was trucking missile and 
other weapon components from one depot to another, which he had 
obtained from independent sources. Through the use of U-2 imaging, 
Ritter was able to pinpoint the locations of five of seven buildings 
from rough outlines of the structures provided by one of the defectors.
    Rolf Ekeus, former head of UNSCOM, suggested in June 1997 that 
UNSCOM suspected that Iraq was hiding nuclear components.

        . . . Iraq produced components, so to say, elements for the 
        nuclear warhead. Where are the remnants of that? They can't 
        evaporate. And there, Iraq's explanation is that (they) melted 
        away. And we are still very skeptical about that. We feel that 
        Iraq is still trying to protect them. . . . We know that they 
        have existed. But we doubt they have been destroyed. But we are 
        searching. [Remarks at the Carnegie Endowment for International 
        Peace, June 10, 1997]

    These questions are not merely of historical interest, but directly 
affect Iraq's current ability to produce nuclear weapons. The prudent 
assumption for the IAEA should be that Iraq's nuclear weaponization 
program continues, and that Iraq may now lack only the fissile 
material. Even the possibility that Iraq has already procured this 
material cannot be ruled out because of the serious nuclear-security 
lapses in the former Soviet Union and the abundance of such material in 
inadequately safeguarded civilian nuclear programs worldwide.
    We believe that the threat of an Iraqi nuclear breakout remains 
real. We strongly urge you to commit the United States to oppose the 
closing of the Iraqi nuclear file and the lifting of economic sanctions 
until all outstanding questions on Iraq's nuclear-weapons program are 
resolved. We appreciate your attention to this important matter.
            Sincerely,
                                 Paul Leventhal, President.
                          Steven Dolley, Research Director.

[Attachments.]

                                  U.S. Department of State,
                                     Washington, DC, April 6, 1999.

Paul Leventhal, President,
Steven Dolley, Research Director,
Nuclear Control Institute,
1000 Connecticut Ave., NW, Suite 804,
Washington, DC.

    Dear Mr. Leventhal and Mr. Dolley:
    Thank you for your November 19, 1998 letter to the President 
expressing your concerns regarding Iraq's nuclear weapons program. 
Ensuring Iraqi compliance with all UN Security Council Resolutions is a 
top priority for the United States. Currently, Iraq's illegal refusal 
to comply with its clear obligations under UNSCRs are preventing UNSCOM 
and IAEA inspectors from inspecting WMD-related sites in Iraq, or from 
carrying out other parts of their mandate. We and our international 
partners are determined to see those inspections resumed, effectively 
and unconditionally. On January 30, 1999 the Security Council agreed to 
set up panels to assess three critical aspects of the Iraq situation: 
disarmament; humanitarian concerns; and issues relating to Kuwait. We 
support this undertaking, while maintaining our firm position that 
there can be no consideration of lifting UN sanctions on Iraq until 
Iraq fully complies with its obligations.
    On nuclear issues, we agree with IAEA Director General ElBaradei's 
observation in his February 8, 1999 report to the UNSC President that 
there are ``no indications that Iraq had retained the physical 
capability (facilities and hardware) to be able to produce weapon-
usable nuclear material in amounts of any practical significance . . . 
[but that] `no indication' of prohibited items or activities was not 
the same as their `non existence.' '' We and the IAEA also agree that 
there are still unanswered questions in several areas of Iraq's nuclear 
weapons program, including: lack of information about external 
assistance, lack of technical documentation, and Iraq's stated 
inability to provide documentation showing the timing and modalities of 
the abandonment of its nuclear weapons program. The IAEA has 
highlighted the lack of information about weaponization as one of 
several areas where it has continuing uncertainties and where there is 
a lack of complete and verifiable information.
    UNSC Resolution 715 requires the establishment of an Ongoing 
Monitoring and Verification regime (OMV) to ensure that Iraq cannot 
ever reconstitute its WMD capability. There is no such thing as 
``closing the nuclear file.'' That's an Iraqi term, introduced into the 
diplomatic dialogue in an effort to obscure the obvious fact that any 
future OMV regime put in place after the conclusion of the 
``disarmament phase'' of inspections would still need to retain all the 
authorities, privileges, and immunities of current disarmament 
inspections. Iraq is also required to pass legislation outlawing 
activities prohibited by UNSCR 687, such as building or procuring WMD. 
Iraq has acknowledged its responsibility in this regard under the 
IAEA's OMV plan, but has not yet taken the steps necessary to enact 
these laws.
    Regarding allegations about Iraq's nuclear program by Mr. Ritter, 
we have evaluated his claims but we cannot corroborate allegations that 
Iraq possesses the components for three nuclear weapons minus the 
fissile material. These are serious allegations and we have engaged 
UNSCOM and the IAEA to follow up on them.
    U.S. policy on Iraq is to ensure Iraqi compliance with all relevant 
UN Security Council resolutions, including the elimination of Iraq's 
weapons of mass destruction, to contain Iraq and prevent it from 
threatening its neighbors, and to work for the day when a new Iraqi 
government rejoins the family of nations as a responsible and law-
abiding member.
            Sincerely,
                                               John Barker,
                                     Deputy Assistant Secretary for
                                         Nonproliferation Controls.

                         Nuclear Control Institute,
                      1000 Connecticut Ave., NW, Suite 804,
                                    Washington, DC, April 30, 1999.

John Barker,
Deputy Assistant Secretary for Nonproliferation Controls,
U.S. Department of State,
Washington, DC.

    Dear Mr. Barker:
    Thank you for your letter of April 6, in response to our November 
19, 1998 letter to the President regarding Iraq's nuclear weapons 
program.
    We were gratified to hear that the United States will insist upon 
maintaining sanctions ``until Iraq fully complies with its 
obligations.'' We believe that such compliance must include complete 
resolution of outstanding questions regarding the nuclear program. 
However, proposals now being discussed in the Security Council move 
prematurely to an ongoing monitoring and verification (OMV) posture, 
and to removal of most sanctions. U.S. leadership is needed to hold the 
line on inspections as well as sanctions if Iraq is to be prevented 
from reconstituting its WMD programs. Even if the stated objective of 
OMV is ``to retain all the authorities, privileges and immunities of 
current disarmament inspections,'' the Iraqis will regard a shift to 
OMV differently, and the result will be a weakening, if not 
evisceration, of the inspection regime.
    We were also interested to learn that the State Department has 
``engaged UNSCOM and the IAEA to follow up on'' Scott Ritter's 
intelligence information regarding the existence of complete sets of 
nuclear-bomb components in Iraq. The controversy surrounding Major 
Ritter's resignation has overshadowed his valuable contributions to the 
disarmament of Iraq, and the continued importance of unmasking the 
concealment mechanisms used by Iraq to retain its WMD and related 
technologies. We ask that you keep us informed of the progress of your 
follow-up with UNSCOM and the IAEA.
    Your letter stated that ``the IAEA has highlighted the lack of 
information about weaponization as one of several areas where it has 
continuing uncertainties and where there is a lack of complete and 
verifiable information.'' We agree that vital information on Iraq's 
progress in weaponization is sorely lacking. An NCI study released last 
year (a copy of which is enclosed) highlights several unanswered 
questions about Iraq's nuclear bomb program, most of which remain 
unresolved today.
    Of particular concern, Iraq failed to provide credible evidence to 
the IAEA of the destruction of nuclear-weapons components Iraq had 
previously manufactured, including the high-explosive ``lenses'' needed 
to compress a uranium or plutonium core to trigger a nuclear explosion. 
Nor has Iraq provided IAEA inspectors with its bomb design or a scale 
model, despite repeated requests. The IAEA itself raised these issues 
in its October 1997 consolidated report on inspections in Iraq. [S/
1997/779, 8 October 1997]
    We cannot agree with your suggestion that the IAEA currently shares 
the U.S. Government's concern about unresolved weaponization issues. 
Since early 1998, the Agency has been largely silent on this matter. On 
those rare occasions when the weaponization issue is raised in IAEA 
reports, it is mentioned only briefly, and only in the context of 
downplaying their significance.
    For example, the IAEA's October 1998 report--its most recent 
published discussion of the weaponization issue--acknowledged in 
passing ``Iraq's stated inability to provide relevant engineering 
design drawings of the nuclear weapon and its principal components, or 
details of models,'' but then dismissed these concerns in a sweeping 
conclusion that ``the uncertainties resulting from the above questions 
and concerns would not, of themselves, prevent the full implementation 
of the IAEA OMV plan.'' [S/1998/927, 7 October 1998] Further, these 
outstanding issues contradict the blanket assurances issued by IAEA 
Director-General ElBaradei on October 13, 1998, that ``Iraq's known 
nuclear weapons related assets have been destroyed, removed or rendered 
harmless.''
    The IAEA's apparent lack of concern has also been reflected in 
discussions NCI has had with an Agency official responsible for 
inspections in Iraq. In January 1999, we informed him that NCI had 
compiled a two-page list of unresolved nuclear issues. His reply: ``If 
you use a bigger typeface, you'll have three pages.'' He expressed no 
interest in following up on these issues.
    In another meeting early this year, the same official asserted that 
new documents provided by the Iraqis demonstrated that their progress 
on the development of explosive lenses had not been as significant as 
earlier evidence had suggested. However, when questioned, the official 
admitted that forensic tests to determine the authenticity of these new 
documents had proven ``inconclusive.'' Thus, the new Iraqi documents 
may well be forgeries, and the question of the existence of complete 
sets of weapons components is far from resolved. Nonetheless, the IAEA 
is ready to move on to a monitoring posture.
    In an interview aired April 27 on PBS' documentary program 
``Frontline,'' Dr. Khidir Hamza, head of the Iraqi weaponization 
program until his defection in 1994, stated that, if Iraq were to 
acquire plutonium or highly enriched uranium, it could have nuclear 
bombs in two to six months. This illustrates, contrary to the IAEA's 
perspective, that the question of weaponization is much more than a 
point of historical curiosity.
    Resolution of weaponization issues should be a top priority of U.S. 
Government policy regarding inspections in Iraq. NCI recommends that, 
prior to any revision of the inspection or sanctions regimes, the 
Security Council direct the IAEA to provide a definitive report, 
including a complete inventory of all nuclear-bomb components, designs 
and models for which there is documentation or intelligence but which 
the agency cannot account for. The Security Council should insist that 
all items listed in this inventory be turned over by Iraq, or their 
destruction be documented, prior to any consideration of switching to 
OMV. All documents should be shown by forensic examination to be 
authentic. This has been the U.N. Special Commission (UNSCOM) approach 
with regard to missiles and chemical and biological weapons.
    We thank you for your attention to this important matter, and would 
welcome the opportunity to discuss these issues with you further.
            Sincerely,
                                 Paul Leventhal, President.
                          Steven Dolley, Research Director.

    Senator Brownback. Thank you and thank you for the specific 
recommendations. I do think it is a good point about the 
recommendation to Dr. Blix now to--we are watching and we need 
to have a robust, aggressive inspection regime system in place.
    Mr. Charles Duelfer, the former deputy executive chairman 
of UNSCOM, we are very pleased to be able to have you here in 
the committee.

STATEMENT OF CHARLES DUELFER, FORMER DEPUTY EXECUTIVE CHAIRMAN, 
                      UNSCOM, NEW YORK, NY

    Mr. Duelfer. Well, thank you very much, Mr. Chairman, 
Senator, for the invitation to appear. I have had several years 
of experience working with UNSCOM both in Iraq at the low 
levels, high levels, mid levels, as well as in the Council and 
in various capitals. The highlight of the experience I think 
has been working with some of the experts who have been my 
colleagues from around the world, and they are first-rate. I 
just wanted to mention that.
    At the end of the day, however, UNSCOM was really only 
partially successful. We pressed as hard as we could to achieve 
what was a very categorical mandate, which is full disarmament 
and a monitoring system which will be able to provide 
assurances to the world community that Iraq is not 
reconstituting the systems.
    As you can imagine, over the years I have formed a few 
opinions about the work and the circumstances under which we 
have had to operate. Some of them are presentable, some of them 
are not. But let me make a few points.
    The first is that this is not arms control we are talking 
about. In some sloppy conversations, people will compare what 
UNSCOM has been doing with arms control. It is not. It is 
forced, coercive disarmament. In arms control, generally you 
have a multiple of parties who are engaged in a process which 
they have agreed to, which they have agreed is in their own 
national interests. This is a circumstance that UNSCOM is in 
where a war was fought and the obligation was levied upon Iraq 
to get rid of these weapons. But Iraq, as we have learned, 
steadfastly does not agree that that is in its national 
interest.
    My second point is just that, that what we have learned is 
just how important these capabilities are seen by the regime in 
Iraq. The experience has been that they saved them, in a sense, 
in the war with Iran, a combination of long-range missiles and 
chemical weapons. They used, by our accounting, over 100,000 
chemical munitions in the war with Iran. And Iraq argues, not 
without merit, that in the second Gulf war, the fact that they 
had these weapons affected the outcome. From the Iraqi 
perspective, they observed that Baghdad was not occupied and 
they could attribute some of that by their own internal logic 
to the possession of these weapons. So, the message, which is 
not a happy one for nonproliferation advocates, is that there 
is utility to these weapons. So, you have to create some kind 
of disincentive, an enormous disincentive, to cause somebody to 
get rid of them.
    The third point I want to make is that UNSCOM, or any 
organization which is charged with this responsibility, does 
not have any of its own authority, power in Iraq. All of its 
authority and power is derivative of the Security Council. 
Unless the Security Council is united, forceful, and strong, 
whatever organization and whoever leads it is not going to be 
able to do much in Iraq. And let me tell you it is pretty 
lonely out there when you look back over your shoulder and 
everybody is looking in the opposite direction.
    The fourth point is that since 1990 the consensus that 
existed in the Council on the disarmament issue with respect to 
Iraq has tended to decay. It has not been a straight path, but 
it has tended to decay. This I think is factual degradation. 
Other issues have come up. There is concern about sanctions. 
There is concern about oil prices. There are internal domestic 
politics among a number of nations. What you have is a 
situation where there is a collective against a single, very 
dedicated, unitary actor. And the dynamics are such that it 
kind of favors a single, very dedicated, unitary actor. Iraq's 
statements, Iraq's positions have been absolutely consistent 
from 1991 onward. The Council, I dare say, has not been quite 
as consistent.
    So, I would just like to emphasize that whatever the new 
organization, new chairman can do is going to be vitally 
dependent upon the Security Council. He can do no more than the 
Security Council will forcefully back up and Iraq will permit. 
That was true for UNSCOM and it will be true for UNMOVIC and 
Dr. Blix. So far, to this point in time, the Security Council 
has not been able to find the right mix of carrots and sticks 
to enforce this element of its resolutions.
    Finally, I want to make a comment about the long-term 
prospects for credible monitoring. Some comment has been made 
about the down side of having a partially effective or an 
ineffective monitoring system, and I agree with that. We have 
done some studying internally during the time that we were out 
of Iraq on what would be required, and what is required to 
credibly monitor, according to a performance criteria which 
says that the new chairman or any chairman should be in a 
position that, if Iraq cooperates with the system, he can make 
a judgment without Iraqi compliance. In other words, if he 
spends 6 months collecting data and Iraq fully cooperates, then 
he can make a judgment that Iraq is in major aspects complying, 
which is very different from having a system which simply says, 
well, during the last 6 months or the last period, we detected 
no evidence of violation.
    But if you are to do the former, which we had thought was 
what was required, it requires a very extensive system, more 
extensive than what UNSCOM was able to deploy, with immediate 
access in all instances. That is going to be very tough to 
measure up to, and the prospects of either Iraq agreeing to 
that and the Security Council enforcing that I dare say in my 
opinion are dubious.
    So, I think focusing the issue strictly on the new 
organization and strictly on the new chairman is to let the 
Security Council off the hook in a sense. Dr. Blix and the 
organization will do what they want. If Dr. Blix is receiving 
from all members of the Council guidance and suggestions, look, 
when you get into Iraq, you have got to be tough, you have got 
to go to all these national security organizations, you have 
got to inspect them, you have got to make sure that any of 
these logical places where Iraq would retain these weapons are 
clear, then I think you have got one set of circumstances. But 
I am not sure he is getting that message.
    Thank you very much.
    [The prepared statement of Mr. Duelfer follows:]

                 Prepared Statement of Charles Duelfer

    I am grateful for the opportunity to appear before this Committee 
and discuss the disarmament issues surrounding Iraq.
    I served as Deputy Executive Chairman of the UN Special Commission 
on Iraq from 1993 until I resigned effective 1 March 2000. During the 
period from July 1999 to the arrival of Dr. Hans Blix as the new 
Chairman of the successor body to UNSCOM, I was the acting Chairman. I 
had the pleasure of working with both former Chairmen Rolf Ekeus and 
Richard Butler as well as some extraordinarily talented experts from 
around the world. We attempted, in Iraq, to achieve the disarmament and 
monitoring objectives established for UNSCOM by the Security Council. 
It was a fascinating experience--sometimes rewarding, often 
frustrating, and ultimately, incomplete. As you might imagine, I have 
formed some opinions about this endeavor, which, now that UNSCOM is a 
discrete historical experience may be appropriate to share.
    UNSCOM was formed in 1991 as part of the cease-fire resolution 
ending the Gulf War. The Security Council linked lifting of the oil 
embargo then in place on Iraq to strict disarmament and monitoring 
obligations. I wish to emphasize that this is not an arms control 
arrangement entered into by states party to an agreement they judge in 
their national interest. Iraq was forced into this position. The 
disarmament was to be coercive with UNSCOM and the IAEA to verify 
Iraq's full compliance. What has become apparent over the years is that 
Iraq considers some weapons of mass destruction (WMD) capability to be 
vital to its national security. While UNSCOM and the IAEA had some 
important success in reducing Iraq's WMD capabilities--despite Iraq's 
obstructions and concealment efforts, ultimately, the carrots and 
sticks which the Security Council applied were not commensurate with 
the task of causing full compliance by Iraq.
    Over time, a number of factors contributed to a diminished focus on 
the disarmament and monitoring aspects of the relationship with Iraq. 
The key problem is that the strong consensus amongst Security Council 
members to impose the embargo and sanctions in 1990 when Iraq invaded 
Kuwait has progressively diminished. There are many reasons for this 
including:

  <bullet> At the time of the imposition of the embargo and sanctions, 
        expectations were that the regime would not long endure. It did 
        and so did sanctions with a progressively greater impact on the 
        civilian population.
  <bullet> As progress was made in disarmament, some members of the 
        Council measured the increasing impact of sanctions against the 
        uncertainty of what WMD remained.
  <bullet> The national objectives and priorities of individual Council 
        members have naturally tended to diverge over time.
  <bullet> Concerns about a double standard were expressed, 
        particularly after nuclear tests in India and Pakistan.
  <bullet> Internal Council politics and bilateral relations.

    Other factors contributed as well to this trend, but the key point 
is that a single dedicated unitary actor, Iraq, has a certain advantage 
in facing a coalition which will naturally have shifting priorities and 
objectives amongst its members.
    UNSCOM found itself between Iraq and the Security Council with a 
strict and categorical mandate. It was tasked to verify that all the 
proscribed weapons and capabilities were gone and conduct full 
effective monitoring to assure no reconstitution of those capabilities. 
Impatience on the part of the Council grew and manifested itself in 
many ways--none helpful to UNSCOM. Political and military actions 
resulted in the withdrawal of UNSCOM from Iraq in December 1998. A year 
later, the Council, following an initiative of the United Kingdom, 
voted to replace UNSCOM with a new body.
    There has not been any UN inspection work going on in Iraq since 
December 1998. A question that is often asked is, ``What do you think 
Iraq has been doing in the interim?'' Before addressing this, it is 
important to recall that before UNSCOM withdrew, it reported that it 
was unable to perform its mandated tasks under the conditions which 
Iraq permitted it to operate. The United States and United Kingdom 
conducted military operations after UNSCOM reported that the level of 
cooperation offered by Iraq was not sufficient to accomplish what the 
Security Council required. In other words, when we had inspectors in 
Iraq, we did not know fully what Iraq was up to.
    During the period since UNSCOM withdrew, its experts continued to 
study the data in its archives and continued to receive some limited 
new information. Nothing would indicate that Iraq has undergone any 
radical change of heart with respect to WMD capabilities. I can not say 
definitively that Iraq has a residual missile force with chemical or 
biological warheads. I can not say definitively that Iraq has retained 
concealed production capability for Chemical and Biological agent. Nor 
can I say definitively that there is ongoing research and development 
in these areas.
    I can say definitively that nothing has changed the assessments in 
UNSCOM reports to the Security Council about the incomplete accounts 
provided by Iraq in each of these areas. Moreover, the limited 
information that UNSCOM continued to obtain, raised more not fewer, 
questions about Iraq's compliance. Given Iraq's past performance, their 
clearly stated objectives and extant capabilities, even a moderately 
prudent defense planner would have to assume such WMD capabilities 
exist in Iraq today.
    The future for the new organization, the UN Monitoring, 
Verification and Inspection Commission (UNMOVIC), is unclear. The 
resolution creating UNMOVIC and its tasks was adopted with four 
abstentions. Clearly some key members of the Council had reservations. 
Dr. Hans Blix has courageously accepted the challenge of leading this 
new organization. His task will not be easy as Iraq will perceive that 
the Security Council's unity on this issue is tenuous at best and thus 
may act with increased defiance. The path to this new resolution 
detoured around some big issues and there was strong debate about the 
relationship between disarmament, monitoring, sanctions, and control of 
Iraqi oil receipts.
    What is clear, however, is that UNMOVIC and Dr. Blix will not be 
able to achieve any more than what the Security Council strongly and 
unanimously supports and which Iraq permits. The degree to which all 
(or, indeed, any) members of the Security Council encourage Dr. Blix to 
conduct intrusive and rigorous inspection work is uncertain. If he did, 
prospects for early confrontation with Iraq would be high and the 
Council would rapidly have to deal with yet another wrenching debate.
    There is another side of the equation. From Iraq's perspective, 
what are the carrots and sticks intended to prod them into accepting 
the full implementation of rigorous disarmament and monitoring work? 
The greatest incentive for Iraq is the prospect of sanctions being 
lifted and gaining control over their own oil revenues. While it could 
be argued that the suspension of sanctions might be agreed in the 
Council, Iraq's own control of its revenues remains an unlikely 
prospect. On the disincentive side, Iraq certainly perceives that it is 
highly unlikely that the Council would support military action. Nor is 
it likely to believe that the United States would unilaterally conduct 
a major military campaign on its own if Iraq simply continues its 
status quo refusal to cooperate and comply.
    Lastly, I wish to make a point on full compliance. UNSCOM attempted 
extensive and intrusive disarmament and monitoring inspections. Yet, it 
still could not verify the absence of prohibited WMD programs in Iraq. 
During the period since UNSCOM's withdrawal from Iraq, study was given 
to the requirements for a more effective monitoring system with a 
specific performance criterion. This was a system sufficient to allow a 
Chairman to make a credible judgment about Iraqi compliance with the 
Council mandates--not simply report that no evidence of violations had 
been detected. The later could be done with a minimal system and could 
well allow Iraq to cooperate but not comply resulting in a dangerous 
outcome of virtual disarmament and monitoring.
    A few important points were evident from the UNSCOM work. One is 
that a very extensive and intrusive system with strict requirements for 
immediate access to all sites is essential. Second, Iraq must cooperate 
fully, consistently, and immediately in all ways. Thirdly, if Iraq does 
not cooperate fully, then the Security Council must interpret non-
cooperation as non-compliance and have the will to act accordingly. The 
Security Council cannot divide over UNMOVIC's conclusions or second 
guess its decisions on inspection targets.
    Unfortunately, the experience of UNSCOM does not suggest that the 
Security Council will sustain the strong unified will necessary to 
allow its subsidiary disarmament organ to achieve the strict mandate. 
Ultimately, it was much easier to change UNSCOM than Iraq. Perhaps it 
simply is asking too much for an international body with evolving 
priorities and interests to ensure the long term coercive disarmament 
of a nation that clearly has contrary incentives. Historically, the 
most proximate comparison to the UNSCOM experience, in my view, was the 
disarmament mechanism of the Versailles treaty. The so-called Inter-
Alllied Control Commissions persisted for seven years, but ultimately 
ceased work in Germany having only been partially and temporarily 
successful.

    Senator Brownback. Thank you. I think that is a very good 
thought, that the Security Council is going to determine a lot 
of what takes place.
    Mr. Duelfer, given the meanderings of the Security Council 
on weapons inspections or their lack of desire for 
confrontation with Iraq, do you think we really have any chance 
of an effective inspection regime under this new organization?
    Mr. Duelfer. Frankly, no. The process leading up to this 
new resolution was one where many members of the Council were 
arguing over various elements of it, and I think Iraq got a 
clear message, that there is not strong consensus in the 
Council on this. Iraq is serious. They play for keeps. They can 
detect weakness, and if they do not believe that the Council is 
serious, they are not going to comply.
    The question from the other perspective is what is in it 
for the Iraqis. If you are in Baghdad trying to decide, well, 
should I let all these inspectors come marching around my 
country, poking around all of the organizations we consider 
very sensitive, what is in it for me? Well, not much from their 
perspective. So, frankly, I am not optimistic that a serious 
and effective monitoring system is likely to happen.
    Senator Brownback. Do we know from the internal discussions 
in the Security Council that there is this sort of advice to 
Dr. Blix going on right now about do not be too confrontational 
or do be confrontational? Do we know what sort of discussions 
are taking place?
    Mr. Duelfer. I am certainly not in a position to know or, 
in fact, to comment on that. That is something between Dr. Blix 
and the Security Council. I think they have their own private 
communications.
    Senator Brownback. Are any signals being sent out from 
anybody on the Security Council in the discussions?
    Mr. Duelfer. I think the public comments which have been 
made by various ambassadors have not been of a nature that they 
are encouraging a more intrusive system. They are looking more 
at the other side of the equation, how they can encourage Iraq 
to cooperate.
    Senator Brownback. Mr. Leventhal--or Mr. Milhollin, if you 
care to comment--if the United States is not strongly committed 
to a clear, aggressive, robust inspection regime, is it likely 
that one will occur?
    Mr. Leventhal. I think not and I think the fact that Mr. 
Blix' principal sponsors on the Security Council were the 
Russians and the French and that they had strongly opposed 
Ambassador Ekeus' nomination, which the U.S. had supported, 
bodes ill, which is one of the reasons I thought it might be a 
useful exercise to try to bring Mr. Blix to Washington and at 
least let him know what the congressional sentiment is.
    It may well be that the administration feels that the risk 
of further military confrontation is simply not worth it in 
response to the inevitable refusal by Saddam to cooperate. So, 
our administration seems to be ratcheting down while what is 
really needed is a ratcheting up, particularly since there have 
been no inspections now for more than a year.
    Senator Brownback. Mr. Milhollin, any comment on that?
    Mr. Milhollin. I was particularly struck by Senator Biden's 
question, which I consider to be an excellent question; that 
is, if we agree to this--I think we have to be honest--watered 
down inspection system, what are we getting for it? Are we at 
least getting other countries' promises to abide by the embargo 
in their own domestic export decisions?
    My impression is that we are not getting anything. We have 
conceded on the question of whether Blix or Ekeus should be the 
executive chairman, and we have conceded on the standards in 
the new resolution. And we are losing the overall public debate 
on whether the sanctions are morally justified. It just seems 
to me that we do not have a clear game plan. We do not have a 
comprehensive view of where we want things to go, and we do not 
have a strategy for getting there. We just seem to be reacting 
to events and then caving in when the pressure gets too great 
on one issue or the next.
    For me, this is a very disturbing thing, and I wish our 
Government were more dedicated and more effective in this area, 
and I think if we continue on this path, we will just see a 
slow diminution of interest here and we will see less influence 
in the Security Council and we will see, if not a precipitous, 
at least a gradual erosion of the embargo. More stuff will be 
going in. We will pick it up now and then. We will complain 
about it, but nobody will really care. And the exporters will 
all get the message that nobody really cares. And so, it will 
all just pretty much fizzle out. That is what I am worried 
about.
    Senator Brownback. Senator Biden.
    Senator Biden. What would you do?
    Mr. Milhollin. Well, I think at a minimum we could try to 
win the public debate on the validity of the embargo. That is, 
we seem to be conceding that the suffering of the Iraqi people 
is the fault of the embargo.
    Senator Biden. Why do you say that? How do you reach that 
conclusion?
    Mr. Milhollin. Well, I do not see the United States coming 
out and saying, look----
    Senator Biden. Every time the Secretary speaks, every time 
the President speaks they say that.
    Mr. Milhollin. But where are the specific examples? Where 
is the data? Where is the evidence? I see the statements, yes. 
I see the statements.
    Senator Biden. I do not disagree with anything any of you 
said except none of you have a damn solution. You do not have 
any idea of what you are talking as to what to do from here. 
You are right in the criticism. I think the criticism is dead 
right. We made a fundamental mistake that everybody 
underestimated when George Bush stopped us going into Baghdad. 
One of the things no one figured was that it would be read as a 
conclusion that possession of or the possibility of possessing 
nuclear weapons would hold off the giant. And that is the 
reason why he did not occupy Baghdad is because we had these 
weapons, thereby emboldening them to hang onto them closer. So, 
a fundamental mistake. It is easy to Monday morning quarterback 
now and say it, but a fundamental mistake made. And we continue 
to make mistakes as we go along.
    But the bottom line to me is how do you hold this together. 
You say, for example, Mr. Leventhal, that we seem to conclude a 
further military confrontation is not worth it. How the hell do 
you draw that conclusion? If you conclude that, there is not a 
consensus in America or the Congress or the President can come 
and go unilaterally into Iraq, you are right.
    But you make basically irresponsible statements in a very 
responsible presentation. Every factual thing you have said--I 
cannot think of a single factual point you have made that I 
have disagreed with.
    Now you are sitting there and here you go. Vote around the 
Security Council. They turned down our guy. OK. You do not have 
the votes for our guy. You have got to have enough votes to get 
this done. Now what we do is we nix Blix. No pun intended. I am 
not attempting to be humorous here. We say no, we are not going 
with Blix. Now we have no inspection regime. None. We do not 
get any vote for any inspection regime.
    My question is, is that better than none?
    Mr. Milhollin. That is better.
    Senator Biden. Well, let us just say that. So, it would be 
better not to have anything. Is that what you are saying?
    Mr. Leventhal. Well, I think the U.S. Government feels that 
right now.
    Senator Biden. What do you feel? I can figure out what they 
figure out, but what do you think? What do you think is better?
    Mr. Leventhal. Well, I think that at the very least, since 
this new process is underway, that the sort of requirements 
that we laid out in our conclusion here be actually done.
    Senator Biden. No, no. That is not my question. My question 
is--it comes time to vote. You think Blix is weak. I think he 
is weak. We are in agreement. Now you are sitting there with 
the Ambassador to the United Nations, recommend. He turns to 
you, recommend. How do I vote? How do you vote?
    Mr. Leventhal. I would ask Blix to----
    Senator Biden. Oh, Blix, come on. You know no matter what 
Blix says, this man here is right. Come on. Let us stop kidding 
each other. We are all grown-ups here. If the Security Council 
is not willing to go to the mat and if our allies are not 
willing to suit up again and go in and go to Baghdad, we are 
just playing games. You know it and I know it. And you are 
playing a game here with me, with all due respect.
    How do you vote?
    Mr. Leventhal. I just wanted to clarify what I stated was 
an observation that the U.S. Government apparently was not 
prepared at this point in time to risk military intervention 
over the issue of inspections, and I think Ambassador Walker's 
testimony where he said the red line did not include 
cooperation with inspections supports that.
    What I stated in my conclusion is that the best way to 
proceed at this point is to hold Blix and the IAEA accountable 
for a very detailed report on what is still outstanding as 
unanswered questions and what are the answers to those 
questions.
    Senator Biden. By the way, the IAEA, when Blix was doing 
it, did not have nearly the authority allegedly available here. 
Do you support the new protocol for the IAEA?
    Mr. Leventhal. The new inspection protocol?
    Senator Biden. Yes. Do you support that?
    Mr. Leventhal. It is clearly an advance but it is by no 
means foolproof.
    Senator Biden. I did not say it was. You are sounding like 
a State Department guy. Come on.
    Mr. Leventhal. I support any improvement in this regard.
    Senator Biden. Do you support the increase? Do you support 
the change in the protocol, increasing inspection regimes? 
Which most of my conservative friends in Congress do not 
support, by the way.
    Mr. Leventhal. Are you speaking of Iraq now?
    Senator Biden. I am speaking of IAEA.
    Mr. Leventhal. Right and its general upgrading of----
    Senator Biden. Yes, 93 plus 2.
    Mr. Leventhal. The lessons learned from Iraq.
    Senator Biden. Yes.
    Mr. Leventhal. Understand, Senator, that is a voluntary 
undertaking on the part of member states of the IAEA and it is 
by no means assured that it will be universally applied.
    Senator Biden. I am not saying that. I am asking you would 
you like to see it universally applied? Would you like to see 
it part of the IAEA's authority?
    Mr. Leventhal. I would like to see the IAEA go a lot 
further in terms of inspections by pointing out that the 
ability to safeguard facilities that process plutonium and 
highly enriched uranium is limited and can be defeated in an 
adversarial situation. I would like to see the IAEA provide 
support for putting an end to commerce in fissile materials 
that could end up some day in Iraq or Iran on a smuggling 
basis. So, my feeling about the IAEA upgrade in inspections is 
that it does not get to the heart of the problem, which is the 
inability of the Agency to effectively account for tons of 
fissile material that are being introduced into civilian 
commerce and subject to possible diversion and theft.
    Senator Biden. And you think it should be able to. Right?
    Mr. Leventhal. Absolutely.
    Senator Biden. Now, you are a very wise observer of this 
place. Do you think that we could get that through here? Do you 
think we could get that passed here?
    Mr. Leventhal. Well, I did the initial work on the Nuclear 
Non-Proliferation Act, so I have a sense of what is possible 
and what is not possible legislatively. I think the most 
important thing is to expose the vulnerabilities----
    Senator Biden. Now, come on. Answer my question, please. Do 
you think that it is possible to amend the treaty along the 
lines you suggested and get it passed here in the U.S. Senate? 
What do you think?
    Mr. Leventhal. Well, our position is that the Non-
Proliferation Treaty already makes possible the outlawing of 
commerce in plutonium and highly enriched uranium. What is 
lacking is the political will.
    Senator Biden. You really should have a job at the State 
Department, sir. I am an admirer of yours. I think what you say 
is good. You are just as duplicitous as they are, though, in 
not answering the questions.
    Mr. Milhollin, do you have an answer?
    Mr. Milhollin. Yes.
    Senator Biden. What do you think?
    Mr. Milhollin. I would be happy to answer your question 
straightforwardly, at least according to your definition. I 
think I would have voted against Blix. I think it is 
intolerable that two of our, quote, friends, the Russians and 
the French, would object to one Swedish diplomat and then not 
object to another one and expect us to go along with it----
    Senator Biden. But you know they are not our friends in 
this. Come on.
    Mr. Milhollin. Well, that is true, they are not our 
friends.
    But there is no objective basis for----
    Senator Biden. I agree there is not. There never is.
    Mr. Milhollin. So, I would have just said no.
    Senator Biden. Just said no and no inspection. Right? I am 
not disagreeing with you. I want to know.
    Mr. Milhollin. No inspections--a Potemkin inspection system 
is more dangerous than no inspection----
    Senator Biden. I am not disagreeing with you. I just want 
to know.
    Mr. Milhollin. And I would have insisted on having a Ekeus.
    Senator Biden. Right. You would have insisted on a Ekeus 
and you would have not gotten Ekeus. There is no possibility 
you would have gotten Ekeus. There is no indication anything in 
past is prologue. There is no indication you would ever be 
given Ekeus. In foreign policy decisions made by governments on 
the Security Council, it never is based upon a Ekeus to be 
made. It is based upon national self-interest. Their self-
interest, they view, is different than ours. They would vote 
no.
    I tend to agree with you. No inspection would be better 
than this one. But that is all I am trying to get you to say.
    Mr. Milhollin. That is the position I would have taken.
    Senator Biden. Good.
    Mr. Milhollin. I also think that the 93 plus 2 is good. I 
applaud the IAEA's slow steps toward a more aggressive 
inspection regime.
    One thing the IAEA could do is--and it has the authority to 
do--is simply unilaterally disclose the amounts of fissile 
material that it is safeguarding everywhere in the world. If it 
had done that in Iraq, we would have discovered that there were 
bomb quantities of material being safeguarded there. Nobody 
knew that until the war started. The IAEA did not disclose it 
because there was less than a bomb quantity at each different 
material balance location. So, even though you had enough in 
the country to make a bomb, the fact that it was spread across 
several different places made it unnecessary for the IAEA to go 
there every 3 weeks to find out whether it was still where it 
was supposed to be.
    Senator Biden. Got you.
    Mr. Milhollin. So, there is a lot they could do on their 
own.
    Senator Biden. Gentlemen, I truly appreciate your input on 
this. I do not mean to be argumentative with you. The part that 
bothers me about all of this is that what we all pretend is 
there is an answer. You guys have no more of an answer than 
that table is going to get up and fly. We have cited the 
problem. Now what do we do?
    Senator Brownback. I am hearing something different from 
them than you are then, Senator Biden. I think there is a lot 
of agreement that is here, but what I hear them saying is that 
if the United States does not show resolve and clear resolve 
and intensity on this--and perhaps maybe the most troubling 
thing that has come out today is Ambassador Walker's statement 
that there is not a bright line on the weapons inspection issue 
because the United States is going to have to show that sort of 
intensity if we are going to have a weapons inspection system 
because otherwise it really will be a pretend type of system. 
It is incumbent upon us, I think, in the Congress to say we do 
want something that is clear that we will do and let us 
establish that line if we are going to have a weapons 
inspection system.
    And then Blix is it, whether we want him or not. He is it. 
Now let us say that the United States will back it up and let 
us buck him up.
    Senator Biden. Well, Mr. Chairman, I really do not----
    Senator Brownback. That is a good part of, I think, the 
solution.
    Senator Biden. By the way, I think you are right. I do not 
disagree with that. But my experience, after 28 years doing 
this, is big nations cannot bluff. Big nations cannot bluff.
    I am ready to introduce a resolution with you that if they, 
in fact, refuse the inspections, you and I will introduce a 
resolution calling for the use of force by the United States of 
America if we have to do it alone to go after Saddam Hussein.
    Senator Brownback. I think that is a good notion.
    Senator Biden. Good, because absent that, the rest of this 
is malarkey, guys. You know it and I know it. Stop playing your 
intellectual games.
    Senator Brownback. Mr. Duelfer, what do you think of that, 
of the U.S. Congress speaking that way?
    Mr. Duelfer. I do not want to be accused of opining above 
my pay grade.
    Senator Biden. You are much smarter than that in my 
observation.
    Mr. Duelfer. What is the objective here? Is it disarmament, 
forced disarmament? It is not arms control. I separate myself 
from these two gentlemen----
    Senator Brownback. I agree. It is forced disarmament is 
what we have been after all along.
    Mr. Duelfer. But I think one of the issues is, are we now 
engaged in something which is merely a tactic? In which case, 
UNMOVIC, Blix, and all are just part of a larger process where 
somebody has got their eye on the ball and it is not the 
disarmament ball. It is something else. I think that that is in 
fact the process we are engaged in right now.
    But nevertheless, we have chosen to play this game out in 
the Security Council as a stadium. I am not sure that is a 
great stadium to play in, frankly, from what I have seen. But 
nevertheless, if you do that, you accept a lot of constraints. 
You have got a lot constraints because these characters all 
have different national objectives. What I am trying to say is 
over time the consensus on disarmament, forced disarmament, in 
Iraq is--you know, they are not with the United States. I do 
not know where the United States is. I feel I know more about 
the Iraqi policy than I do about the American policy, frankly.
    Senator Brownback. My concern is I am not sure where we are 
either on it. Perhaps that is where something of a statement 
through Congress and to the President might help at least 
clarify that point over which we have some control and is a 
better stadium to play in.
    Gentlemen, thank you all for joining us today.
    Senator Biden. Thanks a lot, fellows.
    Senator Brownback. I appreciate very much your input.
    The hearing is adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
